<html>
<title> - FOREIGN POLICY PRIORITIES IN THE PRESIDENT'S FY10 INTERNATIONAL AFFAIRS BUDGET</title>
<body><pre>[Senate Hearing 111-270]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-270
 
FOREIGN POLICY PRIORITIES IN THE PRESIDENT'S FY10 INTERNATIONAL AFFAIRS 
                                 BUDGET 

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 20, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

54-874 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 












                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       Republican Leader designee
BARBARA BOXER, California            BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHNNY ISAKSON, Georgia
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   JIM DeMINT, South Carolina
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
JEANNE SHAHEEN, New Hampshire        ROGER F. WICKER, Mississippi
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        

  










                            C O N T E N T S

                              ----------                              
                                                                   Page

Clinton, Hon. Hillary R., Secretary of State, Department of 
  State, Washington, DC..........................................     5
    Prepared statement...........................................     8
    Responses to questions submitted for the record by:
        Senator John Kerry.......................................    46
        Senator Richard Lugar....................................    76
        Senator Robert Menendez..................................    87
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3

                                 (iii)

  


FOREIGN POLICY PRIORITIES IN THE PRESIDENT'S FY10 INTERNATIONAL AFFAIRS 
                                 BUDGET

                              ----------                              


                        WEDNESDAY, MAY 20, 2009

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 1:30 p.m., room 
SH-213, Hart Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Dodd, Feingold, Boxer, Menendez, 
Cardin, Casey, Webb, Shaheen, Kaufman, Gillibrand, Lugar, 
Corker, Barrasso, and Wicker.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. This hearing will come to order. We have 
seven Senators present. Madam Secretary, we're delighted, 
obviously, to welcome you here. But we are going to try to have 
a business meeting and get two of your folks out of here as 
fast as we can. I know you won't object to that if we 
interrupt, but we do need 10 Senators here to do it. We'll wait 
until we get the requisite number.
    Meanwhile, let me just say how pleased we are to have you 
up here. This is the first time that you've testified before 
the Senate since your confirmation hearing, and it's obvious to 
everybody here that you've been enormously busy from that 
moment on. I read just the other day that at the end of the 
last month, you traveled 74,107 miles, logged over 157 hours in 
the air, visited some 22 countries. So we're happy to have a 
very short trip for you today, and appreciate you coming up 
here from Foggy Bottom and testify about the foreign affairs 
budget.
    It's only been 4 months, but for every member of this 
committee and the Congress and I think for the country, it's 
been heartening to see diplomacy restored to its rightful 
place, at the forefront of American foreign policy. This 
administration, with the President's and your leadership, has 
quickly turned the rhetoric of engagement into some promising 
new realities on the ground.
    The dialogue that you have offered to Iran and that we hope 
will occur, and Syria, the resetting of relations with Russia, 
reaching out to Latin America and China, reviving the Middle 
East peace process, recommitting to Afghanistan and Pakistan, 
really, there isn't a corner of the globe that's been untouched 
by the administration's diplomatic initiatives, and there 
certainly isn't a vexing challenge that you haven't tackled 
head-on.
    As we all know, if we're going to realize the promise of 
these opening days, there's a lot of work yet to do. In a 
globalized world, it's become trite, but nevertheless, it is 
important to remember how interconnected, and so, ultimately, 
our security. And that's why this century's security challenges 
demand a new level of commitment to diplomacy and development. 
The budget that you've come here to testify on today, I believe 
helps to move us in that direction.
    We must address weak and failed states as well as strong 
states. We need to reach new understandings with China and 
India and the developing world to avert catastrophic climate 
change and put low-carbon technologies into the hands of 
billions of people.
    We need to find ways to bolster vulnerable allies in places 
like the West Bank, Pakistan, and Afghanistan. And we need to 
find new ways to speak to disenfranchised populations and to 
address the conditions that empower extremists.
    So it's clear that even as we confront an economic crisis 
here at home, we can't delay the task of strengthening our 
diplomatic and development capacity. We can't afford to come up 
short on the promises that have been made to allies and to 
vulnerable populations and to the world.
    I know you are determined, and we want to help you seize 
this opportunity to make significant strides toward restoring 
America's leadership role. And we believe that in doing so, we 
will make the world safer and we will make us safer.
    The President's fiscal year 2010 request of $53.8 billion 
for international affairs recognizes these realities and begins 
to marshal the resources to address them. It starts the process 
of rebuilding our diplomatic and development operations and 
significantly increases the size of the Foreign Service, 
providing 800 additional officers to the State Department and 
350 additional Foreign Service officers to USAID.
    It puts the United States on the path to double foreign 
assistance by 2015.
    It vastly increases our civilian assistance to Pakistan and 
sets us on a course toward redefining our relationship with the 
people of Pakistan, something that Senator Lugar and I and Vice 
President Biden have been particularly focused on.
    Finally, the President's budget proposes important global 
initiatives in food security, climate change, global health, 
and basic education. It doubles agricultural development 
funding to $1 billion, doubles environmental and climate change 
activities to nearly $600 million, and it sustains our 
commitment to fighting HIV/AIDS, funding global health 
programs, and increasing our investment in basic education.
    Each of these priorities is essential in its own right. 
Together, they represent a commitment to reinvest in our 
civilian programs and ensure that our diplomats and 
developmental professionals have the resources and expertise 
they need to meet 21st century challenges.
    Our aid programs, as you well know, need to be enhanced and 
modernized for a new set of challenges. When we talk about 
reforming foreign aid or rebuilding civilian capacity, what 
we're really talking about is having the right people on the 
ground with the right resources to manage our strategic 
relationships and to address threats before they fully 
materialize, and to advance our most important ideals.
    Congress welcomes the role that we share in supporting and 
initiating this reform process. We have not successfully passed 
a State Department authorization bill since 2002, and I look 
forward to working with you to pass an authorization bill that 
will reform and strengthen our civilian institutions.
    We have a long way to go before we fully address the 
imbalance between our military and civilian capacities, and 
restore to the State Department some of its traditional 
responsibilities. I know you spoke about that at some length at 
your confirmation hearing, and I know you are working with 
Secretary Gates to make that happen. Still, this budget in that 
context is a very important step in the right direction.
    As we face multiple crises and major challenges, we need to 
redouble our commitment to a robust international affairs 
budget that will build the capacity of our civilian 
institutions. I commend you and the administration for this 
strong and ambitious budget, and we look forward to working 
with you to get it through the Congress and to help you 
implement these important initiatives.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you, Mr. Chairman. I join you in 
welcoming Secretary Clinton. We are pleased to have the 
opportunity to examine the State Department budget and ask 
fundamental questions about the Obama administration's foreign 
policies.
    Secretary Clinton is presenting today a foreign affairs 
budget that reflects an increase of roughly 9 percent over the 
previous year. Now, that's an important figure, but it's not 
sufficient to illuminate whether the budget meets our national 
security needs.
    Although our defense, foreign affairs, Homeland Security, 
intelligence, and energy budgets are carefully examined from 
the incremental perspective of where they were in the previous 
year, evaluating whether the money flowing to these areas 
represents the proper mix for the 21st century has not been a 
strength of the budget process to date.
    In the past, neither Congress nor the executive branch has 
paid sufficient attention to whether we are building national 
security capabilities that can address the threats and 
challenges we are likely to encounter in the future. The 
failures of the budget process usually have left funding for 
diplomacy and for foreign assistance short of what is 
necessary.
    Even as we examine the State Department and foreign 
assistance budgets today, we should be cognizant that the Obama 
administration officials have been engaged in international 
talks on enormous budgetary commitments that could go well 
beyond the $53.9 billion we are considering today.
    The administration chose not to include its $108 billion 
request for the International Monetary Fund as part of the 
regular 2010 budget. Instead, really at the last minute, the 
administration asked that the money for the IMF be included in 
the supplemental appropriation bill before the Senate this 
week.
    Although I believe the IMF is essential to shoring up the 
international financial system, this process has truncated 
Congress' opportunity to evaluate the proposed funding. It has 
also encumbered the public transparency of the administration's 
proposal, which is critical to building broad support for the 
U.S. commitment to the IMF, not just this week, but looking 
forward to months and years to come.
    Climate change negotiations have the potential for an even 
bigger fiscal and economic impact. Although the administration 
is consulting with Congress, we still have few details, and 
only those about the structure of a potential climate change 
agreement or associated financial issues with that.
    There are broad expectations, and an agreement would 
include the establishment of several funds through which the 
United States and other OECD countries would help developing 
nations adapt to climate change and develop clean technology. 
This could involve the expenditures of tens of billions of 
dollars in Government revenue.
    I mention these potential international commitments to 
underscore that we must see beyond the narrow confines of the 
State Department budget. The global financial crisis, the 
strains on global food and energy supplies, nonproliferation 
pressures, the threat of international pandemics, the potential 
impact of climate change, continuing instability in the Middle 
East, among other issues, will place enormous demands on United 
States leadership and resources. We have to expect additional 
political, economic, or even national security shocks. We know 
from history that societies under severe economic stress often 
do not make good political choices. In the face of job losses, 
wealth evaporation, homelessness, hunger, and other outcomes, 
the fabric of many nations will be tested.
    The crisis is likely to stimulate nationalism that could 
lead to demagogic policies or governments. Under such 
conditions, some nations might experience a retreat from 
democracy. This in turn increases the possibility of violent 
conflicts within and between nations.
    But we should be clear that expenditures should fit into a 
strategy that seeks the maximum impact from funds and addresses 
our most critical national security deficits. Expenditures that 
prevent problems from spiraling into crises deserve the higher 
priority they are receiving.
    For example, as I mentioned several months ago at Secretary 
Clinton's confirmation hearing, food and energy, in particular, 
should receive far more diplomatic attention than they have in 
the past. Energy vulnerability constrains our foreign policy 
options around the world, limiting effectiveness in some cases, 
forcing our hand in others.
    Progress will require personal engagement by the Secretary 
of State. I am hopeful that the Secretary will soon appoint a 
Senior State Department Energy Coordinator, who will have 
direct access to her, in accordance with the legislation this 
committee passed into law during the last Congress.
    I appreciate the attention the Secretary has focused thus 
far on global hunger. Eradicating hunger must be embraced as 
both a humanitarian and national security imperative. Unless 
nations work together to reverse negative trends in 
agricultural production, the combination of population growth, 
high energy prices, increasing water scarcity, and climate 
change threaten to create chronic and destabilizing food 
shortages.
    Without action, we may experience frequent food riots and 
perhaps warfare over food resources. We almost certainly will 
have to contend with mass migration and intensifying health 
issues stemming from malnutrition. Our diplomatic efforts to 
maintain peace will be far more difficult wherever food 
shortages contribute to extremism and conflict.
    Madam Secretary, as always, it is a pleasure to have you 
with us today and to have worked with you in the past weeks, as 
the chairman has pointed out. We look forward to your insights 
on these and many other matters. We thank you much. I thank 
you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar. We now 
have a quorum present.

[Business meeting held.]

    The Chairman [resuming hearing]. Secretary Clinton, we are, 
as I said, happy to have you here, and we look forward to your 
comments. Thank you very much.

  OPENING STATEMENT OF HON. HILLARY R. CLINTON, SECRETARY OF 
           STATE, DEPARTMENT OF STATE, WASHINGTON, DC

    Secretary Clinton. Thank you very much, Mr. Chairman, 
Senator Lugar, members of the committee, and I appreciate 
greatly your action on our nominees. Obviously, that's a matter 
of great concern, and I am grateful for your attention.
    When I last appeared before this committee at my 
confirmation hearing in January, I emphasized the need for a 
comprehensive approach to the challenges that our Nation faces, 
instability in Afghanistan, Pakistan, Iraq, threats in the 
Middle East, in Iran, transnational threats, like terrorism, 
nuclear proliferation, energy, security, climate change, and 
urgent development needs, from extreme poverty to pandemic 
disease, all of which have a direct impact on our own security 
and prosperity.
    These are tough challenges, and it would be foolish to 
minimize the magnitude of the task before us, but we also have 
new opportunities. By using all the tools of American power, 
the talent of our people, well-reasoned policies, strategic 
partnerships, and the strength of our principles, we can make 
great strides in solving or managing these problems. We have 
faced some for generations, and now we can also figure out ways 
to address the new threats of the 21st century.
    The President's 2010 budget is a blueprint for how we 
intend to put smart power into action. The FY 2010 budget 
request for the State Department and USAID is $48.6 billion. 
That's a 7-percent increase over fiscal year 2009 funding. 
Other accounts that are not directly in the State Department 
and USAID jurisdiction, but are part of our overall foreign 
policy, are also deserving of attention.
    We know that this request comes when some agencies are 
going to be experiencing cutbacks and when the American people 
are facing a recession, but it is an indication of the critical 
role the State Department and USAID must play to help advance 
our Nation's interests, safeguard our security, and make us a 
positive force for progress worldwide.
    Our success depends upon a robust State Department and 
USAID working side by side with a strong military in 
furtherance of our three Ds--diplomacy, development, and 
defense--that will enable us to exercise global leadership 
effectively.
    This budget supports the State Department and USAID in 
three key ways. It allows us to invest in our people, implement 
sound policies, and strengthen our partnerships. Let me begin 
with our people. Many key posts across our embassy world are 
vacant for the simple reason we don't have enough personnel. In 
Beijing, 18 percent of Embassy positions are open. In Mumbai, 
20 percent. In Jeddah, 29 percent. And we face similar 
shortages here in Washington.
    We need good people, and we need enough of them. That's why 
the 2010 budget includes $283 million to facilitate the hiring 
of over 740 new Foreign Service personnel. This is part of the 
President's promise of expanding the Foreign Service by 25 
percent.
    The staffing situation at USAID is even more severe. In 
1990, USAID employed nearly 3,500 direct-hire personnel to 
administer an annual assistance budget of $5 billion. Today, 
the agency's staff has shrunk by roughly a third, but they are 
now tasked with overseeing $13.2 billion in assistance. To 
provide the oversight our taxpayers deserve and to stay on 
target of delivering aid effectively and doubling foreign 
assistance by 2015, we need more people.
    Our people also need the right skills to help meet the 
challenge of development, especially in conflict and post-
conflict arenas. We're requesting $323 million for the Civilian 
Stabilization Initiative, and that includes an expansion of the 
Civilian Response Corps.
    With the right people in the right numbers, the State 
Department and USAID will be able to focus on our priorities: 
First, the urgent challenges in regions of concern; second, the 
transnational challenges; and third, the development 
assistance.
    You know very well that our efforts in Afghanistan and 
Pakistan center on the President's goal to disrupt, dismantle, 
and defeat
al-Qaeda. It requires a balanced approach, and that is what we 
are attempting to do by integrating civilian and military 
efforts. We're helping the Afghans, for example, to revitalize 
their country's agricultural sector.
    With respect to Pakistan, we're supporting the Pakistani 
military as they take on the extremists who threaten their 
country's stability. But we're also making long-term 
investments in Pakistan's people and the democratically elected 
government through targeted humanitarian and economic 
assistance, and I appreciate the leadership that Chairman Kerry 
and Senator Lugar are providing on that front.
    We are also seeking the resources to deploy a new strategic 
communications strategy. We can win the war on the ground and 
literally lose it in the media, and that is what is happening 
in so many parts of the world today. As we move forward with 
the responsible deployment of our combat forces from Iraq, this 
budget provides the tools we need to help transition to a 
stable, sovereign, self-reliant Iraq, and we are working with 
Israel and the Palestinian authority to advance the goal of a 
two-state solution. Now, there are many other hot spots around 
the world, but suffice it to say, we are attempting to address 
all of them.
    And in addition to these urgent challenges, we face a new 
array of transnational threats, and these require us to develop 
new tools of diplomatic engagement. We cannot send a special 
envoy to negotiate with a pandemic or call a summit with carbon 
dioxide or sever relations with the global financial crisis. We 
have to engage in a different way, and I appreciate Senator 
Lugar's commitment to working with us on energy security.
    An announcement will be forthcoming soon on a coordinator 
who will have very significant authorities within the 
Department in addition to our Special Envoy on Eurasian Energy, 
which is already making a difference in terms of encouraging 
the Europeans and others to begin to work more on their own 
energy needs.
    We're also working through the Major Economies Forum to 
prepare for the United Nations Climate Conference in 
Copenhagen. And we're working now as a full partner in the P5+1 
talks with respect to new approaches to prevent Iran from 
obtaining nuclear weapons. And the President and I have 
launched a 6-year global health initiative to combat the spread 
of disease.
    It's very important to recognize the leadership of this 
committee when it comes to nonproliferation, energy, and 
climate change, and also to know that if we don't get these 
right, a lot of what we're doing in terms of dealing with the 
day-to-day headlines will not be sufficient.
    It's important that development plays a critical role in 
our foreign policy, and that's going to require a new approach. 
We're taking a stem-to-stern look at USAID and our other 
foreign aid programs. How are we going to deliver aid more 
effectively? How are we going to get more of the dollar, the 
hard-pressed taxpayer dollar, that is appropriated for 
development aid to actually end up where we expect it to be? 
And we know that smart development assistance advances our 
values and our interests, and we look forward to working with 
you as we attempt to try to recast and revitalize our 
development efforts.
    We also need new partnerships within our own Government. 
Secretary Gates and I testified before the Appropriations 
Committee a few weeks ago to talk about how we are working with 
the Defense Department and how, in the process of that effort, 
the State Department will be taking back authorities and 
resources to do the work that we should be leading on.
    Now, all of this is going to require new partnerships, not 
only strengthening our multilateral, but also our bilateral 
ties, and our budget requests will fulfill the United Nations 
peacekeeping support that we have committed to. But in addition 
to our government-to-government work, we are focused on people-
to-people diplomacy. We're working with women's groups and 
civil society and human rights activists around the world.
    Last week, I announced the creation of a virtual student 
Foreign Service that will bring together college students in 
the United States and our embassies abroad on digital and 
citizen diplomacy initiatives. All of this must be premised on 
sound principles and on sound management. So we're working to 
make the Department and USAID more efficient, more transparent, 
and more effective.
    Mr. Chairman, we're pursuing these policies not only 
because it is the right thing to do, but because we believe it 
advances America's security, as well as democracy and 
opportunity around the world. We actually are the greatest 
beneficiaries when the world is flourishing, and if not, we 
bear the cost of the consequences.
    As you said, I have traveled many miles since testifying 
before this committee, and I can guarantee you that there is an 
enormous eagerness to partner with us. I look forward to 
working with this committee on translating our plans and our 
words into the kind of action that will ensure a better, more 
peaceful, and prosperous future for our children. Thank you 
very much, Mr. Chairman.
    [The prepared statement of Secretary Clinton follows:]

   Prepared Statement of Secretary of State Hillary Rodham Clinton, 
                  Department of State, Washington, DC

     Mr. Chairman, Senator Lugar, and members of the committee, it's a 
pleasure to be with you this afternoon.
     When I last appeared before this committee at my confirmation 
hearing in January, I emphasized the need for a comprehensive approach 
to the challenges on our Nation's agenda. We face instability in 
Afghanistan, Pakistan, Iraq, and the Middle East; transnational threats 
like terrorism, nuclear proliferation, and climate change; and urgent 
development needs ranging from extreme poverty to pandemic disease that 
have a direct impact on our own security and prosperity.
    These are tough challenges, and we would be foolish to minimize the 
magnitude of the task ahead. But we also have new opportunities. By 
using all the tools of American power--the talent of our people, well-
reasoned policies, strategic partnerships, and the strength of our 
principles--we can make great strides against problems we've faced for 
generations, and also address new threats of the 21st century.
    This comprehensive approach to solving global problems and seizing 
opportunities is at the heart of smart power. And the President's 2010 
budget is a blueprint for how we intend to put smart power into action.
    The President's FY 2010 budget request for the State Department and 
USAID is $48.6 billion--a 7-percent increase over FY 2009 funding 
levels. We know that this request comes at a time when some other 
agencies are experiencing cutbacks. But it is an indication of the 
critical role the State Department must play to help advance our 
Nation's interests, safeguard our security, and make us a positive 
force for progress worldwide.
    In the face of formidable global challenges, our success requires a 
robust State Department and USAID working side by side with a strong 
military. To exercise our global leadership effectively, we need to 
harness all three Ds--diplomacy, development, and defense.
    This budget supports the State Department and USAID in three key 
ways: It allows us to invest in our people, implement sound policies, 
and strengthen our partnerships. We know it represents a major 
investment. And we pledge to uphold principles of good stewardship and 
accountability.
    Let me begin with people. The men and women of the State Department 
and USAID have the world in their hands, but too many balls in the air. 
Many key positions at posts overseas are vacant for the simple reason 
that we don't have enough personnel. In Beijing, 18 percent of our 
Embassy positions are open. In Mumbai, 20 percent. In Jeddah, Saudi 
Arabia, it's 29 percent. We face similar staffing shortages at the 
Department in Washington.
    To address the challenges confronting our Nation, we need good 
people--and enough of them. That's why the President's 2010 budget 
request includes $283 million to facilitate the hiring of over 740 new 
Foreign Service personnel. These new staff are part of a broader effort 
to fulfill the President's promise of expanding the Foreign Service by 
25 percent.
    The staffing situation at USAID is, if anything, more severe. In 
1990, USAID employed nearly 3,500 direct-hire personnel to administer 
an annual assistance budget of $5 billion. Today, the agency's staff 
has shrunk by roughly a third, but they are tasked with overseeing 
$13.2 billion in assistance. To provide the oversight that our 
taxpayers deserve and stay on target to meet our goal of doubling 
foreign assistance by 2015, we need more people manning the decks.
    We also need personnel with the right skills to respond to the 
complex emergencies of the 21st century. To help meet this challenge, 
we are requesting $323 million for the Civilian Stabilization 
Initiative--that includes expansion of the Civilian Response Corps.
    This group of professionals will help the United States stabilize 
and reconstruct societies in transition from conflict and civil strife.
    With the right people in the right numbers, the State Department 
and USAID will be able to use smart power to implement smart policies. 
We are focusing on three priorities: First, urgent challenges and 
regions of concern, including Afghanistan and Pakistan, Iraq and the 
Middle East; second, transnational challenges, and third, development 
assistance.
    In Afghanistan and Pakistan, our effort centers on the President's 
goal to disrupt, dismantle, and defeat al-Qaeda. We know that this will 
require a balanced approach that relies on more than military might 
alone. So we are expanding our civilian efforts and ensuring that our 
strategy is fully integrated and adequately resourced. To create 
conditions that will prevent al-Qaeda from returning to Afghanistan, we 
are helping Afghans revitalize their country's agricultural sector, 
which was once a major source of jobs and export revenue.
    We are supporting the Pakistani military as they take on the 
extremists who threaten their country's stability, and we are making 
long-term investments in Pakistan's people and democratically elected 
government through targeted humanitarian assistance. In both 
Afghanistan and Pakistan, we are holding ourselves and these 
governments accountable for progress toward defined objectives. 
Finally, we are seeking the resources to deploy a new strategic 
communications strategy to combat violence and empower voices of 
moderation in both countries.
    As we move forward with the responsible redeployment of our combat 
forces from Iraq, this budget provides the tools we need to facilitate 
the transition to a stable, sovereign, self-reliant Iraq and to forge a 
new relationship with the Iraqi Government and people based on 
diplomatic and economic cooperation. Elsewhere in the Middle East, we 
are working with Israel and the Palestinian Authority to advance our 
goal of a two-state solution and a future in which Israel and its Arab 
neighbors can live in peace and security.
    In addition to these urgent challenges, we also face a new array of 
transnational threats, including climate change, energy security, 
nonproliferation, and disease. These issues require us to develop new 
forms of diplomatic engagement--we cannot send a special envoy to 
negotiate with a pandemic, call a summit with carbon dioxide, or sever 
relations with the global financial crisis. By supporting the 
Department's use of new tools and strategies, the President's budget 
will enable us to confront the threats and seize the opportunities of 
our interconnected world. For example, we are working through the Major 
Economies Forum and to prepare for the United Nations Climate 
Conference in Copenhagen. We are deploying new approaches to prevent 
Iran from obtaining nuclear weapons, and are now a full partner in the 
P5+1 talks. And the President has launched a 6-year Global Health 
Initiative to help combat the spread of disease.
    On the subject of transnational challenges, I want to recognize 
Chairman Kerry and Senator Lugar's work on nonproliferation, energy, 
and climate change. Your leadership has helped shape the global debate 
on these issues, and we will need your wise counsel going forward.
    This budget also reflects the critical role that development 
assistance must play in our foreign policy. We are proposing 
significant investments in critical programs including maternal and 
child health, education, food security, and humanitarian assistance. 
These initiatives build good will, alleviate suffering, and save lives, 
but they also make our country safer and our partners stronger. Smart 
development assistance advances our values and our interests. Our 
assistance programs will also reduce the risk of instability in 
countries that face a variety of political, economic, and security 
challenges. Providing responsible governments with economic support now 
can help avert far more expensive interventions in the future.
    Our smart power approach will rely on partnerships to magnify our 
efforts. These partnerships begin within our own government. We are 
seeking an unprecedented level of cooperation between agencies. 
Secretary Gates highlighted this cooperation when he testified with me 
before the Appropriations Committee last month. Partnerships are also 
vital beyond our borders.
    None of the great problems facing the world can be solved without 
the United States, but we cannot solve any of these problems on our 
own. We are energizing our historic alliances in Europe and Asia, 
strengthening and deepening our bilateral ties with emerging regional 
leaders like Indonesia, Brazil, Turkey, Mexico, and India, and 
establishing more constructive, candid relationships with China and 
Russia. As we work to maximize the benefits of our policies and to 
ensure that global burdens are broadly shared, we must also make more 
effective use of international organizations. Our budget request will 
fulfill the United States obligations to the United Nations and provide 
support for U.N. peacekeeping operations.
    We are also expanding our partnerships beyond traditional 
government-to-government efforts. In addition to working with women, 
civil society, and human rights activists around the world, we are also 
encouraging more people-to-people cooperation. Last week at Yankee 
Stadium, I announced the creation of a Virtual Student Foreign Service 
that will bring together college students in the United States and our 
embassies abroad to work on digital and citizen diplomacy initiatives.
    Finally, we must rely on sound principles to guide our actions. We 
are committed to practicing what we preach. And this includes a 
commitment to accountable governance at home and abroad.
    As we seek more resources, we have a responsibility to ensure that 
they are expended wisely. We are working to make the Department more 
efficient, more transparent, and more effective. For the first time, we 
have filled the position of Deputy Secretary for Resources and 
Management. Together, we are working to increase efficiency and 
implement reforms throughout the State Department and USAID.
    Mr. Chairman, we're pursuing all of these policies because it is 
the right thing to do, but also because it is the smart thing to do. No 
country benefits more than the United States when there is greater 
security, democracy, and opportunity in the world. Our economy grows 
when our allies are strengthened and people thrive. And no country 
carries a heavier burden when things go badly. Every year, we spend 
hundreds of billions of dollars dealing with the consequences of war, 
disease, violent ideologies, and vile dictatorships.
    Since last testifying before the committee, I have traveled around 
the globe, covering many miles and many continents. I can assure you 
that there is genuine eagerness to partner with us in finding solutions 
to the challenges we face.
    Our investment in diplomacy and development is a fraction of our 
total national security budget. But this country will make very few 
investments that do more, dollar for dollar, to create the kind of 
world we want to inhabit. By relying on the right people, the right 
policies, strong partnerships, and sound principles, we can lead the 
world in creating a century that we and our children will be proud to 
own--a century of progress and prosperity for the whole world, but 
especially for our country.
    Thank you again for this opportunity to present the President's 
budget request. I look forward to answering your questions.

    The Chairman. Thank you very much, Secretary. Let me begin 
by asking you about the Middle East peace process. In 
conversations with Prime Minister Netanyahu, who's visited here 
the last couple of days, and in the course of many 
conversations during my recent travels to the Middle East with 
varied parties that are central to the peace process, there was 
just a unanimity of expression of their willingness to take 
steps, to, No. 1, take steps with respect to Israel; No. 2, 
even to take steps with respect to the Palestinians in the West 
Bank, to try to improve things, and to move forward.
    There's a refocus on Iran. There's less intensity to the 
relationship with Israel, and a very strong sense of the 
possibility of trying to move forward, because everybody 
understands what the basic parameters of the settlement are. 
Given that, there was also a very powerful expression of the 
need to keep the window open by not inadvertently, or in some 
cases, perhaps purposefully, closing it by the extension of the 
settlements.
    And so I would ask you if you could share with the 
committee--we shared that thought with the Prime Minister in 
the course of our meeting with him, and he expressed a sense 
that he was going to be working with you all to come to some 
kind of an agreement or arrangement with respect to the--can 
you tell the committee sort of where you see the Middle East 
peace process in the aftermath of his visit here and what the 
process will be going forward?
    Secretary Clinton. Thank you, Mr. Chairman. Well, as you 
know, when the President held his press avail with Prime 
Minister Netanyahu, he repeated in public what he had said in 
private, which is that the settlements must stop. We 
emphasized, both in the President's meeting and in my dinner 
with the Prime Minister later that day, two points. No. 1, we 
are committed to a two-state solution. And we are going to 
engage intensively, as we already have begun through our 
special envoy, George Mitchell, to hammer out the details as to 
what that two-state solution would look like.
    As part of that, it is clear that the settlement activity 
has to cease, both because on the ground, it changes the 
reality, which interferes with the efforts to try to achieve a 
two-state solution, and, as you have rightly said, it is a 
matter of great concern and symbolic importance in the region, 
not only to the Palestinians, but to others.
    The second point we made is that we shared the deep concern 
that Israel has expressed about the potential of Iran obtaining 
a nuclear weapon, and that is why we are pursuing, again, very 
actively, along with others, an approach that we wish to 
explore as to persuading and demonstrating to the Iranians that 
the acquisition of nuclear weapons will actually make them less 
secure, not more.
    And in the course of that, we emphasized how important it 
is that at this moment of history, there is a meeting of the 
minds among many of the countries in the region and certainly 
their leaders over the threat posed by Iran and the importance 
of working in tandem with United States to deal with that 
threat, but that in order for us to move forward, it cannot be 
either/or. We have to be working on Iran, and we have to be 
working to bring the Israelis and the Palestinians into a 
negotiation, and that's what we intend to pursue.
    The Chairman. Well, Madam Secretary, I congratulate you on 
the administration's firm and clear statement with respect to 
that. All of us make that statement and have that position 
within the framework of our very strong, long-term, and real 
commitment to the State of Israel, and there is nothing in that 
position that I believe, and most of us believe, does anything 
except act in Israel's best interest. I think that it's 
important that you and the President have been willing to take 
that position, and obviously, we're very hopeful it will be 
fleshed out further in the days ahead.
    Would you, in the interest of the duality of actions that 
are necessary, perhaps share with the committee the things the 
administration is contemplating that the Arab world might 
undertake in an effort to give everybody a better sense of 
confidence about the mutuality of this process?
    Secretary Clinton. Well, Mr. Chairman, I think that the 
Arab Peace Initiative speaks to the kinds of actions that we 
would be hoping to see occur, a move toward normalization of 
relations, a recognition of Israel's right to exist, economic 
exchanges and opportunities between Israel and other countries 
in the region.
    I think that the general approach which we are taking is 
built on the same conversations that you have had as well. 
There is an openness to proceeding, but it is an openness that 
requires on all sides some evidence of good faith and putting 
actions down on the table that people can evaluate and assess.
    I know that Senator Mitchell has had very in-depth 
conversations with all of the major leaders but one or two in 
the region, and he has a long list of the kinds of actions that 
are being sought by all sides. I don't want to get into much 
more than that because I think that has to come with the 
intense negotiations that are going to be starting next week, 
and we hope will lead to the kind of confidence-building steps 
that you're referring to.
    The Chairman. We really appreciate that, and we appreciate 
the fact that you can't go into all of the details now. The 
committee has spent a fair amount of time, and you have spent 
an enormous amount of time, and Special Envoy Holbrooke, on the 
issue of Pakistan and Afghanistan.
    If I could ask you specifically with respect to Pakistan. 
We have legislation that the Senate will be considering. It's a 
healthy amount of money. It's meant to be, in order to try to 
change the relationship with the people of Pakistan and to have 
a different kind of engagement. You have not yet had an 
opportunity to speak to that before the committee as a whole, 
and I thought it might be helpful for members here who have 
some questions about that funding if you would share your 
perceptions of why that is important and how you see that not 
being business as usual, and how it might leverage a better 
outcome than people have thus far been able to perceive.
    Secretary Clinton. Well, Mr. Chairman, our commitment to 
the strategy that we have devised after an intensive effort 
begins with our recognition of the vital security interests 
that the United States has in both Afghanistan and Pakistan. We 
believe that the threat posed to our national security 
emanating from the extremists, led by, coordinated by, 
encouraged, and funded by, to a great extent, al-Qaeda, is one 
that we ignore at our peril.
    And I believe if you go back and look at 30, 40 years of 
American policy toward Pakistan, it is a quite uneven picture. 
It's a kind of approach avoidance, one step forward, two steps 
back. One of the greatest State dinners ever given was for one 
of the Pakistani military dictators at Mt. Vernon under 
President Kennedy. Our relationship has ebbed and flowed. It's 
gone up and down.
    But I think it is fair to say that many of the problems we 
are dealing with today in that region are a direct result of 
American policy and funding during the 1980s, and our decision 
after the fall of the Soviet Union and the Berlin Wall to 
basically walk away, and our inconsistent approaches toward 
Pakistan and Afghanistan in the years following, and then our 
big bet on another military dictator, with Musharraf in the 
last years.
    And to be just very candid, because many of you have lived 
through this, you've tried to help to channel it and figure out 
which direction to go, we are making a commitment to the 
democratically elected Government of Pakistan, to intensifying 
the personal as well as the governmental relations between 
elected officials and administration officials, our military 
leadership. And I believe that it is a commitment that is, No. 
1, worth it because of what's at stake, but No. 2, beginning to 
bear some fruit, as hard as this is.
    If you look at the political support today, with statements 
that are being made by the Prime Minister and others in support 
of the military's action against the Taliban, we've never seen 
anything quite like this before. That doesn't guarantee the 
outcome, but it certainly is, to some extent, reassuring that 
the government, both in power and opposition, are now united in 
their recognition of the threat posed by extremism, and they 
are willing to make a very significant effort. And we are 
supporting them in that.
    If this were easy, Mr. Chairman, I wouldn't be sitting 
here, and none of you would be as worried and concerned as you 
are. But I think that we are pursuing the path that holds the 
greatest promise for the best possible outcome. And I think 
your recognition and Senator Lugar's recognition that we have 
to demonstrate American commitment to the people of Pakistan, 
investments that will visually improve their understanding of 
what the United States stands for and actually improve their 
lives, is an important security priority for the United States.
    The Chairman. Well, I thank you. And I would just say that 
the meetings that we had here were really quiet unique. I agree 
that the words and the meetings themselves don't do everything 
we have to do, but they certainly, when you consider the 
alternatives available to us, have provided a better set of 
options than we had on the table thus far.
    Senator Lugar.
    Senator Lugar. Secretary Clinton, I appreciate very much 
you and the President nominating, swiftly, Rose Gottemoeller, 
who is now, as I understand, perhaps, working with Russians as 
we speak on the START treaty and its continuation after 
December 5.
    I appreciate this because the intrusive inspections which 
occur under the START treaty are absolutely essential for us to 
know what is occurring with Russian weapons of mass destruction 
in the same way they want knowledge of what the United States 
is doing, and our credibility with the rest of the world 
depends on this type of inspection and the maintenance of the 
treaty. I appreciate the movement there.
    I was dismayed to read in the press yesterday an article 
depreciating Rose Gottemoeller's presence, indicating--and this 
was a member of the previous administration, who I'm certain 
does not speak for President Bush, who had, I think, very 
different views suggesting that all of this arms control 
business was nonsense. That, as a matter of fact, the Moscow 
treaty was sufficient. Namely we all get there to the finish 
line in some fashion and intrusive inspection is hardly 
required, and certainly a troublesome thing to have start 
again.
    I mention that because I suspect that many are not aware of 
the work of this committee for each of the 8 years during the 
last administration and in the Armed Services Committee and in 
the Energy Committee each year to beat back troubling 
amendments, all sorts of interferences with the ability of our 
country to destroy weapons of mass destruction in the Nunn-
Lugar program. And I cite specifically the celebration that 
will occur in Russia next week when the Shchuch'ye Chemical 
Weapons Destruction Facility, which is going to be the only 
operating facility in the world capable of destroying 2 million 
chemical munitions, will be initiated.
    Now, anyone who believes that Shchuch'ye would ever have 
occurred without the United States and Russia working together, 
international contributions, very sizable contribution from 
this country, that by 2012, the Russians would have agreed to 
build one of the largest facilities in the world for chemical 
weapons destruction does not understand history.
    I cite this because when President Obama went with me in 
2005, we initiated another round of the so-called Nunn-Lugar 
legislation, which he was pleased to do and which I was pleased 
to have him along. I mention this, we're going to offer another 
bill this year, Senate Bill 873, and it implements the two 
important recommendations made by the National Academy of 
Sciences, removing limitations on the countries where the Nunn 
Lugar program can undertake important disarmanent work and 
allow the Defense Department to utilize funds from other 
countries to assist Nunn-Lugar projects around the world.
    In the past, this was a big deal. When we found weapons 
above Tirana, Albania, I had to watch very closely the progress 
of certain legal determinations that had to be made before we 
could go get the Albanian weapons. I had to get personal 
support from President Bush and Secretary Powell, so we could 
in fact get those weapons out of there and destroy them. Thank 
goodness, we did, but we need to think in terms of 
proliferation in a broader sense. And so we try to destroy any 
barriers to countries we could work with, or contributions from 
countries to assist us, so the American taxpayer does not bear 
the whole load of nonproliferation indefinitely.
    So I would like your consideration of Senate Bill 873. I 
think it's consistent with the things that you have testified 
about and the President has, but I take advantage of this 
hearing to mention that.
    I thank you also for your announcement that we will have an 
Energy Emissary. Boydon Gray, in the last stages of the 
administration, I think did a great job going over to Europe in 
particular. I was with him in August and we picked up a trail 
after I left Georgia, coming through Azerbaijan and Turkey, to 
try to think through the so-called Nabucco Pipeline project. 
Most journalists said Nabucco is dead in the water, largely the 
Russians pushing Gazprom through Nord Stream and various other 
functions had European acceptance of the fact that they were 
going to be beholden to whatever the Russian supply situation 
might be.
    But now Nabucco is back. Nabucco is back in part because of 
developments with Gazprom, but likewise, because Turkey, with 
whom we visited on that occasion, has come to some new 
conclusions about what is important for that country. Likewise, 
Romania, Hungary. Even in Brussels, where there was limited 
support for Nabucco, now the EU is aboard.
    I mention this because this kind of diplomacy--and this 
came really through the President's nominee and through 
whatever efforts I could give to assist--I think was helpful. I 
think we need to do a whole lot more. The energy problems are 
enormous, and your own administration at the State Department I 
think will be enhanced by a greater attention to energy 
diplomacy.
    So I thank you for mentioning you're going to proceed. Let 
me mention that you've also indicated through the budget, 
support for global food security initiatives and the Lugar-
Casey bill you've commended, and we appreciate that.
    I'm hopeful that you will make comments as we proceed 
really with not only the debates on that in both Houses, but in 
the administration, because it clearly is an attempt to 
coordinate the many ways in which our country has been trying 
to give emergency food aid, but even more, how we can help 
production.
    There are big disputes there. In the EU, the whole idea of 
genetically modified seed is still almost a theological debate. 
It is a debate that debilitates Africa, whatever may be the 
self-sufficiency of European countries. And yet, it's not going 
to be resolved without there being considerable advocacy.
    The Bill and Melinda Gates Foundation, and both of them 
personally in their African work have done a great job in 
marking the way. Robert Paarlberg, and his remarkable book, has 
also observed how an aversion of GM may negatively affect food 
production in Africa.
    But really, I'm hopeful for your help through this budget, 
through your own personal leadership, in coordinating a global 
food security strategy, in getting some focus so that we do not 
come to one emergency after another wondering, where should we 
buy the food? Here or abroad? Do American ships have to be 
involved with conveying every pound of it? Is the production 
situation so hobbled by the genetically modified argument that 
we just say, well, do the best you can with so-called natural 
processes, often a single woman on a half-acre in Africa doing 
the best she can. That is not going to be good enough--be the 
sentimental ties that some Europeans have to this type of 
thing, but which we do not share, and which we argue with the 
EU about all the time.
    So I take once again advantage of this to talk about the 
food, energy, arms control areas, which are well-known to you, 
but I think can have some support in this committee in a strong 
bipartisan way, which has always been the case, because these 
are issues that we share as Americans.
    But let me ask, do you have any comment about any of the 
above?
    Secretary Clinton. I do, and thank you very much, Senator, 
for your leadership and your persistence on each of these 
issues. We support S. 873. We agree with you that our job now 
should be to do as much as we possibly can to reduce the threat 
that you and Senator Nunn first saw and began working on, and 
that the threat is not just in the former Soviet Union, and 
that we need tools to be able to expand our threat-reduction 
efforts.
    With respect to the energy issue, I couldn't agree more 
with you about Nabucco. Ever since Dick Morningstar has become 
our special envoy for Eurasian Energy--I think he started early 
April--he's probably been to Europe three or four times. He's 
been to the Energy Conference that was held in Sofia, Bulgaria. 
He has been meeting, along with me and on his own, with leaders 
from the caucuses and elsewhere. And we are seeing a real 
opportunity here.
    We're going to build on the work that has been done to try 
to engage key partners from Turkey and Azerbaijan to all of our 
European friends to really look more carefully at what they 
need to do on behalf of their own energy security. The 
coordinator has the rest of the world to worry about, and 
there's a lot to worry about. But there are also opportunities.
    When I was in Iraq a few weeks ago, we had a good 
discussion about ways that we might be able to assist the 
Iraqis. Obviously, we've got issues in our own hemisphere that 
we need to be paying attention to, Africa, other parts of Asia. 
So we will be focusing on that, and I see it as you do. I see 
this as a critical security challenge.
    And finally, with respect to food, I see Senator Casey 
here, and he was gracious to come to the breakfast we hosted 
where we talked about the program that we are rolling out. The 
President asked the State Department to coordinate our 
government, and it's really the first time that we've had this 
concerted effort because there are different pots of money and 
different programs in different places.
    But we think both in terms of making our emergency aid more 
efficient and getting more dollars into the actual aid, as 
opposed to the 60 or 70 percent that now goes into 
administration and transportation, which is a shockingly high 
figure.
    But we also need to be looking at sustainable agriculture. 
We're going to be working with several key countries and trying 
to introduce where they are willing--hybrid seed, fertilizer 
practices, new irrigation approaches. Because the soil is 
depleted, and the small parcels, as you rightly point out, 
where women bear most of the physical burden of trying to grow 
whatever can be grown, are just not sufficient.
    So this is an exciting effort we're undertaking. We look 
forward to working with you and Senator Casey and others who 
share our passion and commitment.
    Senator Lugar. Thank you very much.
    The Chairman. Senator Dodd.
    Senator Dodd. Thank you very much, Mr. Chairman, and 
welcome once again to the committee. You're doing a remarkable 
job. I just--listening to you respond to Senator Lugar's 
observations, very, very impressive that you're just 
knowledgeable and thoughtful about these issues and giving it a 
lot of attention over the last number of weeks. So we're very 
fortunate to have you where you are.
    Let me pick up on Senator Kerry, the chairman's opportunity 
he gave you to talk about Pakistan and to talk about the aid 
coming up. And clearly, this is a priority of the 
administration, a priority of all of us, and should be, given 
the military efforts against the Taliban, the refugees just 
coming out of Swat Valley, as you point out, at least an 
improved response. Senator Kerry held a very worthwhile, I 
thought, luncheon with Members of Congress, and President 
Karzai and the Prime Minister as well. So it was a very good 
opportunity for us to see them come together. The language, you 
point out, is very different than it would have been only a 
short time ago.
    There have been reports, obviously, in the last few days 
about the aid package and the possibility this aid package 
might be used by Pakistan to increase its stockpile of nuclear 
weapons or increase the military forces along the Indian 
border. Obviously that raises a lot of concerns. I know it does 
with you and everyone as well.
    I wonder if you might share with us your observations about 
that, what the administration's position is. And second, in 
terms of aid to the Pakistani people, which is something all of 
us would like to see, how should that be--give us--flesh that 
out a bit, if you would, as to what you think might be the best 
way to frame that in a way that deals with education, poverty, 
sort of rebuilding that relationship with the Pakistani people, 
which is something I think critically important, as well as 
obviously the support for their efforts against al-Qaeda.
    Secretary Clinton. Well, thank you so much, Senator. First, 
with respect to the Pakistani nuclear stockpile, we are very 
clear, very firm, and quite convinced that none of our aid will 
in any way affect the efforts by Pakistan regarding their 
nuclear stockpile. I mean, over the medium term, we hope to see 
a reduction of tension between Pakistan and India. The nuclear 
deterrent is obviously there as a backstop with respect to a 
much larger conventional force.
    But the hope is that there can be a resumption of 
discussions between the two countries that will perhaps give a 
little more confidence to each. But we are absolutely committed 
not to seeing any diversion of our money or any use of it that 
would be other than what it's intended for.
    And I think that's related to your second question. We feel 
very strongly that we need to be working with civil society in 
Pakistan. It was quite remarkable what the lawyers did, and 
there are other signs of a growing sense of civic activism on 
the part of Pakistani citizens.
    We're also encouraging the Pakistani diaspora to create 
funding mechanisms, comparable to what was done with the Irish-
Americans, with the Ireland Fund, or with Jewish-Americans and 
the support of Israel through Israel bonds. We've begun to 
organize a group of Pakistani-Americans to create those kinds 
of funding mechanisms that go right to specific projects.
    We're going to be very detailed about the requests that we 
make of the Pakistani NGOs and government and our own funding 
vehicles, because our goal is to, as you alluded, to 
demonstrate that it makes a difference in the lives of the 
people of Pakistan.
    I'll give you one small example of what we're trying to do 
in our aid to refugees. I asked that as part of our $110 
million initial refugee aid package, that we set aside money to 
buy wheat produced in Pakistan. Actually, President Zardari 
deserves credit for the bumper wheat crop, because he took some 
very tough economic decisions right at the beginning of his 
term in office, and the Pakistanis are now self-sufficient and 
actually in a position to have a very good year in wheat.
    Well, let's buy it from them. Let's put some of the 
Pakistanis to work making clothes and other necessary items 
that their fellow citizens who are fleeing the Taliban need. We 
want to encourage the economic development and the development 
of civil society in Pakistan. So we're trying some different 
things. We're also looking to the Pakistani Government to be 
much more transparent, much more accountable, and we have that 
kind of entrain, as well.
    And all of these are our efforts to be as sure as we can 
that we see results. We want to know how many schools are built 
to replace the madrassas. We want to know how many clinics are 
built and how much a difference it's making. We want to see the 
accountability measurements, and we're working, and we'll have 
such metrics available shortly to share with you.
    So we're going at this in as specific a way as possible, 
because we know it's the only way that we can come back to you 
and come to the American people and say, ``Here's what we have 
tried to do and the results we've gotten.''
    Senator Dodd. And just on the last point on the--there's 
always a resistance I think, to some degree, on overburdening 
these efforts with minute conditionality, because it would be 
counterproductive. At least, that's been my experience.
    But on the stockpile issue, would you recommend or suggest 
anything that we ought to be considering from a congressional 
standpoint to include as part of an aid package that would help 
in that regard?
    Secretary Clinton. I think that's worth considering, and 
let me come back to you. Because obviously, that's our 
intention. That's our policy. That's what we expect. And let me 
explore whether there might be a way we can partner up on that.
    Senator Dodd. Great. Thank you very much. Thank you, Mr. 
Chairman.
    The Chairman. Thank you, Senator Dodd.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman, and Madam 
Secretary, welcome back.
    Secretary Clinton. Thank you.
    Senator Corker. Thank you for the job you're doing. And one 
that's actually on the topic for just a moment--I know we're 
talking about foreign aid, and certainly I support robust 
foreign aid. When you were being confirmed, we talked a little 
bit about prioritizing these programs. I would guess if you're 
in the State Department or USAID, you have to be a little bit 
of a budget-juggler to figure out which fund to go after in 
order to provide services. That, obviously, is not healthy.
    But then in addition to that, it kind of waters down our 
effort strategy. You mentioned at that time--I know you have a 
lot going on--that 6 months out, you might provide that for us. 
And I just wanted to remind you. I know you're busy, but I do 
hope that that will be forthcoming to help us. I think that 
here, a lot of times we hear of good ideas and we pass out an 
authorization, and a lot of times, we just water down already 
effective efforts. So if you would help us with that, that 
would be most appreciated.
    Secretary Clinton. Senator, I really appreciate your 
emphasis on that, because it's exactly what we should be doing 
for ourselves, as well as for you. We know we've got to 
prioritize, and part of what we've done with special envoys and 
the teams that we've built around them is to say that these are 
some of the higher priorities, and then we're working on some 
additional areas that we think have significant international 
and regional consequence. And 6 months, I guess, is July or 
August. We'll try to get something to you about that.
    Senator Corker. Now, back off topic. We did have an 
interesting lunch that many of us attended with the President 
of Afghanistan and Pakistan. We have different views of what 
was said at that lunch, but I was really stunned by the 
President of Afghanistan's inability to articulate in a way 
that's comprehendible what our mission in this country is. And 
I think it probably stunned most people who were there.
    So certainly, we deal with the people that are there to be 
dealt with. I understand that that's the way it is. We have an 
amendment on the floor right now as part of the supplemental 
I'd hope you will support. It's one that does not tie the hands 
of the administration in any way, but does ask for metrics and 
benchmarks so that we actually know whether we're achieving our 
objectives in Afghanistan and Pakistan.
    My guess is there's not a soul in the body that could 
actually articulate in a full way what our mission is today in 
Afghanistan. And I know that's not a criticism. I understand 
that there are new efforts that are underway and people are 
trying to coordinate things in a much different way than have 
happened in the past. But it'll also require some quarterly 
reporting back to let us know if we're meeting those 
objectives. And obviously, it gives the departments the 
flexibility to alter those if that's necessary.
    Now, I don't know if you want to give comment now, but I 
would hope it would be adopted. I can't imagine a Senator here, 
with the sacrifice that our men and women in uniform are going 
through, and all the folks on the civilian side, would not 
want, as a matter of funding, to know what our real objectives 
are there on the ground.
    Secretary Clinton. Well, Senator, I haven't had a chance to 
look at the amendment. We will look at it. But your general 
point is one that we agree with, that we need measurements of 
performance for ourselves, for our partners in government, in 
the military, in law enforcement, in every area of the society 
that we are interacting with. And we have put together our 
suggested metrics. They're going to be integrated with the 
intelligence approaches, with the DOD approaches and others, 
and the National Security Council is coordinating that.
    But we do intend to have such measurements and to hold 
ourselves and others accountable to them. And it is--you know, 
it is somewhat challenging because, for example, in many of the 
conversations that I've had with the leaders of these 
countries--President Karzai, for example--there are very 
specific results that we point to.
    When the Taliban fell in Afghanistan, there were only about 
4,000 students in higher education, and they were all men. Now 
there are more than 40,000, and half of them are women. There 
were no access to health services hardly anywhere in the 
country. We've made tremendous progress on that. A very 
successful program, the National Stability Program, that we 
helped to fund, but which is run through the World Bank, is now 
in more than 20,000 villages. And they are learning democracy 
by making decisions.
    So there are actually some very good milestones that we 
have helped the people and the Government of Afghanistan 
achieve. But we're going to put all of that into our process 
and come up with the specifics going forward that we're going 
to be looking to to judge ourselves and others.
    Senator Corker. That would be very helpful. And again, I 
think it's not only helpful to the Department and hopefully to 
those of us who are appropriating money to help cause this to 
come to an end and be successful, but I think it actually might 
be helpful to the leaders that we're working with, and I know 
to the men and women in uniform that are on the ground. So 
thank you very much.
    We had a meeting the other day with the Prime Minister of 
Israel. It's been alluded to here. Before he came in, I was a 
little--his nonagreement to a two-state solution thus far was a 
little bit of a putoff. Actually, in listening to him, I'd have 
to say that I felt like he gave some very sophisticated 
answers. Smart person. Been around the political arena quite a 
while and has the ability to certainly navigate verbally in 
that way.
    One of the things, though, that did strike me about the 
meeting--and I have hopes that, by the way, we're going to be 
very successful there, and I think he may end up being a very 
good partner in that. But one of the things that he was asking 
first is that before there's any kind of agreement regarding 
the Palestinian areas, that there will be an agreement with the 
United States. And he emphasized that two or three times in 
this meeting.
    You talked earlier about what it is that we stressed to 
them. OK? I'd love for any indication of what he might have 
been stressing to us when he was alluding to the fact that he 
wants to have an agreement with us first.
    Secretary Clinton. Well, Senator, I can't speak for the 
Prime Minister, but I think that it's likely he was referring 
both to the grave concern that he feels about Iran and the 
threat that a nuclear weaponized Iran would pose to Israel. And 
he wanted to be kept fully informed, which, of course, we told 
him he would be, in the efforts we're undertaking with Iran.
    I would also imagine that he wanted to be reassured and 
have our commitment to Israel's security reinforced, which, of 
course, we feel strongly about and did. And then finally, with 
respect to any future agreement with the Palestinians and with 
their Arab neighbors, there may be undertakings and agreements 
that the United States would be asked to participate in, which 
are not yet formed or in any way decided. But there might be 
additional security guarantees, for example, that Israel would 
seek. So I would imagine those are the broad areas that he is 
referring to.
    Senator Corker. Well, thank you. And then my final 
question--I know my time will be up soon--the whole energy 
issue that I'm so glad Senator Lugar and you discussed earlier, 
and I know that we now have an envoy that's focused on Eurasia.
    It's pretty fascinating to think about a pretty civilized 
part of the world, Europe--been around for a long time. Has a 
European Union that is put together. And it seems that we, in 
many ways, are far more concerned about their energy security 
than they are.
    They put in place a cap-and-trade system not long ago, 
which created a tremendous amount of fuel switching. They were 
dependent upon coal. They switched to natural gas as a result. 
It made them even more vulnerable, OK, to Russia. Nabucco was 
off the table. Now, thankfully, we've got it back on the table. 
We were in Azerbaijan not long ago, quizzical about the fact 
that that was not front and center to Europe.
    I wonder if you might explain to us, from your perspective, 
the dynamics of why a civilized society mostly that exists in 
the European Union would be so much lesser concerned about 
their energy security than we are.
    Secretary Clinton. Well, Senator, I don't pretend to have 
any psychological insights. I can only say that what we have 
seen in the last 4 months is an increasing concern. It may very 
well have been less prominent on their list of priorities 
before, but certainly now, it is back front and center.
    And there is a great willingness now on the part of a 
number of the Europeans, as well as the EU, to discuss these 
issues. For example, there have been recent efforts by the EU 
to try to get Ukraine to look at the development of their 
natural gas supplies. They have quite a healthy reserve, which 
they've never adequately developed.
    So I think that sovereignty, somewhat being complacent, 
we've fallen into that trap ourselves, obviously. We didn't 
take our own energy security and our own climate implications 
as seriously as we needed to. I think that it hasn't been on 
the front of people's political agenda the way it's needed to 
be, but I think it's now much more prominent than it was. And 
we're going to take advantage of that, and we're going to work 
with our friends and our allies.
    And the reason, of course, that--I mean, we think energy 
security is a classical security issue, particularly for the 
Europeans, vis-a-vis Russia and some of the actions we saw in 
the last year. We think it's a part of the answer to climate 
change, being smarter about where you get your energy, how more 
efficient you can be, and the like.
    But we also think it is a real test of governance capacity 
for a lot of these countries to recognize that they just can't 
be complacent. And so we're working on all of those fronts 
simultaneously.
    Senator Corker. Thank you very much.
    The Chairman. Thank you, Senator Corker.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman, for holding this 
hearing, and Secretary Clinton, it's good to see you again. I 
know you are very busy, and I appreciate your willingness to 
come before the Congress today on the budget issues. And more 
generally, I just want to thank you again for your willingness 
to consult with your former colleagues on a regular basis. It's 
a reminder of how the various branches of government are 
supposed to work together, and frankly, it's a refreshing 
change.
    Madam Secretary, the administration intends to continue 
providing foreign military financing, or FMF funds, to the 
Pakistani security forces in the fiscal year 2010 budget. And 
yesterday, you noted that ``Our policy toward Pakistan over the 
last 30 years has been incoherent,'' which is why it's so 
important that as we consider a continuation or increase in 
assistance, we fully address ongoing concerns.
    You're obviously well aware of these reports of ties 
between elements of Pakistan's security services and the 
Taliban. So is State preparing contingency plans in the event 
that these elements continue to support the Taliban, or if 
Pakistani leadership fails to hold them accountable for 
providing such support?
    Secretary Clinton. The short answer is, yes, Senator. We 
are encouraged by the very candid, open relationships we have 
developed, not just with the elected leadership in Pakistan, 
but indeed, with the intelligence service, with the military, 
and with other elements of the government as well. And we've 
been very forthright and very demanding of the kind of response 
we expect with respect to the money that we provide.
    We are going to be vigilant and keep our eyes open about 
what we see happening on the ground. But at the moment, we 
think that we've got a good understanding to proceed on.
    Senator Feingold. Do we disburse these funds for the 
Pakistani military--whether FMF or coalition support funds or 
in the future, counterinsurgency funds--directly to the 
military or to the civilian government?
    Secretary Clinton. You know, historically, it has been a 
mixed bag, because the civilian government was not really a 
civilian government. And so it was kind of one and the same. We 
are trying to get to a regular order as much as possible. There 
are exceptions to that because there are certain programs and 
certain urgencies in providing funds that might go directly for 
procurement or directly into immediate battlefield support. But 
we are trying to regularize this to go through the civilian 
government. That is our goal.
    Senator Feingold. Secretary, section 1206 of the National 
Defense Authorization Act for Fiscal Year 2006 not only 
provides funding for training and equipping foreign military 
forces, but also provides the Secretary of Defense with primary 
authority for programs carried out under those auspices. 
Traditionally, however, support for foreign militaries has 
fallen under the FMF or IMET accounts at the State Department.
    In your efforts to rebuild and restore capacity at the 
State Department, why wouldn't you seek to have these funds 
transferred to State?
    Secretary Clinton. Senator, we are in the process of 
actually working to begin that transfer, both of authority and 
funding. In the supplemental, as you know, we requested money 
for Pakistan that will be under the supervision of the State 
Department, but go through the Defense Department. In the 2010 
budget and beyond, we are working at the highest levels of our 
two Departments to begin to bring back the authorities and the 
resources that go with them to the State Department. And that 
is our goal.
    Senator Feingold. Would you object to the Congress 
appropriating these funds directly to the State Department with 
the exact same authority provided to the Pentagon under current 
law?
    Secretary Clinton. Senator, what we would like to do, 
because there is a question of capacity at this moment and our 
ability to actually deliver--we're building it up, and I think 
we're building it up in an appropriate and robust way--I'd like 
to get back to you on that. Because we have worked through with 
the Defense Department the kind of transition that we're 
working on. I don't want to short-circuit it if it's going to 
cause problems in the actual delivery and accountability that 
you deserve.
    Senator Feingold. Thank you. I was interested to see that 
the President's fiscal year 2010 request for foreign military 
financing includes a substantial increase for Africa. In 
particular, the FMF request for Ethiopia is some $2.2 million 
more than last year's request, and I certainly understand the 
important strategic role that Ethiopia plays in the volatile 
Horn of Africa.
    I am worried and have raised concerns about ongoing reports 
of misconduct and human rights abuses by the Ethiopian 
military. In addition, I'm concerned that in the runup to the 
2010 Ethiopian elections, additional funds for their military 
could send the wrong message when we're seeing an increasingly 
diminished political space, tightening restrictions on civil 
society, and ongoing reports of human right violations in the 
conflict-affected areas.
    Can you explain why you're proposing this influx of funds 
and share your thoughts on how, along with the legally required 
Leahy vetting, we can ensure our assistance is not funding 
militaries that undertake abusive behavior?
    Secretary Clinton. Well, Senator, I think that you know 
that I have asked our new Assistant Secretary, Ambassador 
Johnny Carson, to immediately review what we're doing in the 
Horn of Africa to determine our best way forward. I take very 
seriously all of the questions you've raised about additional 
funding for Ethiopia. I think we have to balance it, as you 
alluded, between the security needs, plus our human rights, and 
the--we don't want to interfere with the internal affairs in 
Ethiopia by omission or commission, in terms of what messages 
we send.
    I believe that we will have this review done shortly. I've 
asked Ambassador Carson to really focus in on this. And we'll 
take everything you said into account and try to come up with 
the best approach we can.
    [The written information submitted by the State Department 
follows:]

    The increase in funding will further develop the command and 
control capabilities of the Ethiopian National Defense Force (ENDF) to 
build effective counterterrorism operations, including respect for 
human rights as a counterterrorism tool. This also supports a broader 
interagency effort to address possible terrorism threats emanating from 
Somalia. As Somalia's instability has increased, the threat posed by a 
terrorist safe haven in southern Somalia to U.S. interests and our 
regional allies has grown more urgent as a key security priority.
    The enhanced command and control that is the goal of this 
programming will foster better unit discipline and accountability, both 
of which will render human rights abuses less likely. Please be assured 
that all of our security assistance activities promote adherence to 
U.S. standards on human rights, civil-military relations, and the rule 
of law.
    We remain vigilant for any abusive behavior by the ENDF, 
particularly with regard to the upcoming general elections in 2010, and 
we remain ready to register our strong disapproval and take other yet-
to-be determined measures, should doing so become necessary.

    Senator Feingold. But, Madam Secretary, are there 
circumstances where United States military support to Ethiopia 
would be discontinued or rescinded?
    Secretary Clinton. Yes.
    Senator Feingold. Thank you for that direct answer. Let me 
switch to something else. At your confirmation hearing back in 
January, I asked about State Department policy regarding the 
partners of LGBT Foreign Service officers, and you indicated 
that you would be conducting a review of the existing policy.
    The President's budget clearly demonstrates a commitment to 
building a more robust and effective diplomatic and development 
corps, but I remain concerned that our ability to recruit and 
retain qualified individuals may be hindered by the existing 
policy. Could you please tell me what the status of the review 
is and when any decision on possible changes to the policy 
might be made?
    Secretary Clinton. Senator, we have conducted a very 
thorough review and analysis, and our decision memo is in the 
process right now. We should have a decision and an 
announcement shortly.
    Senator Feingold. Very good. This may relate to my 
followup, which is that in a markup today on the Foreign 
Relations authorization bill in the House, Representative 
Berman removed language that would have extended domestic 
partner benefits to same-sex partners of eligible Foreign 
Service officers, and which also addresses international LGBT 
issues through improved reporting and the annual human rights 
reports, engagements on global decriminalization efforts, and 
LGBT training for Foreign Service officers.
    He said that he agreed to this removal only because he had 
received indications that you were already planning on 
implementing these recommendations. Could you comment on that?
    Secretary Clinton. Well, Senator, we will be able to 
comment on it very shortly. We're in the review process, and I 
don't want to get ahead of myself. But I believe that we should 
have an announcement very soon.
    Senator Feingold. I look forward to hearing the results of 
your review. Madam Secretary, despite a bungled election in 
Zimbabwe, the two major political parties were able to come to 
an initial agreement that obviously, while still far from 
perfect, is an important step forward.
    As you recall, in 2001, I worked with then-Senator Frist to 
pass the Zimbabwe Democracy and Economic Recovery Act, and the 
bill did impose restrictions on assistance to the Government of 
Zimbabwe until there was a peaceful democratic change, 
equitable economic growth, and restoration of the rule of law.
    At this time, I don't believe, Madam Secretary, that those 
benchmarks have yet been met, and therefore, I question whether 
it's appropriate to consider lifting the punitive portions of 
this bill.
    However, I do think we need to consider how we can provide 
strategic assistance to the progressive elements in the new 
unity government and support reforms, while maintaining 
appropriate restrictions to ensure our assistance does not fall 
into the hands of Robert Mugabe and his cronies.
    Accordingly, as we review the FY10 budget, how are you 
planning to support Zimbabwe's transitions, what kind of 
assistance are we prepared to provide, and what conditions will 
we require in order for individuals in the government to 
receive this kind of assistance?
    Secretary Clinton. Well, Senator, I share your concern 
about Zimbabwe. It's been an area of great tragedy because of 
the unfortunate governance of the country. The new unity 
government is making some progress. I agree with you, we're not 
yet ready to lift the punitive sanctions.
    We are reaching out to South Africa with its new 
government, which we think can play a major role, if it so 
chooses. As you know, other aid groups, both multilateral and 
unilateral, have lifted their boycott of Zimbabwe and are 
beginning to provide aid again. But we are committed to 
assisting the people of Zimbabwe insofar as possible, while we 
work with other partners, like South Africa, to try to ensure 
that many of these changes are going to be lasting and are not 
left to the whims of President Mugabe.
    So I don't have a good answer for you right now. I think 
that this is an area that we've just begun to raise with the 
South Africans. They obviously have the most influence in 
Zimbabwe and with the leadership there. And they've urged us to 
come back in with our aid, and we've responded that we want 
some greater transparency and awareness.
    I mean, I have to say I was just heartsick to read an 
article a few weeks ago about the new Minister of Education, 
who was on a survey of the schools that had no teachers, no 
books, no facilities of any sort. And he was getting an urgent 
phone call from the President's office, which he finally was 
able to take, and he was told he should come immediately to 
pick up his new Mercedes. And I just was just dumbstruck.
    So we're not going to participate yet, Senator. And I don't 
want the people of Zimbabwe to suffer any more than they have. 
They don't deserve what has happened to them, and that country, 
which had such promise, now has been so badly misused. But we 
also are not going to play into that kind of behavior, either.
    Senator Feingold. Thank you very much, Madam Secretary.
    The Chairman. Senator Boxer.
    Senator Boxer. Madam Secretary, thank you so much for your 
dedication and for coming before us today. And I will get right 
to a subject that I know you and I share concern about. Last 
week, Senator Feingold and I held a joint subcommittee hearing 
with the full support of our chairman to examine the use of 
violence against women, particularly rape, as tool of war in 
conflict zones.
    Ambassador Verveer was on our first panel. She was very 
knowledgeable and very helpful. We looked specifically at the 
Democratic Republic of Congo and Sudan. I could tell you, it 
was one of the most disturbing and troubling hearings that I've 
ever sat through in my life, and I've been to many.
    At the hearing, my colleagues and I heard heart-wrenching 
testimony from witnesses who have seen firsthand these brutal 
acts. One of them--I won't name her name again--she was there. 
She's a journalist. She flew in from the Congo and told a story 
of a mother of five children who was kidnapped by rebels, taken 
into the forest with her children, and kept there for several 
days.
    As each day passed, the rebels killed one of her children. 
And I will spare you the rest of her story, because it even 
gets worse than that, but I just can't even bring myself to 
tell it.
    This journalist also went on to tell the story of women who 
were raped and set on fire, and then, after a string of these 
stories, this journalist said, ``Why? Why such atrocities? Why 
do they fight their war on women's bodies?''
    Well, we heard a number of recommendations, because my 
focus, and Senator Feingold's was to ask--what can we do now? 
So here's what I want to ask you about. I do not expect you to 
answer in any way in depth any of these suggestions. What I 
want to do is to tell you that I'm working on a letter with 
Senator Feingold and any other Senator who wants to join. We 
are going to send to you these recommendations that we heard 
that we think are good.
    So I'm going to lay out what a couple of them--just a 
couple, to give you a sense of it, and then the one commitment 
I hope to get from you today is that you will absolutely get 
back to us as soon as possible after conferring with Ambassador 
Verveer on which recommendations make sense so we can start to 
move forward. We cannot wait until the war ends in Darfur. We 
cannot wait until the war ends in the eastern Congo. We have to 
act now to stop this torture, if I could use the word.
    So in respect to the Democratic Republic of Congo, we're 
looking at proposing something like this--a plan to deploy 
sufficient numbers of surgeons to perform the surgery that's 
necessary for victims of brutal rapes who suffer from obstetric 
fistula. Right now, we're told there's just a couple of doctors 
in East Congo that are trained to do this.
    Also, we propose that the United States help to train and 
deploy mental health professionals, to help victims of these 
atrocities get back some semblance of a normal life. We also 
propose a plan to train an all-female Congolese police force, 
and to create a strong legal system, and an intensified 
diplomatic effort with Rwanda and Uganda to bring an end to the 
instability and the violence.
    In respect to Sudan, we're looking at working with the NGOs 
to get them back in there, because it is is a horror story, 
that they have been forced out of the country. And with respect 
to the whole situation in Africa, we would love to see a major 
address by someone in our Government--if it's not the 
President, then the Secretary of State--in conjunction with the 
United Nations' report that's coming out on Resolution 1820, 
which demands an immediate and complete cessation of all 
parties to armed conflict in all acts of sexual violence 
against civilians. So that report is coming.
    We think America needs to step forward. Senator Shaheen and 
I are very dedicated to lending our voices. And I know there 
are many others, both male and female who want to lend their 
voices as well. So, if you could just give me a general 
response to what we're trying to accomplish here and a specific 
commitment to get back to us when you see the letter.
    Secretary Clinton. Well, you certainly have that 
commitment, Senator. And thank you for your willingness and 
your passion to raise these issues time and time again, because 
they deserve them.
    We are as distraught as you about the specific acts of 
violence against women in conflicts like the Democratic 
Republic of Congo and more generally the way that women have 
been used increasingly in war. And I think your specific 
suggestions are really worth considering. There may be some 
ways to work with some of the NGOs to get more surgeons in. We 
have provided some of that. There are a dedicated group that go 
in periodically to do exactly what you're referring to.
    We learned some lessons out of Bosnia. Whether they're 
applicable or not we need to explore, but I think the mental 
health professional piece of this is very important. The police 
force, the training, giving women more control over their own 
security is more challenging, but I think an excellent idea 
worth pursuing. We have our special envoy to the Sudan. Former 
GEN Scott Gration working tirelessly to get NGOs back in to 
Darfur, and we are dedicated to doing that to try to help the 
people there.
    And I agree completely that we need to elevate this issue 
and I will take this on board to do with respect to Resolution 
1820 and the report.
    Senator Boxer. Well, I'm really happy, because I think we 
can make an enormous difference, and there's lots of other 
ideas I don't have the time to go into, but I think you'll find 
a lot of these are well thought out. They come from very good 
people with smart ideas, so we hope you'll look at them.
    I want to also just say in Darfur we found out that one of 
the big issues is that women are attacked when they have to 
leave the security of their camps. So we could do very simple 
things like getting solar ovens so they don't have to go get 
the fuel and go out on the roads, simple things that, you know. 
NGOs could help us with this. This is really a matter of will. 
It's not a matter of money.
    Secretary Clinton. Well, you know, and your----
    Senator Boxer. We have the--if we have the wherewithal to 
do this, we can do this.
    Secretary Clinton. And we can be creative about it. I mean, 
the single activity that women have to engage in under the 
norms of their societies, collecting firewood----
    Senator Boxer. Exactly.
    Secretary Clinton [continuing]. Which takes them often 
hours away from their camps, we need to try to resolve with 
other means of cooking stoves.
    Senator Boxer. Right.
    Secretary Clinton. And there's a lot that we would like to 
be able to do, and we have a whole list, if we can get back 
into Darfur to actually act on that.
    Senator Boxer. Well, you know, my view is that when you or 
the President--this is my hope--go to the United Nations, it's 
going to be hard for people to turn away from such a simple 
point. So anyway, I hope that I'm right on that. I wanted to 
also thank you very much for your support behind the scenes 
with me in working to get more funding into the supplemental 
for Afghan women and girls. And as it turned out, we got what 
we wanted. We got $100 million for the women and girls and we 
have very specific language in the supplemental that will go to 
women-led NGOs, because that's a big problem.
    You know, in Afghanistan we still have so many problems. 
You know Dr. Sima Samar who is the chairperson of the Afghan 
Independent Human Rights Commission? She tells us stories, 
including one of a 75-year-old woman who--oh, it's hard to say 
these things. She was nailed to a tree for allegedly 
collaborating with the Afghan Government and the United States.
    Female government and police officials are targeted for 
assassination. And women and girls are victimized with brutal 
acid and poison attacks just for going to school. In 2008 there 
were 292 attacks on schools resulting in 92 deaths. That's why 
my own view is that I don't want to walk away from the people 
of Afghanistan now until we give it a real try. I was happy to 
know and you'll be happy to know that Eleanor Smeal just wrote 
a letter to me supporting the supplemental, because the 
supplemental is so strong on making this attempt to help women.
    My last question I have for you has to do with Aung San Suu 
Kyi who was put on trial on Monday. I know you've been very 
outspoken about it. And from what I understand the Chinese and 
the Indians have quite a significant trade relationship with 
Burma. Do you think there's an opportunity for the United 
States to encourage China and India to use their economic 
leverage with Burma, to push for her release? And do you see 
any other opportunities for pressuring the Burmese regime on 
this matter?
    Secretary Clinton. Well, Senator, thanks first of all for 
the great work that you did and led on specifying money for 
Afghan women and girls. It's a high priority for us, and I'm 
very grateful to you. With respect to Burma and Aung San Suu 
Kyi, we have been working very hard since I became Secretary of 
State to look at all of our options regarding Burma. How can we 
influence their behavior more than we obviously have to date? 
Clearly, China, India, and a few other countries are major 
players, and we're going to try.
    I don't think we can make any kind of assurance, because we 
don't know whether we'll have any success in convincing them 
otherwise, but it is outrageous that they are trying her and 
that they continue to hold her because of her political 
popularity, and they intend to hold elections in 2010 which 
from the beginning will be illegitimate because of the way they 
have treated her.
    So it's our hope that this baseless trial will end with a 
quick release of her and then a return to some political 
involvement eventually by her and her party.
    Senator Boxer. So will you raise the issue with India and 
China, though, because----
    Secretary Clinton. That is part of our----
    Senator Boxer. Very good. I thank you so much. Thank you, 
Mr. Chairman.
    The Chairman. Thank you, Senator Boxer.
    Senator Menendez.
    Senator Menendez. Well, thank you, Mr. Chairman. Madam 
Secretary, thank you for your service to our country. I 
certainly admire it. I wanted to ask you about Pakistan, and 
I've heard some of your answers already but I'm not assuages, 
and here's my concern.
    You know, as someone who has consistently supported our 
efforts there with my vote, I look at the reports that Senator 
Harkin and I asked for at the GAO and $12 billion later we have 
very little to show. And so, the question is not a commitment 
to Pakistan. The question is, Are we going to have a strategy 
and metrics of benchmarks by which we can judge that continuing 
to use billions of dollars of the Federal taxpayer money is 
going to achieve our goal?
    And I look at the President's budget. It's got $1 billion 
in economic support fund. I look at the supplemental that is 
before us tomorrow. It's got $906 million. I learned today--I 
was told originally that there was no coalition support funds 
in this supplemental. Now, I understand there's about $750 
million in the supplemental going to Pakistan and coalition 
support funds. That was one of the slush funds that existed in 
the past.
    And I look at what Pakistan has done over the last 2 weeks, 
which may have been impressive but I'm looking at it in the 
more total context. You know, you have a set of circumstances 
where you have our CIA director there supposedly in a private 
meeting, and all of a sudden there's a video tape put out by 
the Pakistanis of their conversation. What was that for, if not 
to undermine the very essence of that conversation?
    You see one step forward and two steps back. You see the 
ISI was just reported to be reticent. And I heard your answer 
about none of our funds will allow the Pakistanis to purchase 
nuclear weapons, but the reality is money's fungible. And so, 
we give them money to do one set of things, their money is 
freed up to go ahead and buy nuclear arms.
    So what is it that you can say to me that is going to 
assuage me that we are doing something different? That we have 
benchmarks here in accountability that will be different? That 
we have a coherent comprehensive strategy that there are 
benchmarks against that will be different? And I hear that we 
are reticent about benchmarks because they're constraining, but 
by the same token, you know, if you look at that GAO report, 
they basically said the lack of indicators to judge has left us 
$12 billion and no success.
    Secretary Clinton. Well, Senator, I certainly understand 
your questions, because they're ones that arise naturally out 
of the events and the consequences of the last 8 years, and I'm 
well aware of the report that has recently come out about the 
coalition support funds and the questions that it raises. We 
are starting our efforts with a commitment to metrics of 
measurement and benchmarks. We will very soon have the 
integrated set of these that will come out of the process that 
we've all been engaged in, but I think it is quite a difference 
from what we've seen over the last 8 years.
    We will be measuring ourselves and measuring others, and 
there are ways to measure. You know, do we see the kind of 
sustained, concerted efforts by Pakistani security forces 
against the Taliban? As we share information with them, do we 
see that information being used effectively in the joint 
efforts against the extremists? Are we able to track the money 
that we give for economic development or for education and see 
the results?
    We are going to hold ourselves to this. I mean, I was as 
frustrated as anybody when I sat where you sit on the Armed 
Services Committee, and we couldn't get any kind of measurement 
for either a rock or Afghanistan or Pakistan out of the prior 
administration. And you remember how resistant they were in 
sharing information. We intend to be forthcoming and we intend 
to share with you exactly how we're going to measure ourselves.
    Senator Menendez. When do you think those metrics will be 
available?
    Secretary Clinton. Very soon. I mean, you know, as I say, 
we finished the strategic review, the President announced it, 
the Department of Defense has made its recommendations, the 
State Department has made its, intelligence agencies have, and 
the National Security Council is integrating all of that, and I 
expect there to be a product that, you know, will be 
forthcoming soon.
    Senator Menendez. ``Soon,'' a month? A week?
    Secretary Clinton. I don't know, because that's in the----
    Senator Menendez. Let me ask you this about----
    Secretary Clinton [continuing]. White House's hands.
    Senator Menendez [continuing]. Pakistan. There's widespread 
concern that its corruption is such that the country has 
neither the capacity to absorb or the monetary mechanisms to 
oversee the kinds of aid that we are anticipating. Is that not 
a concern for us?
    Secretary Clinton. It is, and it's why we are working very 
hard to identify vehicles for our aid to go through that we can 
hold accountable. NGOs, both some locally and Pakistani NGOs, 
international NGOs, others that we think are good, trustworthy 
mechanisms. We're also working closely with the government to 
help them develop the capacity, because you're right. It 
doesn't exist.
    I mean, part of what has happened in Pakistan is because 
democracy was never really given the chance to take root the 
way it needed to be. You're right. The institutions are not 
strong, they're weak. And we understand that we have to work 
with the Pakistani Government to help build those and provide 
support.
    Others are helping us. This is not just an American 
project. There are other countries that are equally invested, 
and we're working hard to have their assistance. At the Tokyo 
donors' conference for Pakistan, over $5 billion was pledged. 
So there are a lot of countries that are willing to put their 
money on the table in return for more accountability and 
transparency, and that's what we're trying to provide.
    Senator Menendez. Well, I'll look forward to the metrics 
and the accountability, because there's no question that 
Pakistan is important. Important to us, important to the region 
and the world. The question is, you can throw all the money in 
the world at it, but if you don't have the right measurements 
and you don't have the right effectiveness, that money doesn't 
necessarily produce your national goals.
    So let me just turn to one other topic with what time I 
have left, and that is the OAS, the Organization of American 
States. Article I, Article III, Article VII of the OAS, the 
democratic charter of the OAS, the Inter-American Democratic 
Charter of the OAS talk about what are the standards by which a 
country who is going to participate in the OAS must meet?
    It talks about the right to a democracy. It talks about 
representative democracy. It talks about human rights. It talks 
about fundamental freedoms. It talks about the exercise of 
power in accordance to the rule of law, the periodic free and 
fair elections based on secret balloting, and universal 
suffrage as an expression of the sovereignty of people. It 
talks about a whole host of what we would consider inalienable 
rights here at home and for many people across the world.
    So my question is, If that is not our standard, but the 
OAS's standard, do we believe that that standard needs to be 
preserved or are we willing to undermine that standard? And if 
the answer is we believe that standard needs to be preserved 
then would we oppose the entrance of a country who in every 
measurement by every independent nongovernmental human rights 
organization would say those standards cannot be held?
    Secretary Clinton. And the answer is, yes. We believe that 
those standards as embodied in the principles of the Inter-
American Democratic Charter are ones that were adopted 
unanimously by the member countries of the OAS. They are 
certainly reflective of our principles and our values, and any 
effort to admit Cuba into the OAS is really in Cuba's hands.
    They have to be willing to take the concrete steps 
necessary to meet those principles. We've been very clear about 
that. Move toward a democracy, release political prisoners, 
respect fundamental freedoms, you know, that is what it means 
to be a member of the OAS. And when the OAS Charter was 
unanimously adopted, there was an agreement that it governs the 
OAS.
    And if Cuba is not willing to abide by its terms then I 
cannot foresee how Cuba can be a part of the OAS, and I 
certainly----
    Senator Menendez. And finally----
    Secretary Clinton [continuing]. Would not be, you know, 
supporting in any way such an effort to admit it.
    Senator Menendez. If the OAS were to, however, nonetheless 
admit it, wouldn't we be sending a message beyond Cuba to the 
entire hemisphere that those principles of democracy, human 
rights, universal suffrage, are something that we'll just, you 
know, look the other way on and it won't be any more of the 
core issues
at a time in which the hemisphere is increasingly moving in 
directions that I think move us opposite to those fundamental 
principles?
    Secretary Clinton. Well, Senator, we're hoping that the 
members of the OAS will abide by their own charter.
    Senator Menendez. Thank you.
    The Chairman. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman. Secretary Clinton, 
it's a pleasure to have you before the committee. We're very 
proud of the work that you have done on behalf of our country. 
We see new opportunities in so many parts of the world, and you 
have been making that happen. So we first welcome you and thank
you for making a difference with respect to our objectives 
internationally.
    I want to concentrate on Russia for one moment if I might. 
We've had some discussions about the START treaties. It seems 
to me that in many of our foreign policy objectives Russia is a 
key player, and we clearly have our differences with Russia. 
Their incursion into Georgia is an issue of continued concern. 
Their violation of human rights standards, particularly as it 
relates to the media, journalists, and the rule of law, are all 
issues that we obviously are concerned about.
    But it seems to many of us that Russia may have a common 
objective with the United States in relation to Iran, that they 
recognize that Iran represents a risk to their security and to 
some of the former republics of the Soviet Union. Russia has 
put forward a new security document for discussion within 
Europe that is getting serious consideration.
    My question to you is this: there is going to be an 
informal meeting of the members of the OSCE and Greece later 
next month. And I know it's an informal discussion. It's an 
accommodation, I believe, to the Russians to be able to talk 
about these new security arrangements. Many of us think that 
the OSCE was meant to be the type of an organization that 
includes both the United States and Russia to deal with 
security issues in Europe, and that we could strengthen if 
Russia would join those, strengthen those security provisions 
within the OSCE.
    I guess my question to you is this: Can you at least 
perhaps talk a little bit about how you see this thing 
unfolding and whether the United States will be participating 
in the discussions in Greece?
    Secretary Clinton. Well, Senator, we think that you are 
quite accurate in pointing out the opportunities that the OSCE 
forum provides to discuss these issues. As you and I have 
talked before, this is the Helsinki forum, this is the security 
and human rights forum, that has played such an important role.
    I will be attending the OSCE meeting, because I believe it 
is of that significance, and it is part of our continuing 
effort to revitalize existing multilateral organizations that 
we think have a role to play in the future, and it is also one 
in which we and Russia are both members.
    The European security discussion is one that has many 
aspects to it, but I think the opportunity to discuss it openly 
and hear different perspectives, because obviously a 
representative from Estonia has a very different view than 
someone from Russia or someone from Greece or Portugal, and we 
need to be able to talk very openly about some of the 
continuing concerns that we have. So I think this is exactly 
the right forum and I look forward to attending.
    Senator Cardin. Well, I'm very pleased that you will be 
doing that. I think it's very important. As I've told you, 
there have been meetings between Russian parliamentarians and 
United States parliamentarians and the OSCE to try to see 
whether we can't find some more common ground areas for 
security within Europe, because I think we all now recognize 
the greatest threats are coming from outside Europe, from Iran 
and the Middle East, representing issues in which we should be 
able to make progress with Russia on a common agenda. And if we 
can do that, we will have certainly a much more effective 
policy against Iran.
    Let me bring up a second subject that I've talked to you 
about before, and that's refugees. I know there was an 
announcement made this week in regards to funding for refugees, 
and I just want to put three parts to it. There's the issue 
concerning accommodating Iraqi refugees in the United States, 
but there's also the issue of refugees in the surrounding 
countries, in particular in Jordan and Syria.
    And then, there are the displaced Iraqis within Iraq that 
it seems to many of us have not been getting the type of 
attention from the Iraqi Government or the international 
community that we think requires United States leadership. I'm 
pleased to see a focus on trying to bring several more Iraqis 
into the United States that helped us and are in peril because 
of their loyalty to the United States.
    Could you perhaps shed some light as to how you see this as 
a priority, dealing with those who have been displaced in Iraq 
as a result of the war?
    Secretary Clinton. I think it's a very important priority. 
I raised it in my recent visit to Iraq with all of the 
officials with whom I met, and obviously there are political 
and economic implications of refugees from outside and the 
displaced persons within Iraq, but this is one of the highest 
priorities for Ambassador Hill. We are looking for ways to 
assist with the resettlement of Iraqis who wish to come back, 
and we've also made clear to the Iraqi Government that a lot of 
the segregation that took place during the course of the last 
several years where people left their neighborhoods out of 
fear, they should be working to try to reverse insofar as a 
possible.
    So we are making that a priority, and it is part of our 
ongoing discussions with the Iraqi Government as we transition 
from where we are now to the redeployment of our troops out of 
Iraq and to a more diplomatic relationship.
    Senator Cardin. I'm pleased to hear that. I'll just give 
you an observation. Several of us were in Syria, in Damascus, 
and we visited the refugee centers and met with the Iraqi 
refugees that are in Syria. Syria has been fairly positive in 
dealing with the refugee issue. They've been keeping their 
borders open to allow for the ability for Iraqis to return back 
and forth to Syria, but the conditions are terrible and it just 
calls out for attention.
    The circumstances aren't going to get better, and it needs 
to be dealt with if we're going to have any conclusion to 
direct stability. Last----
    Secretary Clinton. Well, Senator, if I could add just that 
we do have $300 million in the 2010 budget for Iraqi refugees 
to deal with a number of these related issues.
    Senator Cardin. And I noticed that now being in there, and 
it's a major improvement, and I thank you for that. I hope the 
international community will join us, and I think it requires 
effort on the part of the United States to move the 
international community to put more attention to Iraq refugees, 
and I just encourage you to continue those efforts.
    Last, let me comment about the traditional issue that 
Congress has put conditions on funding to Serbia based on its 
cooperation with the international tribunal as it relates to 
war crimes. A lot still has not been turned over to The Hague, 
and I just really want to mention this issue because this 
should have been concluded well before now. We allowed for the 
conditions to be waived.
    I just urge this administration to try to get a conclusion 
to these war crimes and get these individuals who are indicted 
over to The Hague so that we can complete this chapter in the 
history of the former Yugoslavia.
    Secretary Clinton. Well, Senator, on that point, you know, 
Vice President Biden is in Serbia. We do think that the current 
Government in Serbia has made significant efforts with respect 
to war crimes, and we believe that the waiver is appropriate, 
but it doesn't in any way interfere with our continuing 
emphasis on the commitment we have to rounding up and finally 
bringing to justice those who should be in The Hague, and we're 
going to proceed on both fronts.
    Senator Cardin. I appreciate it. I just would observe that 
their cooperation has been inconsistent over the years. There 
have been times that they've been very helpful; there have been 
other times in which they have not allowed this access that is 
important for the people in The Hague to have, and they could 
have been more helpful in apprehending those that have been 
indicted and helping us deal with these issues.
    But I appreciate the progress that you're making. I'm glad 
the Vice President is in that region. I think that'll have a 
very positive effect, and we look forward to working with you. 
Thank you very much, Mr. Chairman.
    Secretary Clinton. Thank you.
    The Chairman. Thank you.
    Senator Casey.
    Senator Casey. Mr. Chairman, thank you, and Secretary 
Clinton, thank you for your testimony today, and we want to 
especially thank you for the great leadership you've provided 
at a time of real danger and uncertainty around the world, and 
you have had a great start. And I was remarking to you recently 
how I couldn't imagine how you could do so much traveling in 
such a short amount of time. We're impressed by that.
    We need it, and I think your travels have had, in a 
relatively short time period, a transformative effect on our 
image around the world and our ability to engage effectively on 
so many difficult problems, so we're grateful for that. Our 
committee is grateful that you allowed us to come for breakfast 
not too long ago. It was a healthy breakfast and we had a good 
start that day, and we're grateful for that.
    I was thankful as well for your support for what Senator 
Lugar and I and so many others have tried to do on food 
security and the strategy that undergirds that legislation. We 
look forward to working with you on that issue, as well.
    I wanted to raise a sensitive topic, but one that I think 
we can't spend enough time on, and I know you've spent a great 
deal of time on this. It's not just the concern we have about 
what's happening in Pakistan, but in particular the singular 
threat, the concern we have about their nuclear capability and 
the concern that we have that extremist elements--who seem to 
be making progress toward Islamabad even though they've been 
repelled recently--could get their hands on fissile material or 
in other ways threaten not just Pakistan but the world because 
of the potential insecurity of that nuclear program.
    I wanted to ask you--and I know some of this is limited in 
terms of what you can say because it is a particularly 
sensitive--but I just wanted to get a sense, the confidence the 
President has on the control over their weapons and the 
technology and fissile material. He expressed confidence, as 
have others, about the security of that nuclear capability.
    From where does that confidence arise? What gives you and 
the President and the administration that that nuclear 
capability is under control?
    Secretary Clinton. Senator, it's our assessment based on 
the information available to us, much of which is classified as 
I'm sure you understand, and the work that has been done over a 
number of years following and evaluating the security that the 
Pakistanis themselves employ, and I think that the President's 
confidence based on what we know is one that I share.
    Senator Casey. Thank you. And I wanted to raise one other 
related issue, and that's the question with regard to funding 
for the Pakistani Atomic Energy Commission and their nuclear 
security efforts. I'm told that in a recent report those 
efforts have been cut by more than a third. I don't know if you 
know about that or can speak to that report that was issued 
recently.
    Secretary Clinton. I don't know what you're referring to, 
Senator, I'm sorry. I don't know about that report.
    Senator Casey. We can follow it up.
    Secretary Clinton. OK.
    Senator Casey. I wanted also, with regard to the nuclear 
question as it relates to Iran, as you know, the Congress has 
weighed in on this over a number of years. I and others have 
cosponsored legislation recently that deals with the refining 
issue of gasoline in Iran. If a country is providing support 
for Iran, this legislation gives the President some authority 
to use that kind of leverage or sanction to allow the 
divestment of pension funds connected to companies doing 
business with Iran.
    And I know that sometimes what any administration wants to 
do at a certain period of time may not be chronologically 
consistent with what the Congress wants to do, but I just 
wanted to get your sense of where you see this question 
evolving in terms of we know from what the President said to 
Prime Minister Netanyahu that we have to engage diplomatically 
but there does have to be an endgame or a boundary on that.
    Can you speak to that question of the availability or the 
use of sanctions that Congress would put forth in the context 
of the efforts by the administration to keep the Iranians from 
having that nuclear capability?
    Secretary Clinton. Well, Senator, part of our objective in 
our engagement with Iran is to persuade other countries that if 
our efforts do not bear fruit that they need to join with us in 
multilateral sanctions that will have the greatest impact on 
the Iranians. And I think that until we have tested, within the 
time period set forth by the President of where we think this 
engagement is going, I'm not sure that adding new unilateral 
sanctions is really that helpful.
    At some point, it might very well be, because we already 
have a lot of sanctions on the books, but the most effective 
ones are the ones that we've been able to persuade a lot of our 
partners to pursue, as well. So it's a little bit of a chicken 
and an egg issue. How we proceed with sanctions depends upon 
how the engagement works, and the fact that we do have some 
sanctions and that they express the will of the international 
community is a powerful tool in our toolbox. So I think we have 
to, you know, calibrate this as we go.
    Senator Casey. Now, finally, I wanted to address the reason 
you're before this committee today, and that's your budget and 
the operations of the Department, which I know we probably skip 
over sometimes when we ask questions about a whole range of 
topics. I was especially heartened to hear and to read in the 
testimony--I'm looking at Page 4--with regard to the reference 
that $283 million to facilitate the hiring of over 740 new 
Foreign Service personnel.
    I don't think there's a better investment that we could 
think of in this part of the Federal budget because of the dire 
need that we have for more Foreign Service officers and anyone 
who's traveled to places around the world where we have Foreign 
Service personnel on the ground. You've been to many, many 
countries. You know how important they are, you know how 
courageous they are, and how vital they are to not just our 
diplomacy, but in the end to our national security.
    So I was heartened to see that and I hope you'll continue 
to come to us for help with budgetary priorities as we go 
forward.
    Secretary Clinton. Well, that's music to my ears. Thank you 
very much, Senator.
    Senator Casey. Thanks very much.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. Madam Secretary, 
I join my colleagues in applauding your leadership in the State 
Department and the work that you've been doing since taking 
over there. Thank you very much. And thank you for spending the 
time with us this afternoon to answer our questions.
    I want to go back to Senator Boxer's comments. I certainly 
appreciate your willingness to talk about the rights of women 
around the world and the President's willingness to do that, as 
well. I attended that hearing with Senator Boxer and found it 
every bit as troubling as she described, and I was troubled not 
just by the substance of the testimony from the women from 
Africa, but also by the suggestion that the Western world had 
turned our backs on what was happening in the Congo and in 
Darfur.
    And I would hope that we would take every opportunity 
available to us to raise the issue of what is happening there 
and loudly demand that the world not allow this to continue. 
This would not be acceptable, I think, in any other part of the 
world, and we should not allow it to go on in Africa. So I know 
you feel that way, too, and I just want to reiterate that for 
the future.
    Let me go back to Afghanistan now. I've been encouraged by 
the strategy of the administration with respect to a new focus 
on our policy in Afghanistan by the focus on helping to rebuilt 
civil society there and economic efforts on behalf of the 
people of Afghanistan, but I recognize that this will be a 
particular challenge given the increased military effort there.
    And so, I would ask, are you comfortable that there is 
support in the budget request and in what might be in the 
supplemental that the kind of civilian supports that we're 
looking for in Afghanistan will be there?
    Secretary Clinton. Senator, I'm very encouraged by the 
commitment to civilian support in Afghanistan, and certainly 
with the leadership of the chairman and Senator Lugar with the 
civilian support in Pakistan. So I think that the resources 
will be there. The challenge will be, as you know so well, to 
make sure that the resources are deployed in the way we intend 
them to be and achieve the results that we're looking for.
    But I think that this administration and the President's 
commitment to having an integrated civilian military strategy 
and having shoes on the ground as well as boots on the ground 
in order to work on important capacity-building and specific 
projects like agriculture and women's programs is exactly what 
we need to be doing, and now we just have to deliver it. We 
have to actually produce the kind of outcomes that we think are 
going to make a difference.
    Senator Shaheen. And one of the other things we've seen is 
some reports issued by the special inspector general for 
Afghanistan reconstruction which raises serious questions about 
the oversight that has been provided in Afghanistan for the 
money that's been spent there. Are there efforts that you will 
be undertaking or supporting on the part of defense to ensure 
that there is greater oversight for how the money's being 
spent?
    Secretary Clinton. Well, with respect to the Defense 
Department spending, obviously that is within their 
jurisdiction. But I know that Secretary Gates is committed to 
trying to have greater accountability. With respect to our 
responsibilities, we have reorganized our Embassy, we have a 
very able ambassador who has an understanding of the military, 
having just retired as a three-star general, but a real feel 
for what it means to have smart power.
    We have a very experienced deputy ambassador in effect who 
is part of a team that we're putting together, and we've 
recruited another ambassador to be in charge of all of our 
development aid. We are working with the United Nations and 
have an American as the deputy to the U.N. Administrator there.
    So we're putting in place the very best people that we can 
attract. Ambassador Holbrooke's team is a multiagency team. It 
has representatives from USDA as well as the CIA and everybody 
that possibly has a contribution to make, so we're going at 
this with everything we possibly can so that at least on the 
civilian side we're able to track the money and show where it 
goes.
    We stopped all AID contracts going into Afghanistan. We 
just said ``no'' until they are scrubbed, until we know what 
they're supposed to produce. We're not signing off on them. So 
we're trying to take steps that will better position us to be 
able to come before you and say, ``OK, here's what we've done. 
Here's what worked and what didn't work, to be very honest 
about it.'' And we're organizing ourselves to produce that.
    Senator Shaheen. Thank you. I want to switch topics at this 
point, because one of the things that we haven't talked about 
that I think is very important to our diplomatic efforts around 
the world is what's happening with climate change and the 
policy that we determine here in this country around climate 
change, and as the chairman has worked very hard to raise this 
issue in this committee.
    And at our last committee hearing with Todd Stern, the U.S. 
special envoy for climate change, he said something that I 
think is very telling. When talking about the opportunity 
before us, he said ``We're going to spend the next few years 
probably trying to push China. And 5 years from now, we're 
going to be chasing them, because the Chinese are moving and 
they're going to move very rapidly.''
    So do you agree with this assessment, and could you give us 
a sense of our opportunity and what happens if we stand by and 
don't seize the opportunity around taking a leadership role on 
climate change?
    Secretary Clinton. Well, I think that Todd is absolutely on 
the mark. In my very first meetings with the Chinese, I raised 
the importance of the climate change issue, encouraged them to 
become partners with us, recognize that they were at a 
different starting point, so there might be different 
modalities that they would pursue, and that has been a constant 
issue in our bilateral relationship.
    And I think the Chinese are taking this very seriously. We 
see a lot of commitment to new technologies, deployment of at 
least cleaner energy, and understanding that there are economic 
opportunities here for the Chinese. We are about to embark, we 
hope, in the same vein with the Indians, you know, talking to 
them, as well.
    But you're really on an important difference here is that 
we have to lead and we have to lead for our own sakes as well 
as for the world's. And the work that has to go on right here 
in the Congress as well as on the other end of Pennsylvania 
Avenue, to set the tone and to put into place the system that 
we're going to be utilizing is going to be enormously 
important.
    If we don't step up and produce a robust, effective 
approach to climate change in addition to all of the pieces 
that the administration is now adopting as we saw yesterday, 
we're not going to have the credibility we need to really push 
this at Copenhagen and beyond, because remember Copenhagen is 
not the end. It's maybe the end of the beginning of the work 
that's going to be required.
    So I agree with you very much, Senator, and I hope that, 
you know, this committee will be one of the leaders in getting 
the changes we need domestically.
    Senator Shaheen. Well, thank you very much both for your 
efforts in this area and the President's, and also again I want 
to applaud Chairman Kerry for all of the work that he's done in 
this area. Thank you.
    The Chairman. Thank you, Senator Shaheen. I appreciate 
that.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman, for hosting 
this hearing, and thank you, Madam Secretary, for coming to 
meet with us. It's been such an honor and a privilege to get to 
work with you, certainly in the capacity as now the Senator for 
your previous seat. And I want to thank you for the breakfast 
briefing that you hosted for us, for the whole committee. I 
think that was extraordinarily generous on your part, and it 
was a real pleasure to meet your team, and thank you for the 
initial briefing on some of the issues that you've been working 
on.
    And I would like to spend some time following up on some 
conversation that we started at the breakfast, particularly 
about Pakistan and Afghanistan. And on Pakistan, I have read 
the recent reports about the millions of people that have fled 
their homes due to the violence that the Taliban is forcing 
upon them, and you very quickly responded with $100 million of 
aid, particularly to make sure these peoples who have been 
displaced can receive the kind of immediate attention that they 
need.
    I've been talking to folks who have been on the ground in 
Pakistan and some say that it might be as much as $300 million 
of cost to address the urgencies needed there, and I just 
wanted to get your impressions about what's happening, what we 
could be doing, what we should be doing, and what do you see in 
the next months to come?
    Secretary Clinton. Thank you so much, Senator, and I 
appreciate your continuing focus on these very practical 
issues. When I made our announcement yesterday I pointed out 
that this was not the end of the aid that we would be 
providing. The Pakistani Government is doing an assessment 
about what they think they will need. They're going to be 
asking other donors to assist them, as well.
    But it was important for us to get out in front of this and 
to make clear to the Pakistani people that we were going to 
stand with them as they stood against the Taliban. So the $110 
million is both the $100 million of payments and $10 million of 
in kind.
    We are focusing obviously on the necessities like, you 
know, food and shelter, but we're also trying to be creative in 
two respects. One, we want to spend money inside Pakistan. 
Rather than just buying outside and importing in, we want 
people in Lahore or Karachi to feel as connected to this fight 
against the Taliban as the people in the Swat Valley are.
    So we're going to be purchasing locally, and I think that's 
very significant. Second, we are pioneering a cell phone 
program so that we can communicate information to the displaced 
persons on their cell phones, give them the opportunity to 
reach out for additional information, but also, you know, give 
them updates and tell them where they can go for certain kinds 
of aid.
    And third, we're asking the American people if they wish to 
participate, and we have a text messaging opportunity. You can 
text message to SWAT, 20222, and contribute at least $5. And we 
did that at the State Department yesterday because we want to 
enlist not just Pakistani Americans, but all Americans who are 
in support of the Pakistani Government and the Pakistani 
peoples' courageous stand against the Taliban. So we're moving 
on many fronts as once, Senator.
    Senator Gillibrand. And some of the hearings that I 
participated in last year when I was on the Arms Services 
Committee on the House side was focused on what kind of 
investments we can make in Pakistan that can make a difference, 
because, you know, we've given over $10 billion over the last 
several years, and we, you know, when I went to visit Pakistan 
the general there said there's been no accountability on how 
the money's been spent ever. We've never had that benefit.
    And when I was touring around in Islamabad, you know, the 
driver of my taxi said, you know, ``There's this beautiful 
white building. That's the university built by Japan.'' And, 
you know, I said, ``Where's the university built by America?'' 
and we don't have those kinds of investments that are standing 
there to show the people of Pakistan that we are there to be 
helpful and to be allies.
    What's your opinion and your hope for the kinds of 
investments we can work together with the Congress and with the 
administration, investments perhaps in education or health care 
or job training so that we are creating a long-term beneficial 
relationship and trying to prevent the next generation of 
terrorists from being born out of Pakistan?
    Secretary Clinton. I think that's an excellent question, 
because you're right. Other countries are still giving aid in a 
very public infrastructure-driven way, and they can point to 
the hydropower dam, or they can point to the university, or the 
hospital. And we, over the years, really moved away from that, 
in part for good reasons, because there were problems with some 
of the projects we invested in.
    But I think then it's harder for people on the ground to 
know: What are the Americans doing for us? You know, we're 
investing in rule of law programs or democracy promotion 
programs or, you know, programs that have significance, but 
they're not tangible; you can't touch or feel them.
    So we are looking at building schools and building health 
clinics, and making investments in addition to the other work 
that we do that we can point to as demonstrating the American 
peoples' investment. And I welcome your thoughts and ideas 
about it, because I think it is a big part of getting our story 
out and letting people know what we stand for, and certainly, 
you know, education we think is a key to the future in both 
countries, and it's one of the problems we've had, because 
there haven't been adequate education facilities for most of 
the children. So I'd like to see us do more that we can 
actually point to.
    Senator Gillibrand. I want to commend your recommendation 
and the President's appointment of Ambassador Holbrooke to the 
region and I think it's very important that we're looking at 
Afghanistan and Pakistan together. It's one of the main 
recommendations that came out of all the work last year.
    And, you know, I've spoken to Ambassador Holbrooke, 
particularly about Afghanistan, and I wanted to get your 
thoughts on poppy crop eradication and crop replacement, 
because some of the best crops that we could grow in 
Afghanistan are fruit trees, and they take 6 to 7 years, so it 
takes a very long time.
    And I wanted your thoughts on how we best do that to create 
the opportunity for job growth in Afghanistan so that we can 
more effectively undermine the Taliban and al-Qaeda that's 
recruiting there. And second, I would like you just to touch 
upon, we are using PRTs now for the Provincial Reconstruction 
Teams, but some of the testimony that we heard last year was 
all about creating a new force, and I think we're going to do 
the Civilian Response Readiness Corps, and we've got about 250 
people trained and with a thousand standing by.
    But what we had talked about and many people envisioned was 
having a joint force that's both Department of Defense and 
State Department led, funded by both entities, that can be this 
ready force that doesn't have the combat missions that the 
Department of Defense has, but has the kind of training so that 
the folks who sign up for this are prepared to work in 
dangerous places with the kinds of missions that are 
reconstruction and stability related.
    And I don't know if the Civilian Response Readiness Corps 
is going to be that, because it seems to be situated in the 
State Department. And perhaps I don't know if this corps is 
going to be prepared to work in dangerous places, but I want 
your thoughts on that and how we can be helpful to create the 
kind of force that we need that is prepared to do 
reconstruction and stability operations, but in a dangerous 
climate, something that a typical State Department employee 
perhaps would not want to sign up for.
    Secretary Clinton. Well, thank you. First, with respect to 
the crops in Afghanistan, we are very committed to an 
agricultural program. We have already begun to design it in 
conjunction with the Afghanistan Government, and we will be 
deploying people into Afghanistan to work on everything from 
irrigation to fertilizing to different kinds of hybrid seeds, 
but you're right that, you know, for many years Afghanistan was 
considered the garden of Central Asia because of the orchards.
    And there are so many crops that if we can get the soil 
ready to produce again, because it's been so eroded over the 
last 25, 30 years, this could be an enormous benefit for the 
people of Afghanistan. You know, most, 70 percent of Afghans 
are in rural areas. That's where they are going to live. That's 
where they're looking for their livelihood, and we think that 
there are better ways of going after the poppy crop than what 
we've been doing up until now.
    But we can't do it in isolation. It has to be done in 
conjunction with the agricultural approach. And with respect 
to, you know, the PRTs and the work that they have to do and 
the role of the civilian initiative, especially the 
reconstruction and stabilization force, we are totally 
committed to that.
    It is a State Department program. It would be deployed 
through the State Department, but in conjunction of course with 
the Defense Department, and we're working very hard to provide 
the funding, much of which we will get in this 2010 budget to 
really take it to the next level. It's been established, but 
it's just really taking baby steps, and we want to have a 
ready-to-deploy auxiliary unit, as well as a fulltime force.
    A comparable analogy might be, you know, fulltime military 
service and Reserve, but we want to have both so we can deploy 
people immediately and we can call up people who have agreed to 
serve.
    Senator Gillibrand. Have we given you enough funding for 
that? We have $323 million for the Civilian Response Readiness 
Corps, and I just don't know if the goal of 250 and a thousand 
ready and that amount of money is what you want. Are you 
looking for something bigger?
    Secretary Clinton. No, I think that that's what we're 
looking for now, because we have to build our own capacity to 
be able to use----
    Senator Gillibrand. OK.
    Secretary Clinton [continuing]. That.
    Senator Gillibrand. Thank you, Madam Secretary----
    Secretary Clinton. Thank you, Senator.
    Senator Gillibrand [continuing]. Again for your leadership.
    Secretary Clinton. Thank you.
    The Chairman. Thank you, Senator. Senator Lugar has one 
quick wrapup question.
    Senator Lugar. Secretary Clinton, I am prompted by Senator 
Gillibrand's comment that she saw a university of another 
country and was entertaining the question of, ``Why is there 
not an American university?'' There is currently a candidate 
for the American university, namely Foreman College in Lahore, 
Pakistan.
    I hesitated and desisted from putting this into the 
Pakistan Kerry-Lugar bill for fear of being accused of an 
earmark for Pakistan, but I'll take advantage of this 
opportunity, as somebody would say, I'll write a letter to 
you----
    Secretary Clinton. Please.
    Senator Lugar [continuing]. About this college. It's 
received over the years very strong American support and it's 
remarkable because it is a multireligious and a diverse 
college, which really has much going for it, I think. And 
having seen this President's official several years and USAID 
has worked with them and is well-acquainted and has been 
helpful, but this might be a candidate.
    Secretary Clinton. Thank you very much, Senator.
    The Chairman. Thank you, Senator Lugar, and I hope I dare 
to interpret the lack of Republican questions as absolute 
affirmation of this budget.
    Just a few quick wrap-ups here if we can, and a point. On 
the international organizations, the budget proposes $175 
million to begin to address some of the deferral of assessment 
payments through the years, but it doesn't say how it's going 
to go out at all. In other words, how much of that $175 million 
is going to go to whom?
    There are particular questions. The Organization for the 
Prohibition of Chemical Weapons maintains a zero-growth annual 
budget. The problem is that if there is a deferral by somebody 
like us or others, then it has to return to other states those 
funds and we don't get the job done at all.
    So our deferrals have really impacted some of these 
entities, and which one gets what is pretty critical. The 
Comprehensive Test Ban Treaty Organization Preparatory 
Commission is another one which we'd like to know the 
particular attentions, and so could you--you may not have that 
here now, but if you could get that to us I think we'd be very 
interested in knowing how it's going to go.
    And then, the other thing we'd like to have a sense is how 
you made those allocations. And obviously we want to try to get 
back to ground zero, you know, to a baseline----
    Secretary Clinton. Right.
    The Chairman [continuing]. As soon as we can. I know you 
know that.
    Secretary Clinton. Yes, sir.
    The Chairman. On a second issue, we really commend you for 
appointing the Ambassador at Large for the Global Women's 
Issues, and you've heard appropriately the committee really 
wants to put a focus on that, but the question is there's no 
specific request to support that budget, and I wonder what the 
plans are for making sure that that's going to be able to be 
implemented.
    Secretary Clinton. You know, Senator, I think that's a very 
good point. We had planned on having resources from the State 
Department supported, but given the increasing emphasis and the 
incredible array of problems, I think that's something we need 
to take another look at.
    The Chairman. OK. If we could follow up with you, and I 
know you will, it'd be great. And finally, in terms of these 
questions, the budget seeks $1.2 billion for international 
climate change and clean energy funding. Is that contemplated 
to be the downpayment or a component of the technology/
financing components of the Copenhagen Agreement, or is that 
some other piece that you're thinking of? And, if so, we need 
to think about where we're going to find the funding to be able 
to do what we need to do in terms of Copenhagen.
    Secretary Clinton. And again, I'd like to get back to you 
with the specifics. The general point is really both, that we 
think we need some funding as you and I have discussed before 
that is available when we go to Copenhagen.
    We also want to continue our bilateral efforts and we want 
to have funding available when those bear fruit, but we'll get 
back with the specifics.
    [The written information submitted by the State Department 
follows:]

    As the Secretary indicated, this funding will support interrelated 
efforts to combat climate change, to reach a new international climate 
agreement, and to help the most vulnerable countries prepare for and 
respond to the impacts of climate change. The funds will serve not only 
to address the climate crisis itself but also demonstrate the U.S. 
commitment to global leadership in international climate change.
    This funding request seeks to strengthen bilateral assistance, as 
well as expand contributions to multilateral funds (e.g., the World 
Bank's Climate Investment Funds and the least Developed Countries Fund 
and Special Climate Change Fund created under the U.N. Framework 
Convention on Climate Change). This request is divided among adaptation 
($312 million), clean energy ($745 million), and forests and land use 
($170 million).
    Attached fact sheet provides further details on our request.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    The Chairman. Thanks so much. Two last issues or comments, 
Madam Secretary. One is sort of a pet peeve of mine through the 
years, but as I travel around, and I'm sure you've noticed 
this, we all are aware of the changed world we live in and the 
need to have security. We all understand that.
    But we are building some of the ugliest embassies I have 
ever seen. We're building fortresses around the world. We're 
separating ourselves from people in these countries. I cringe 
when I see what we're doing. It doesn't reflect our capacity 
for architecture. I hope and we pray that this crisis we face 
in terms of terrorism is not going to be with us forever, but 
these buildings can be, and they're a reflection of us, and our 
values, and they ought to be welcoming.
    We all know you've got to have security around them, but I 
know we can do a better job. I've talked to any number of 
architects in this country who are dying to come together in a 
committee and to work with you on this issue. We could do a 
better job of welcoming people and showing America even as we 
provide the security we need to.
    Secretary Clinton. I agree with you, and we will follow up 
that idea.
    The Chairman. We can work on that.
    My final comment is on Afghanistan. We've worked hard 
together. We know this is a very difficult situation, but my 
plea to you is, as it was at the last hearing and as we go 
forward here, that we really factor in what we're hearing from 
General Petraeus and others in this policy. I'm still worried 
about the level of military footprint.
    There are still--I mean, any civilian casualty is too many, 
but there are too many civilian--we cannot win--we just can't 
do--``win'' is the wrong word. We cannot succeed in doing what 
we need to do to ultimately get our troops home and to have an 
independent Afghan security capacity if we're alienating people 
the way we are. I know you know this, but it is imperative that 
the civilian side of this be considered. I know they need 
security. But there's a distinction between some of the 
proactive and sometimes careless ways in which we have engaged 
versus the kind of empowerment of tribal leaders and of 
communities in ways that will grow their capacity even faster 
to be able to do what we want them to do. And I just wanted to 
underscore that.
    Secretary Clinton. No, I think that's a very good point to 
underscore. I know, Mr. Chairman, we are taking as hard a look 
at the military strategy as we are about the civilian strategy, 
and I think what you've said is a very important caution to all 
of us about what it is we're about and how we have to conduct 
ourselves.
    The Chairman. Well, we look forward to working with you, as 
you know, and we are very, very grateful to you for the time 
today. I think you heard from the committee there's a great 
sense of welcome for the approaches you're taking and the 
administration is taking. We've got a lot of tough issues, but 
we really look forward to working with you on them. Thanks so 
much for being with us today.
    Secretary Clinton. Thank you. Thank you, all.
    Mr. Chairman. Thank you.
    [Whereupon, at 4:02 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


Responses of Secretary of State Hillary Clinton to Questions Submitted 
                        by Senator John F. Kerry

    Question. On March 27, President Obama said, ``Today, I'm calling 
upon Congress to pass a bipartisan bill cosponsored by John Kerry and 
Richard Lugar that authorizes $1.5 billion in direct support to the 
Pakistani people every year over the next 5 years, resources that will 
build schools, roads, and hospitals, and strengthen Pakistan's 
democracy.''
    On May 12, Special Representative for Afghanistan and Pakistan 
Richard Holbrooke testified, ``Your bill provides more funds in one 
bill than the United States has spent in that area since 9/11. That is 
one of the reasons we are so enthusiastic about it. It's long overdue. 
This legislation has become so important--I mean, I want to be very 
frank with you, the phrase `Kerry-Lugar' has a talismanic quality in 
the Pakistani press now. It's not just the amount of money, it's the 
fact that it is now read as a symbol of our intentions to stick around 
and be serious about it. The words `Kerry-Lugar' have become a symbol 
of American support for Pakistan in the emergency.''
    On May 21, Chairman of the Joint Chiefs of Staff ADM Mike Mullen 
testified to the Foreign Relations Committee, ``In my military 
judgment, the programs outlined in the Enhanced Partnership with 
Pakistan Act of 2009 can serve as an important demonstration of our 
Nation's enduring commitment to the government and people of 
Pakistan.''

  <bullet> Do you support the President's call for Congress to pass the 
        Kerry-Lugar bill? If so, please explain how passage of the 
        Enhanced Partnership with Pakistan Act will help advance the 
        policy goals of the United States.

    Answer. I support passage of the Kerry-Lugar legislation as 
originally proposed. This legislation's authorization of $1.5 billion 
in foreign assistance to Pakistan, every year for 5 fiscal years, 
underscores the United States long-term commitment to Pakistan and its 
people. Many Pakistanis believe that the United States is not a 
reliable long-term partner and will abandon Pakistan after achieving 
our counterterrorism objectives. Our engagement has to be aimed at 
building a long-term strategic partnership and must be conducted in a 
way that respects and enhances the Pakistani people's pursuit of a 
prosperous economy, a stronger democracy, and a vibrant civil society. 
If enacted, S. 962 would be a critical demonstration of our commitment.
    The Kerry-Lugar legislation's emphasis on economic and governance 
challenges reinforces a key aspect to the President's new strategy on 
Afghanistan and Pakistan. By increasing economic and educational 
opportunities, expanding the reach of quality health care, reinforcing 
human rights--particularly women's rights--and empowering civil 
society, we will increase the opportunities for millions of Pakistanis 
to improve their lives.
    The administration shares Congress' concern that security 
assistance for Pakistan must show results. As the President has noted, 
``We must focus our military assistance on the tools, training and 
support that Pakistan needs to root out the terrorists'' but ``we will 
not, and cannot provide a blank check.'' Pakistan must demonstrate its 
commitment to rooting out al-Qaeda and the violent extremists within 
its borders.
    We are committed to accountability and partnering with the Congress 
in our efforts to ensure that assistance is used effectively and is 
making progress. At the same time, we appreciate ensuring that 
flexibility be preserved to provide economic assistance, as needed, on 
a continuous basis, and also appreciate efforts to facilitate the 
accountability as well as flexibility with regard to furnishing 
military assistance.

    Question. Both you and President Obama were cosponsors of the 
Enhanced Partnership with Pakistan Act of 2008, and both of you have 
publicly supported the revised version of the legislation. Certain 
elements of the 2008 and 2009 versions of the bills remain unchanged, 
and I would like to clarify your position on them:

  <bullet> Do you believe (as provided in both S. 3263 and S. 962) that 
        military aid should be de-linked from development aid--with 
        development aid as a long-term commitment to the Pakistani 
        people, and military aid carefully calibrated to the 
        requirements and the will of the Pakistani military? Or do you 
        believe that military and nonmilitary aid should be authorized 
        in the same piece of legislation?

    Answer. Our development and security assistance programs are two 
pieces of the same strategic goal--to help Pakistan become a secure, 
stable partner. Both types of assistance are crucial to support the 
people of Pakistan and defeat al-Qaeda and the Taliban. Our development 
assistance and our military assistance must be integrated and 
complementary.
    I agree that development aid should be a long-term commitment to 
the Pakistani people. Development programs to enhance Pakistan's 
capacity to provide improved health, education, and other basic 
services to the Pakistani people will require patience and commitment 
to have an impact. Our military assistance to Pakistan demonstrates our 
long-term commitment to helping Pakistan confront the threat of 
terrorism and extremis. Both are necessary tools but should not be 
limited by being inappropriately tied together.
    The question of whether authorization for development and military 
aid should be in the same piece of legislation is for Congress to 
determine. What we seek is the flexibility to be able to apply the 
appropriate resources at the appropriate time depending on specific 
needs or unique opportunities.

    Question. Do you believe (as provided in both S. 3263 and S. 962) 
that the level of military assistance channeled through the State 
Department should be authorized on an annual basis, depending on the 
actions, needs, and commitment of the Pakistani military? Or do you 
believe the level should be locked in place now for the next 5 years?

    Answer. The President expressed support for the Kerry-Lugar bill as 
originally proposed. Both Afghanistan and Pakistan perceive the United 
States as having previously abandoned them during their times of need 
and so it is important that our military assistance to Pakistan 
demonstrate our long-term commitment to helping Pakistan confront the 
threat of terrorism and extremism, and also include mechanisms to 
maximize effectiveness.
    The situation on the ground in Pakistan is quite fluid, with the 
needs of the Pakistani military evolving with its response to the 
threat posed by insurgents. Locking in specific levels of authorized 
military assistance would limit our flexibility in response to the 
situation on the ground. A strategic commitment to provide ongoing 
assistance is, however, important.

    Question. Do you believe that the Pakistani military will be more 
cooperative with U.S. efforts or less cooperative if they know that 
they will receive exactly the same military aid authorization every 
year for the next half-decade, regardless of their actions?

    Answer. Again, year-to-year authorization levels are appropriate to 
the fluid nature of the security situation in Pakistan. However, a 
strategic commitment to provide ongoing assistance is important. That 
said, better cooperation with Pakistan is not contingent exclusively on 
funding levels, but also depends on building relationships and breaking 
down misconceptions. These efforts help overcome the trust deficit and 
help Pakistan follow through on the changes needed to confront our 
common threat.

    Question. What do you think would be the impact of conditioning 
military aid on issues of great political sensitivity in Pakistan, such 
as F-16 transfers and the fate of A.Q. Khan (conditions absent from 
both S. 3263 and S. 962)? What would be the impact of providing the 
President with only a highly restrictive level of waiver (``vital to 
the national security''--a level absent from both S. 3263 and S. 962)?

    Answer. Our security assistance to Pakistan, which has included 
support for Pakistan's F-16 program, is a tangible symbol of the United 
States-Pakistan relationship. Pakistan cannot regain control of its 
border region absent a robust counterterrorism and counterinsurgency 
capability, which includes the use of a targeted close air support 
capability. Upgraded F-16s, in conjunction with appropriate training, 
provide Pakistan with this capability. Thus, overly restrictive 
conditionality on military aid to Pakistan could compromise our efforts 
to assist the Government of Pakistan as it seeks to dismantle terrorist 
networks in Pakistan. The highly restrictive waiver of ``vital to the 
national security'' would limit the President's authority and 
flexibility.
    However, we are not considering the use of additional foreign 
military financing (FMF) for the Pakistan F-16 program at this time. To 
date, the Government of Pakistan is current on its F-16 payments for 
the new aircraft and for related weapons systems.
    Regarding A.Q. Khan, we believe that conditionality of military aid 
would not be an effective or appropriate means of influencing the fate 
of A.Q. Khan. We appreciate Pakistan's efforts in shutting down the 
proliferation network led by A.Q. Khan as well as the cooperation 
Pakistan has provided the United States and the IAEA to investigate the 
Khan network. Key people involved with the network have been put out of 
business or are facing prosecution. We believe diplomatic means are a 
more effective tool in this case.

    Question. Is the amount of funding authorized in S. 962 for 
operational and auditing expenses ($10 million per year and $20 million 
per year, respectively) adequate to the expanded scope of the mission? 
If additional resources are required--particularly in the area of 
operating expenses--please provide a detailed explanation of how the 
additional funds will be used. [Note: If any adjustment from the 
figures contained in the bill is deemed necessary by the 
administration, it is very important that this explanation be as 
complete and transparent as possible]

    Answer. The best way to ensure that the Department of State and 
Mission Pakistan will have the operational and auditing resources for 
administering and implementing Foreign Assistance programs would be for 
Congress to enact the Pakistan FY 2010 request of $76.2 million for 
State operating expenses and the request of $30.8 million for USAID 
operating expenses for Pakistan. We hope that Congress will also move 
expeditiously to approve the FY 2009 supplemental including the 
requested amounts for State and USAID Operating Expenses, as well as 
$806.2 million requested by State for secure and upgraded facilities, 
all of which will enhance the capacity of our diplomatic and 
development efforts in Pakistan.
    That said, the authorization to use up to $30 million of Foreign 
Assistance annually to cover unexpected or incremental operating and 
auditing costs associated with S. 962 would seem sufficient.
    Separately, I reiterate our support for the Special Inspector 
General for Afghanistan Reconstruction (SIGAR). SIGAR is Congress' 
representative on the ground and we would like to see SIGAR deployed in 
every province in Afghanistan to assist with oversight of our 
assistance programs. We value SIGAR and respect its independence. To 
the extent that Congress is willing to expand its mandate and 
responsibilities, I have made clear we would very strongly support 
that.

    Question. On May 19, Secretary Clinton pledged at least $100 
million would be used in Pakistan to address emergency humanitarian 
needs from military operations in the Swat Valley. Which account will 
these funds be drawn from? How is the administration allocating funding 
for further humanitarian support to Pakistan which will likely be 
necessary in the coming months?

    Answer. Secretary Clinton's pledge has been met by pooling FY 2009 
omnibus, bridge, and supplemental funds from a variety of accounts: 
OFDA/IDA funds $46.6 million; Food For Peace P.L. 480 Title II 
emergency food, valued at $15 million; USAID/OTI Economic Support Funds 
$12 million; PRM/MRA funds, $10 million; USDA Food For Progress $16.8 
million; and DOD OHDACA funds, $10 million. A forthcoming USDA Food For 
Progress vegetable oil contribution, valued at $11.2 million, will 
bring the total contribution to $121.6 million.
    Even with the resources authorized by S. 962, our response to this 
humanitarian crisis will require significant additional resources. The 
crisis is consuming resources of the Government of Pakistan and budgets 
of the North West Frontier Province local government which were 
originally intended for security, development, and economic stability. 
Likewise there may be a requirement to use a portion of U.S. economic 
support funds in the FY 2009 supplemental to meet urgent humanitarian 
relief requirements, which were originally intended to help Pakistan 
meet its IMF commitments by covering costs of social safety net 
programs and items such as electricity for schools and hospitals.
    Due to the ongoing military operations we do not have a full damage 
assessment and rebuilding estimate. We are continuing to monitor the 
situation and are in constant consultations with the Pakistani 
Government and donor countries. The displaced population could reach 3 
million or more should the Pakistan military proceed with operations in 
Waziristan, as they have stated they will do soon. Preliminary 
estimates of the total cost of the three distinct phases of the 
crisis--relief, return, and reconstruction--are in the neighborhood of 
$4 billion through the end of FY 2010 for a population of 3 million 
displaced persons. Based on similar prior crises, the U.S. portion of 
the international effort has varied between 25 and 50 percent of the 
total requirement. Clearly, then, substantially more U.S. funding will 
be sought over the next year and possibly beyond.

    Question. Given the acute needs in Pakistan on global health issues 
and the administration's robust funding goals for nonmilitary aid to 
Pakistan, why is there a $5.6 million decrease in Global Health and 
Child Survival funds for Pakistan in FY10?

    Answer. While there is indeed a $5.6 million decrease in Global 
Health and Child Survival funds for Pakistan in FY10, there is an 
offsetting increase in ESF being devoted to health with such funds 
rising from $38.7m to $149.1m, a net increase of more that $110m.

    Question. On FMF for Pakistan, there is a $2 million decrease from 
FY 2009 to FY 2010. Please explain this decrease.

    Answer. Given the $2 million increase in our request for 
International Military Education and Training funding, there is no net 
change in the amount requested for military assistance programs for 
Pakistan. Additionally, the $298 million FMF request is consistent with 
actual FMF allocations over past 5 fiscal years.

    Question. Why is there a significant increase in FMF for Sri Lanka 
for FY10 given the recent military conflict and widespread allegations 
of abuse against the Sri Lankan Government in the recent fighting 
against the Tamil Tigers?

    Answer. The increased FMF funding in fiscal year 2010 budget 
request is intended to support the purchase of patrol vessels for 
maritime surveillance and interdiction missions, which would increase 
Sri Lanka's ability to stop the smuggling of weapons and ammunition 
into the country. The United States is engaged with the Sri Lankan 
Government and members of the international community to improve the 
humanitarian conditions for internally displaced persons. We are also 
looking to the Sri Lankan Government to implement its plans for 
resettlement and political reconciliation. U.S. assistance to Sri Lanka 
will be provided in the context of progress in these areas.

    Question. I notice that under contributions to International 
Peacekeeping Activities, UNAMA is not listed. Through which account 
does the U.S. support UNAMA?

    Answer. UNAMA is a Special Political Mission, which is funded 
through assessed contributions via the Contributions to International 
Organizations (CIO) account.

    Question. Why is Bangladesh zeroed out for Economic Support Funds 
in FY10?

    Answer. Development Assistance funds are more appropriate for 
programs in Bangladesh, and are better aligned to U.S. Government 
assistance priorities for the country. This approach is not new to 
fiscal year 2010; aside from funding we provided in response to Cyclone 
Sidr that came from the FY09 supplemental, all of the fiscal year 2009 
funds for assistance to Bangladesh are in Development Assistance as 
well.

    Question. Why is the administration cutting $30 million for 
International Narcotics Control and Law Enforcement funds for 
Afghanistan given the pressing counternarcotics needs there?

    Answer. There is no reduction to the International Narcotics 
Control and Law Enforcement (INCLE) account for Afghanistan. While the 
total funding for FY 2009 including supplemental needs will be $480 
million, the base funding in FY 2009 was only $351 million (bridge plus 
actual). The FY 2010 request is $450 million, an increase in the base 
request for Afghanistan INCLE programs of almost 30 percent.

----------------------------------------------------------------------------------------------------------------
                                                                          FY 2009
                                                     ------------------------------------------------   FY 2010
                       Country                          Bridge                   Supp.                  request
                                                         supp.      Actual      request      Total
----------------------------------------------------------------------------------------------------------------
Afghanistan.........................................     101,000     250,000     129,000     480,000     450,000
----------------------------------------------------------------------------------------------------------------

    These FY10 funds will build on our FY09 supplemental request and 
will be used to accelerate and expand counternarcotics, civilian law 
enforcement, and administration of justice programs to overcome 
critical security, governance, and rule of law challenges. Funds will 
support the implementation of the Afghan Government's comprehensive 
counternarcotics strategy, which combats opium production and 
trafficking; seeks to sustain and expand the poppy free status of the 
northern and eastern provinces of Afghanistan; increases coordination 
between counternarcotics and counterinsurgency activities in the South; 
amplifies the effects of the incentivized approach to reducing poppy 
cultivation through the Good Performers Initiative; expands public 
information, outreach, and, demand reduction efforts; and continues to 
build the capacity and capability of the Afghan counternarcotics police 
to interdict major traffickers and disrupt Taliban financing. The INCLE 
funds will be complemented by other funding streams with an increased 
emphasis on alternative development and agricultural programs, as 
reflected in the increased FY 2010 request for such programs, in order 
to provide Afghans with real alternatives to poppy production. Funds 
will also support the implementation of the National Justice Sector 
Strategy, which works toward an Afghan justice system with competent 
prosecutors, functioning courts, and secure and humane prisons.
    The pending FY 2009 spring supplemental supports the new strategy 
by shifting the priority within counternarcotics programming from 
eradication to additional support for the Good Performers Initiative 
(GPI), which provides high-impact development assistance to provincial 
governments that demonstrate concrete counternarcotics progress; 
proactively discouraging poppy cultivation through preplanting 
campaigns and assisting the public information and outreach initiatives 
of Afghanistan's Counter Narcotics Advisory Teams; and building 
residential and outpatient drug treatment facilities and providing 
project monitoring by antidrug experts.
    The FY 2009 supplemental also strengthens the criminal justice 
system through training and improved infrastructure and equipment 
assistance; advances the institutional capacity and professionalism of 
justice institutions; provides funding for prison facility improvements 
and mentoring of internal prison management in Afghanistan's most 
insecure prisons; and provides for rebuilding, equipping, operating, 
maintaining, and training for staff at Pol-i-Charki prison. These funds 
will also support programs to provide Afghan women with improved access 
to justice and legal awareness.

    Question. Why is Sri Lanka zeroed out for INCLE funds in FY10?

    Answer. Funding for International Narcotics Control and Law 
Enforcement (INCLE) programs was cut off in 2006 due to the security 
situation in Sri Lanka. Sri Lanka received $20,000 in INCLE in FY08 and 
FY09 respectively to fund an assessment of law enforcement needs in Sri 
Lanka and for program support. When executed later this year or in 
early 2010, this assessment will define the ability of INCLE assistance 
funds to respond programmatically to the current needs in Sri Lanka.
    There was no FY 2010 request for INCLE funds in Sri Lanka due to 
the political situation at the time the request was being developed, 
lack of an INCLE legacy in Sri Lanka, and the pressing needs of other 
foreign assistance priorities. Currently the Department of Justice 
(DOJ) and the U.S. Agency for International Development (USAID) are 
implementing a 1207 project which assists the Government of Sri Lanka 
(GSL) to create an effective, equitable partnership between regional 
government, the security forces (including the Sri Lanka National 
Police), and citizens. The planned INCLE-funded assessment will 
recommend how regular INCLE funding could build on the progress made 
under the 1207 project and build sustainable capacity within Sri Lankan 
law enforcement institutions.

    Question. The House Foreign Affairs Committee reported State 
Department authorization legislation out of committee last week. The 
bill will reach the floor in early June. I am putting together related 
legislation to authorize the State Department for FY 2010 and 2011.

  <bullet> Are you in support of legislative efforts to authorize the 
        State Department?

    Answer. The Department would support legislation that enhances the 
Department's ability to carry out its responsibilities in the conduct 
of foreign affairs and that strengthens U.S. diplomatic capacity. The 
Department looks forward to working with the committee on legislation 
that is consistent with the administration's foreign policy and 
management priorities.

    Question. When can we expect an official State Department 
authorization request to reach the Congress?

    Answer. We appreciate the willingness of Congress to collaborate 
with us on the State Department authorization bill. The Department is 
coordinating its authorization bill request with the Office of 
Management and Budget and other interested agencies. The Department 
will transmit its authorization proposals to the Congress upon 
completion of that process, which we hope to conclude shortly.

    Question. What priorities do you plan to include in the State 
Department authorization request?

    Answer. Subject to the completion of the process described in 
response to previous question, the Department anticipates that its 
authorization bill request will include proposals to provide additional 
flexibility to manage State Department personnel and resources and to 
improve its consular operations.

    Question. Why do you believe it is important to reauthorize the 
State Department through legislation?

    Answer. The Department's authorization bill request presents an 
important opportunity for the Department to work with Congress on 
legislation that will improve the management of State Department 
resources and allow us to better address new challenges that arise in 
the conduct of U.S. foreign policy. The Department's requests have 
historically included proposals that provide additional authorities or 
enhance the Department's existing authorities in a wide range of areas 
related to its operations around the world.

    Question. When asked about modernizing the U.S. foreign assistance 
apparatus during your Senate confirmation hearing, you responded that 
it was something you would pursue vigorously and that you were hopeful 
you would be able to rationalize the system within the State Department 
and USAID and across the U.S. Government. You said you were determined 
to present ``a plan and a system that will try to maximize 
coordination, minimize redundancy, and make the case for the increased 
resources that are so desperately needed if we intend to meet the 
missions that we've been given.'' How are these plans going and can you 
share with us any specific objectives you have laid out thus far?

    Answer. I am committed to ensuring that foreign assistance is well-
managed and implemented. I take seriously the need to further modernize 
how we deliver foreign assistance so it is as strategic, effective, and 
coordinated as possible. We have not yet completed our review of 
foreign assistance reform. We are thinking through these issues in a 
thoughtful and deliberative manner and are coordinating with a broad 
range of stakeholders.
    The focus in these first few months has been on securing the 
necessary resources to implement a ``smart power'' agenda. I remain 
committed to improving and streamlining our delivery of foreign 
assistance and look forward to consulting closely with the Congress in 
the weeks ahead.

    Question. Since the creation of the ``F'' Bureau in 2006, foreign 
aid is controlled by the Director of Foreign Assistance (currently 
serving in a dual capacity as USAID Administrator) who reports directly 
to the Secretary of State; State Operations budgets continue to be 
controlled by the Under Secretary for Management who reports to the 
Secretary and Deputy Secretary.

  <bullet> What are your thoughts regarding the F Process? Do you 
        anticipate that the F Bureau will be continued in its current 
        configuration? If not, what changes do you anticipate making?
  <bullet> Do you intend to maintain the dual role of the USAID 
        Administrator in serving as the Director of Foreign Assistance?

    Answer. I take seriously the need to modernize how we deliver 
foreign assistance so it is planned, budgeted, and implemented in the 
most strategic, effective, and coordinated manner possible. We have not 
yet fully completed our review of foreign assistance reform. The issues 
involving the ``F process'' as well as the dual role of the Director of 
U.S. Foreign Assistance and USAID Administrator are part of this 
review. We are thinking through these issues in a thoughtful and 
deliberative manner and will coordinate with a broad range of 
stakeholders.
    Jacob J. Lew, Deputy Secretary for Management and Resources, serves 
as my principal adviser on overall supervision and direction of 
resource allocation and management activities of the Department and 
USAID. He is focused on ensuring that the Department of State and USAID 
are well coordinated internally and collaborating effectively with 
other agencies and organizations, spending smarter as we build the 
capacity to achieve our objectives and deliver results.
    Deputy Secretary Lew is also responsible for the overall direction, 
coordination and supervision of operational programs of the State 
Department, including foreign aid and civilian response programs.
    The focus in these first few months has been on securing the 
necessary resources to implement a ``smart power'' agenda. I remain 
committed to improving and streamlining our delivery of foreign 
assistance and look forward to consulting closely with the Congress in 
the weeks ahead.

    Question. In remarks at a townhall meeting with Department of State 
employees on February 5, you stated, ``Because we know that we can't 
usher in a new era of diplomacy and development without adequate 
resources and support. We can't exercise smart power if we don't have 
what we need to do our job at the highest level. We can't continue to 
take on new responsibilities if we don't have the resources to fulfill 
them.'' Can you speak to the need to recapacitate and reprofessionalize 
our development corps, and what role the USAID Administrator should 
have in leading that effort?

    Answer. We need good people and we need enough of them to 
effectively carry out our mission. The staffing shortage at USAID is 
severe. In 1990, USAID employed nearly 3,500 direct hire personnel to 
administer an annual assistance budget of $5 billion. Today, the 
Agency's staff has shrunk by roughly a third, while at the same time, 
they are tasked with overseeing $13.2 billion. To provide the oversight 
that taxpayers deserve and to effectively manage a doubling of our 
foreign assistance by 2015, we simply need more good people, to do the 
jobs we're asking them to do.
    I appreciate the Congress' continued support for USAID. Indeed, if 
USAID is to effectively perform in the critical role it is being called 
to play, we will need your continued commitment to rebuild the Agency's 
personnel and expertise. Thanks to strong support from the Congress, 
USAID will add an additional 300 Foreign Service officers to its total 
workforce with resources provided by the FY 2009 Omnibus appropriation. 
In addition, the President's FY 2010 request includes funding for 350 
new Foreign Service officers under the Development Leadership 
Initiative (DLI). This effort to rebuild our Foreign Service staff 
remains our highest priority for USAID.
    We will improve the balance between those functions performed by 
our direct hire staff and those services appropriately provided by 
contractors. You will see more USAID personnel engaging directly and 
productively with our recipient country officials, institutions, and 
communities.
    Development is often difficult, halting, and uncertain. In the 
long-term, we seek to encourage and support good governance, broad-
based economic growth, improved health, better education and modern 
natural resource management in developing countries. At the same time, 
in the short-term, USAID responds to disasters, pandemics, and post-
conflict situations. While we may not always, or immediately, succeed 
in moving a fragile state to a position of stability, I believe the 
Agency's historic achievements--from investments in microfinance, 
nutrition, agricultural research, family planning, education, and legal 
reform--should make the American people proud.
    The USAID Administrator will play a leading role in rebuilding the 
Agency. We are currently in the process of reviewing names for the 
USAID Administrator and believe that filling this key position is 
critically important. In the absence of a Senate-confirmed USAID 
Administrator, we are still paying a great deal of attention to the 
Agency and its critical work. The Acting Administrator, the Acting 
Director of U.S. Foreign Assistance, the Deputy Secretary for 
Management and Resources and I have all been very involved in foreign 
assistance budgeting and in operational planning and management issues.

    Question. Many current studies have said that the Department is 
understaffed. What generally is the process that the Department uses in 
determining the number of personnel it needs now, and as it looks 
forward to 2013? If the Department's staffing is increased as proposed 
in the next 5 years, will that provide the Department with an adequate 
staff level to undertake a varied diplomatic effort, or will you be 
meeting basic anticipated needs?

    Answer. The Department engages in a multifaceted analysis of its 
resource requirements in terms of both near term budget requests and 
its assessment of what its long-term staffing will require. The 
Department uses several quantitative workforce planning models that 
project staffing requirements at overseas posts as well as domestic 
elements. These analytical tools incorporate a variety of country-
specific geopolitical factors, anticipated workload changes based on 
Department strategic objectives, and required policy development and 
support requirements to support the Department's global agenda.
    The results of these analyses are integrated with bureau and post-
specific analyses of both current and long-term workload profiles based 
on current policy objectives as well as what strategic goals are 
envisioned over the next several years. Of course, the results of these 
efforts undergo rigorous reviews with Department principals to ensure 
that resource requests provide the staffing wherewithal to meet 
immediate, critical policy objectives as well as lay the groundwork to 
meet the Department's long-range foreign policy vision.
    The resource requirements proposed over the next 5 years not only 
meet the Department's most pressing foreign policy needs, they also 
position the Department to significantly enhance its global engagement 
strategy and fulfill the ambitious foreign policy agenda articulated by 
President Obama.

    Question. As the size of the Department's Foreign Service is 
increased, the question of how those increased numbers of personnel are 
utilized is also relevant. In 2006, the previous administration argued 
that there was an imbalance between where the FSOs were serving, in 
established Western allied nations, and where the Bush administration 
thought the Foreign Service should be posted--in new strategically 
important countries such as China and India, and in rising regional 
powers. Secretary Rice started a ``Global Repositioning'' program that 
sent hundreds of FSOs to more difficult postings to meet the new 
strategic requirements. If you were to bring on the requested 
additional generalist personnel the Department is planning for through 
2013, how would you position these diplomats?

    Answer. The Department's FY 2010 budget request continues along the 
resource blueprint set forth in FY 2009, which is to fill existing 
vacancies, provide additional opportunities for officers to avail 
themselves of critical language training, increase interagency 
professional development, continue to build strategic relationships 
with our Defense colleagues, and enhance the Department's 
infrastructure to support workforce growth. Resources requested in FY 
2010 will enable the Department to fill remaining overseas vacancies 
that resulted from shifting priorities, such as standing up our Embassy 
in Baghdad. While the Department expects to fill many such vacancies 
with staffing funded in FY 2009, a number of vacant positions at 
various overseas posts will remain for which additional officers hired 
in FY 2010 would be assigned.
    The FY 2010 request also lays the groundwork for expanding the 
Department's overseas presence to address several key administration 
objectives and priorities: (1) Begin to lay the blueprint for smart 
power with increased core diplomacy and outreach positions, (2) 
strengthen global partnerships, and (3) address urgent challenges of a 
country-specific or transnational nature.
    With a solid resource foundation in place, workload, and staffing 
increases anticipated for fiscal years 2011 through 2013 would allow us 
to continue to expand
the President's global engagement strategy. Increased staffing would be 
allocated
to strategic regional priorities to build civilian capacity for both 
core diplomatic activities and stabilization and reconstruction, 
promote long-term development and human security, enhance strategic 
bilateral and multilateral partnerships, strengthen global security 
capabilities, and maintain resources to meet urgent humanitarian needs.

    Question. In many respects, there is a shortage in mid-level 
diplomats. It is reported that about one-fifth of mid-level Foreign 
Service positions are vacant, and about 19 percent of FSOs are doing 
stretch assignments. Newly recruited FSOs would enter the service at 
the junior ranks. What are your views on mid-level recruitment to meet 
current shortfalls? Are there any legal or bureaucratic impediments to 
hiring mid-level professionals?

    Answer. We have had mid-level hiring programs in the past and had 
very mixed results. Experience has shown that, as with the military, 
building the skills in-house produces the best results. Learning the 
art of diplomacy, crisis management, and the full range of skills and 
experience necessary for our Foreign Service employees is best 
accomplished though time and experience. As a result, again as with the 
military, our officers enter the Foreign Service as Entry Level 
Officers--equivalent to lieutenants--and work their way through the 
ranks. Employees' skills are honed through our career development 
program which provides a guide for our officers to achieve the 
experience and expertise to rise to senior ranks through a careful 
series of assignments and training. As a result, our officers arrive at 
senior positions with a full range of crisis management, leadership, 
managerial, foreign language and cultural skills and are equipped to 
represent the United States and defend our foreign policy interests.
    The Department has the authority to hire new Foreign Service 
entrants and assign them to mid-level positions after a brief 
orientation and training period and we have done so in the past. We 
regularly hire Foreign Service specialists, including doctors and 
psychiatrists, at the mid-levels. Our experience with mid-level hiring 
programs for Foreign Service generalists (FSOs), however, has not been 
encouraging. While we can and do recruit and hire for specific skills, 
such as proficiency in a needed foreign language, experience has shown 
that other key skills are best gained within the Foreign Service.

    Question. Surveys by the American Foreign Service Association show 
that the most important issue for their members is having pay 
comparability between serving abroad and serving in Washington, DC. The 
Federal Pay Comparability Act of 1990 excludes Federal employees posted 
outside the continental United States from receiving locality pay 
adjustments. As a result, Foreign Service personnel, who spend about 
two-thirds of their careers posted abroad, receive less salary when 
they are posted abroad and less of a career total than their Civil 
Service counterparts who spend a career in the United States. Is the 
administration supportive of the effort of the Foreign Service serving 
abroad to achieve pay comparability with their Foreign Service 
colleagues serving in Washington, DC.? Some critics contend that 
because of the various allowances and benefits, including housing, in 
most cases Foreign Service officers already have pay comparability. How 
would you respond to this point?

    Answer. Rectifying this pay disparity remains a high priority for 
the administration. Our critics struggle to understand the unique 
characteristics of a Foreign Service career. Incentives and allowances 
are often seen in strictly monetary terms, rather than as longstanding 
adjustments to compensate for higher costs and significantly adverse 
conditions abroad. With the loss of locality pay in 1994, entry and 
mid-level Foreign Service (FS-01 and below) members currently take a 
cut in base pay of just over 23 percent to serve overseas, despite the 
fact we are asking more of them to serve in difficult, dangerous, and 
volatile environments. This disparity in base pay, apparently an 
unintended consequence of the introduction of locality pay, continues 
to grow.
    Hardship differential, danger pay, housing allowances, which are 
applicable to all U.S. Government employees overseas, and other 
allowances were specifically established as incentives to recruit 
personnel to relocate temporarily from the United States to foreign 
areas. They were never meant to serve the same purpose as locality pay. 
The failure to extend locality pay overseas has undermined the purpose 
and value of incentives, particularly hardship differential and danger 
pay, which are designed to compensate for difficult and dangerous 
conditions abroad. In fact, the value of these incentives is entirely 
negated by the loss of locality pay at posts where the combination of 
these two incentives is less than 23 percent. It is only in 
particularly difficult or dangerous posts, such as Amman, Karachi, and 
Monrovia that these allowances offset the loss of locality pay.
    In addition, hardship differentials and danger pay are calculated 
based on employees' base pay with no adjustment for domestic locality 
pay rates. Until 1993, employees serving overseas received incentives 
and allowances based on the same pay as those serving in Washington, 
DC. In 2009, by contrast, the pay on which employees received 
allowances is now based on pay 23 percent less than Washington, DC, 
pay. In other words, Foreign Service employees serving overseas take a 
double-hit: lower basic pay (by 23 percent) and proportionally reduced 
allowance and incentive amounts for service in difficult or dangerous 
overseas assignments.
    Moreover, unlike other USG employees, FS members spend upward of 70 
percent of their career overseas. Over the span of a normal career, the 
significantly lower base pay affects retirement (Thrift Savings Plan 
contributions) as well as the family pocketbook. In today's two-career 
families, most members overseas also sacrifice the spouses' earning 
power.

    Question. I support the President's efforts to engage in direct 
dialogue with Iran. President Obama said this week that ``we should 
have a fairly good sense by the end of the year as to whether [Iran is] 
moving in the right direction,'' with respect to its nuclear program.

  <bullet> What are the objectives of this engagement and how will you 
        measure its success at the end of the year?

    Answer. Our Iran policy is focused on our full commitment to direct 
diplomacy, our intent to cooperate with the Iranians on areas where our 
interests converge, and a commitment to maintain pressures that hold 
Iran to its international obligations.
    We will use all the diplomatic tools at our disposal to address 
those policies of the Iranian Government that we and the international 
community deem destabilizing to the region and beyond, including Iran's 
pursuit of a nuclear weapons capability, its support for terrorism, and 
its human rights abuses.
    Engagement is not an end in itself. The international community is 
deeply concerned about the continuing expansion of Iran's nuclear 
program. A nuclear-armed Iran will significantly destabilize the Middle 
East and will not add to Iran's security. Many share our concerns that 
it could embolden Iran's aggressive actions, lead to a potential war 
with Israel, drive others in the region to seek a nuclear weapon, and 
damage the integrity of the NPT.
    Through the P5+1 process, we seek to hold Iran to its legal 
obligations under several U.N. Security Council resolutions and to 
prevent Iran's pursuit of a nuclear weapons capability. The President 
has made clear that Iran has the right under the Non-Proliferation 
Treaty to a civilian nuclear energy program. But he has also noted that 
with that right comes the responsibility to address the international 
community's concerns and restore international confidence in the 
exclusively peaceful nature of Iran's nuclear program.
    We hope that the Iranian leadership makes the decision to pursue a 
diplomatic approach to address the issues before us, and comes prepared 
for serious negotiations.

    Question. Are there efforts underway to get our allies to agree to 
tougher sanctions against Iran should our negotiation efforts fail? 
What is your assessment as to how far the Russians and Chinese are 
willing to go? Do other members of the P5+1 share our sense of urgency 
on this issue?

    Answer. Sanctions will remain an important tool, alongside 
engagement, to help Iran appreciate the choice now before it and 
encourage it to take steps to secure a better future for itself within 
the international community. We hope that Iran will come to the 
conclusion that its interests would be better served by different, 
constructive policies. At their meeting April 8, the P5+1 expressed 
their shared determination to resolve concerns about Iran's nuclear 
program through direct diplomacy, in the context of the dual-track 
strategy. While there is a new emphasis on the engagement track, all 
members will continue to hold Iran to its international obligations.
    We pursue an aggressive, multifaceted foreign policy campaign to 
influence Iran, both unilaterally and multilaterally, relying on the 
flexibility inherent in existing U.S. law and regulation.
    Multilaterally, we have forged a coalition that has secured passage 
of three U.N. Security Council resolutions imposing sanctions, and 
worked successfully with the Financial Action Task Force (FATF) to 
issue a statement calling on its Member States to implement ``effective 
countermeasures'' to protect their financial systems from the terror 
finance and antimoney laundering risks emanating from Iran.
    FATF further urged its members to reassess their business relations 
with Iran. We continue to press the EU to proceed with a package of 
additional designations of Iranian entities. Not only do these 
sanctions constrain Iranian activity, they also send a message of 
international solidarity on those concerns--a message that is 
particularly powerful given Iran's quest for international legitimacy.
    We continue to work with our P5+1 partners, including Russia and 
China, to find the right combination of direct engagement, incentives, 
and pressures, to provide the atmosphere and opportunity for Iran to 
change its policies of concern and become a constructive international 
player. We would be happy to brief on this subject in greater detail.

    Question. The United States-Iraq Status of Forces Agreement 
requires the U.S. military to be out of Iraqi cities, towns, and 
villages by June 30, 2009. Will this deadline be met in all 18 
governorates, including Ninewa and Diyala?

    Answer. The United States plans to implement fully its obligation 
under the United States-Iraq Security Agreement to withdraw all U.S. 
combat forces from cities, villages, and localities no later than June 
30, 2009. U.S. combat forces are on schedule to leave all Iraqi cities, 
villages, and localities in all 18 governorates--including Ninewa and 
Diyala--by the June 30 deadline. In fact, U.S. combat forces have 
already begun leaving Joint Security Stations in Baghdad and are 
dismantling or turning over to Iraqi security forces facilities in 
other cities in preparation for the withdrawal. In coordination with 
the Iraqi Government, and consistent with the Security Agreement, 
noncombat forces such as trainers will remain in some locations.

    Question. The United States-Iraq Status of Forces Agreement 
requires the U.S. military to be out of Iraqi cities, towns, and 
villages by June 30, 2009. How will the June 30 deadline effect the 
provision of security for the Provincial Reconstruction Teams, 
particularly in volatile areas?

    Answer. The U.S. military will continue to provide security to 
Provincial Reconstruction Teams (PRTs) and embedded PRTs (ePRTs) after 
the June 30 deadline, which applies only to combat forces stationed in 
cities, villages, and localities. U.S. forces will continue to provide 
security to PRTs living on Forward Operating Bases as well as movement 
teams to enable PRTs to travel and interact throughout their areas of 
responsibility. (PRTs in Erbil and Muthanna currently operate 
exclusively with State Department security teams rather than U.S. 
military, and will continue to do so.) As the U.S. mission in Iraq 
transitions, the Departments of State and Defense will continue to 
coordinate closely to ensure that PRTs have the security necessary to 
accomplish their mission. As President Obama stated on February 27 at 
Camp Lejeune, U.S. military forces will continue to protect U.S. 
civilian efforts in Iraq as one of their key missions after the U.S. 
military combat mission ends on August 31, 2010.

    Question. Sudan. President Obama has named Gen. Scott Gration as 
his special envoy to Sudan. On his first trip to Sudan General Gration 
rightly concentrated on addressing the potential humanitarian crisis 
created by Sudan's expulsion of 13 of the international aid groups 
working in Darfur. His second trip took him to many of the capitals of 
the region to meet with governments pivotal to creating peace and 
security. He will shortly go abroad again.

  <bullet> Please describe the staffing and resources available to the 
        special envoy. Are they comparable to those available to John 
        Danforth during his efforts to craft the Comprehensive Peace 
        Agreement of 2005, which ended decades of war?

    I ask because if the United States and others cannot resuscitate 
the CPA between now and 2011 when a referendum on separation for the 
South is scheduled, then I fear that the almost certain conflict is 
renewal of a conflict that claimed over 2 million lives.

    Answer. Since assuming his duties as the President's special envoy 
to Sudan, Scott Gration has made building a competent, quality team a 
priority. When possible, this will include key members of other U.S. 
agencies. Considering the ongoing situation in Darfur, the fast-
approaching Sudanese elections in February 2010, and the referendum on 
Southern Sudanese independence in 2011, assembling an experienced staff 
committed to advancing USG goals and serving the best interest of the 
people of Sudan is absolutely critical.
    To that end, Special Envoy Gration has been provided a budget of 
approximately $4 million to upgrade facilities in Darfur and Juba, to 
fund a staff of approximately 20 persons, and to travel extensively 
with his staff in 2009. Additional funds will be required in 2010 to 
sustain these operations. The 2009 budget and number of personnel 
exceed annual resources provided for Senator John Danforth.

    Question. In February, an article in The Economist stated, ``The 
most smashed-up country in the world has reached a crossroads. The 
recent election of a moderate Islamist, Sharif Ahmed, as Somalia's new 
President may offer the best chance of peace in the country for more 
than a decade. . . . In the next few months, governments of countries 
with historical, humanitarian, commercial or strategic ties to Somalia, 
including its African neighbors, the United States, Italy, Britain, 
Sweden, Saudi Arabia, and the Gulf States, must decide whether to spend 
time and money to give Mr. Ahmed a chance to rescue his benighted 
country. If they do not, he will very probably fail--and the country 
with him.''

  <bullet> Does Sheikh Sharif still have this chance? If so, what 
        should the international community do to help sustain his 
        efforts?
  <bullet> What are the necessary components of a comprehensive U.S. 
        strategy toward Somalia? Or should we be thinking about the 
        problem in the broader regional context of the Horn and if so, 
        what do the broad outlines of that strategy look like?

    Answer. We have been a key supporter of the United Nations (U.N.)-
led Djibouti Peace Process, which was successful this past January in 
electing pragmatist leaders into the Transitional Federal Government 
(TFG), including President Sheikh Sharif, expanding the Transitional 
Federal Parliament to include members of the opposition Alliance for 
the Re-liberation of Somalia (ARS), and fostering continued political 
dialogue and reconciliation. We have provided the bulk of the resources 
to support the deployment of the African Union Mission in Somalia 
(AMISOM). We are also supporting the development of the TFG's security 
institutions, including the National Security Force (NSF), Somalia 
Police Force and National Security Committee.
    If the TFG is to succeed, the international community must work 
with it to counter ongoing insecurity in Somalia, and to deliver basic 
services to the population. Assistance to develop the Somali security 
sector is crucial. We currently intend to provide up to $10 million 
this fiscal year to support the development of the NSF as part of this 
effort, and we are working to strengthen the TFG's capacity so that the 
United States and others in the international community can provide 
additional assistance. We have also provided $5.5 million to the United 
Nations Development Program (UNDP) to support civilian police training 
under UNDP's Rule of Law program, and we plan to continue this 
assistance. We will continue to support the TFG, as well as economic 
development and livelihoods programs in all of Somalia, including in 
the northern areas of Puntland and Somaliland.
    U.S. policy goals in Somalia are to create political and economic 
stability, eliminate the threat of terrorism, and address the dire 
humanitarian circumstances. We will continue to work with states in the 
region that share our goals and will maintain efforts to change the 
behavior of states such as Eritrea whose actions undermine prospects 
for stability. We continue to work closely with other USG agencies and 
departments to ensure development of joint, coordinated approaches to 
these issues. We are also committed to eliminating the threat of piracy 
off the coast of Somalia with the realization that a long-term solution 
to the piracy situation requires addressing Somalia's many governance 
and stability issues on land.

    Question. The FY 2010 budget proposal continues a trend of 
proposing to supplement the traditional State Department-funded foreign 
military training and equipping programs with smaller DOD-funded 
programs with temporary authority. Do you think that the State 
Department's authority, funding, or personnel are insufficient to 
provide foreign policy oversight and management for our programs to 
train and equip foreign militaries? How does this budget seek to 
correct any such problems at the Department?

    Answer. The State Department has broad authority to build 
partnership capacity through our military assistance programs. Our 
Foreign Military Financing (FMF), International Military Education and 
Training (IMET), and Peacekeeping Operations (PKO) accounts have proven 
to be effective tools to further our foreign policy goals and ensure 
our national security. Our FY 2010 budget proposal contains robust 
increases for FMF, IMET, and PKO. Short-term DOD-funded programs may be 
appropriate, with State Department concurrence, in areas such as 
Afghanistan; however, the proliferation of small, temporary train-and-
equip authorities independent of our FMF, IMET, and PKO programs could 
ultimately lead to fragmented train-and-equip efforts. In the coming 
months the administration will be conducting a thorough review of 
security assistance programs and authorities to determine the 
appropriate distribution between State and DOD.

    Question. The State Department has requested funding in its FY 2010 
budget for two additional staff positions to ``support new political-
military planning efforts to ensure that military planning processes 
are guided and actual plans are informed by foreign policy expertise 
and goals.'' Will two additional staff positions in the Political-
Military Affairs Bureau provide the needed additional capacity to 
oversee the so-called ``Section 1206'' authority, or are additional 
personnel and/or changes to certain legal authorities also needed?

    Answer. We agree strongly with the need for additional State 
Department capacity to oversee ``Section 1206'' funding. The 
President's FY 2010 budget submission to Congress contains a request 
for four additional positions in the Bureau of Political-Military 
Affairs (PM): two positions to support new political-military planning 
efforts, as cited in the question; and two other positions, as written 
in the Congressional Budget Justification, ``support the expanded, 
jointly managed DOD-State security assistance program known as `1206.' 
'' An appropriation of $350 million is authorized in FY 2010 for the 
1206 program, requiring additional manpower in PM Bureau to ensure 
adequate State program oversight and management. No changes to legal 
authorities are requested at this time.

    Question. What capacity does the State Department lack that would 
allow it to oversee and administer new training and equipping programs, 
such as the Pakistan Counterinsurgency Capability Fund, just as it 
oversees and administers the Foreign Military Financing and 
International Military Education and Training programs?

    Answer. The Pakistan Counterinsurgency Capability Fund was not 
requested because of specific constraints on the State Department's 
capacity to execute security assistance programs. Rather it was 
requested as a DOD authority, which requires the concurrence of the 
Secretary of State, to address the exceptional situation in Pakistan 
where there is an urgent need to allow the Combatant Commander to 
accelerate, enhance, and resource Pakistan's counterinsurgency 
operations and capabilities. At this time, I do not believe the State 
Department needs additional capacity to administer its military 
assistance programs. However, this view may be affected by the broad, 
strategic review of foreign assistance resources (including military 
assistance resources) that the Department will be conducting in the 
coming months in order to reduce redundancies, strengthen State's 
ability to manage and coordinate programs, and improve the coherence 
and integration of our foreign aid programs. Part of this review will 
include an examination of the appropriate balance of authorities vested 
between the Defense and State Departments, as well as the personnel and 
resources needed to build the capacity to execute these programs.

    Question. The Appropriations Committee has directed the Secretaries 
of State and Defense to jointly develop a plan identifying the 
resources, personnel, and authorities required to transition the 
proposed Pakistan Counterinsurgency Capability Fund from the Department 
of Defense to the Department of State by FY 2010. When it is completed, 
will you please provide a copy of the plan to the Committee on Foreign 
Relations as well?

    Answer. We will be happy to provide a copy of the plan to the 
Committee on Foreign Relations.

    Question. You have repeatedly expressed concerns about the wide-
ranging ability of the Defense Department's Commander's Emergency 
Response Program to spend as they see fit. As of April 2009, Congress 
has authorized about $1.4 billion for FY09 for CERP humanitarian relief 
and reconstruction operations in Iraq and Afghanistan, of which DOD 
allocated $683 million to fund CERP development projects in 
Afghanistan. As DOD intends to increase U.S. troop presence in 
Afghanistan, some DOD officials expect the size and funding of CERP to 
further expand. The previous administration sought to make the CERP 
authority permanent and apply worldwide. Some have argued, however, 
that these activities are not core DOD missions and duplicate similar 
programs managed by civilian professionals at the State Department and 
USAID. What are your views of CERP? Alternatively, the American Academy 
of Diplomacy recommends the continuation of CERP in countries where 
U.S. forces are engaged in combat activity but to create a parallel 
authority or expand current State Department and USAID capacity for 
undertaking civilian reconstruction projects in post-conflict nations. 
Do you believe this is a workable division of responsibility? To what 
extent should State/USAID be engaged in planning and coordination of 
reconstruction operations in combat areas?

    Answer. I support the establishment of a CERP-like authority within 
the Department of State because it would provide, as it has for the 
Department of Defense, a flexible means of responding to urgent and 
immediate reconstruction and stabilization needs on the ground during a 
crisis, or to conduct those activities that could prevent a crisis when 
a country is at risk of destabilizing.
    During a reconstruction and stabilization crisis, such as Iraq and 
Afghanistan, where there is also military engagement, the U.S. 
Government needs to bring to bear all available resources to meet U.S. 
objectives and bring peace and prosperity to the country or region. 
Those resources should include the CERP authority currently available 
in the Department of Defense, as well as resources for civilian-led 
reconstruction and stabilization activity.
    I agree with Secretary Gates that reconstruction and stabilization 
activities should be civilian-led in order for the military to focus on 
its core warfighting mission. However, the Civilian Response Corps, for 
which the President has requested $323.4 million in funding for FY10, 
was designed, developed and is being implemented to respond to all 
reconstruction and stabilization crises; those with and without a 
military presence. To ensure a cohesive and coordinated presence in 
combat areas, CRC members are trained to work with and regularly 
exercise with the military.

    Question. The FY 2010 USAID Transition Initiative (TI) account 
request includes $76 million for a Rapid Response Fund (RRF). How are 
the intended uses of the RRF different from the intended uses of the 
SBF and Section 1207 funding?

    Answer. The Rapid Response Fund (RRF) is intended to provide a 
mechanism and a source of funds to enable the USG to respond rapidly to 
unanticipated windows of opportunity in new and fragile democracies. 
The purpose of the fund is to help such governments demonstrate to 
their citizens at critical times that democracies can deliver. RRF will 
be set up to react quickly before funds can be requested through the 
normal appropriations process. Funds will be available to a broad range 
of countries and for a broad range of interventions, but will be 
approved only when it is judged that RRF resources can make a 
measurable, timely impact in delivering the benefits of democracy. For 
example, Kenya is a fragile democracy that recently faced the 
likelihood of backsliding into authoritarianism or conflict. A RRF 
would have diminished the need for FY 2009 supplemental funding and 
would have provided a more rapid response to help the Government of 
Kenya in the areas of economic growth, governance, and peace and 
reconciliation.
    The RRF is designed for a very different purpose than the 
Stabilization Bridge Fund (SBF). The SBF will be used in coordination 
with Civilian Response Corps deployments in civilian-led stabilization 
missions. The RRF is not designed to support existing or planned 
reconstruction and stabilization operations through deployment of 
people or programs and, therefore, would not support security programs, 
provide police equipment and training, or demining and weapons 
destruction as envisioned under SBF.
    The RRF is also different than funding available under Section 1207 
authority which allows the Secretary of Defense to transfer funds to 
the Secretary of State for the purpose of reconstruction, security, or 
stabilization assistance to a foreign country. Section 1207 funds help 
to avert potential crises that could otherwise require U.S. military 
forces to assist or intervene. Section 1207 involves close interagency 
collaboration among the 3Ds--defense by DOD, diplomacy by the State 
Department, and development by USAID. Section 1207 funds transferred to 
the Secretary of State may remain available until expended and can be 
used for a broad range of activities under foreign assistance 
authorities and subject to their limitations. Unlike Section 1207 
funds, the RRF is requested directly under the Foreign Operations 
budget in the TI account.

    Question. Section 1206 of the National Defense Authorization Act 
for FY 2006, as amended, not only provides funding for training and 
equipping foreign military forces, but also provides the Secretary of 
Defense with primary authority for programs carried out under its 
aegis. What are the effects of providing authority to train and equip 
foreign military forces to DOD rather than the State Department under 
the Foreign Military Financing (FMF) and International Military 
Education and Training (IMET) rubric? Have U.S. foreign relations been 
adversely affected since Section 1206 funding was provided to DOD?

    Answer. Section 1206 authority has been a valuable tool to increase 
the resources available for training and equipping foreign military 
forces. We recognize the concerns that have been raised about having 
such an authority outside of the Department of State. The State 
Department has called for a review of our foreign assistance resources 
and programs with the aim of reducing redundancies, strengthening 
State's ability to manage and coordinate programs, and improving the 
coherence and integration of our foreign aid programs. Part of this 
review will include an examination of the appropriate balance of 
authorities vested between the Defense and State Departments, as well 
as the personnel and resources needed to build the capacity to execute 
these programs.

    Question. Do you agree with some Members that some of the Section 
1206 programs that have been carried out or that are proposed have been 
for FMF-type programs? If so, does that argue for an increase in FMF 
funding, greater than the $238.5 million increase requested for FY 
2010? Should International Military Education and Training funds also 
be increased more than the $17 million increase requested for FY 2010?

    Answer. Section 1206 is intended to meet emerging or unanticipated 
requirements, while Foreign Military Financing (FMF) has historically 
been used generally for longer term support to develop a wide range of 
partner country capabilities (not limited to counterterrorism or 
stability operations) as well as for building and maintaining our 
bilateral security relationships. FMF requests are normally for 
country-specific programs, whereas 1206 funds are appropriated by 
Congress as an unallocated sum. This permits allocating the funds 
toward new opportunities or unforeseen challenges that arise during the 
fiscal year in which they are appropriated.
    The Department supports the President's budget request.

    Question. Secretary of Defense Gates has argued that in the post 9/
11 security environment, training and equipping foreign military and 
security forces is an important military mission, and that Section 1206 
authority and funding should remain with DOD. Do you agree? If so, 
should authority and funding for other authorities to train and equip 
foreign military forces be transferred from the State Department to 
DOD?

    Answer. The Foreign Assistance Act and the Arms Export Control Act 
recognize the important role that the Secretary of State must play in 
the provision of security assistance to foreign countries by assigning 
to the Secretary of State responsibility for the continuous supervision 
and general direction of such assistance to ensure that such assistance 
comports with our foreign policy. DOD's expertise in evaluating foreign 
defense needs and in implementing security assistance programs is also 
recognized in these acts.
    The administration is conducting a thorough foreign assistance 
review. Part of this review will include an examination of the 
appropriate balance of authorities vested between the Defense and State 
Departments, as well as the personnel and resources needed to build 
capacity and carry out the mission.

    Question. In submitting its FY 2009 supplemental appropriations 
request, the administration proposed establishing a new Pakistani 
Counterinsurgency Capability Fund (PCCF) under DOD aegis, providing 
$400 million for FY 2009 from the DOD budget to build the 
counterinsurgency capacity of Pakistan's military, paramilitary 
Frontier Corps, and irregular security forces. The administration also 
has requested $700 million in PCCF funds for FY 2010 through the DOD 
budget, to be overseen by the U.S. Central Command. Through the PCCF, 
DOD seeks to fold several existing DOD security-related authorities for 
Pakistan into one program, according to DOD sources. Nevertheless, the 
State Department currently provides considerable funding for security 
force training and security-related equipment to Pakistan through 
several State Department accounts, and the House Appropriations 
Committee recently voted to shift primary PCCF oversight to the 
Secretary of State after FY 2009.

  <bullet> What is the rationale for having both the State Department 
        and DOD provide separate funding streams for Pakistan military 
        and security force assistance? Given the importance of Pakistan 
        to U.S. foreign policy, should the State Department exercise 
        primary authority over these activities and control the 
        relevant funding.

    Answer. We have a longstanding, productive security assistance 
relationship with Pakistan based on our Foreign Military Financing 
(FMF) program ($1.5 billion in FMF since FY 2005). In light of the 
exceptional nature of the integrated Afghanistan-Pakistan theatre and 
our corresponding new strategy, however, we concluded that it would be 
worthwhile to request a dedicated account to enhance the capability of 
Pakistan's security forces so that we have additional tools we can 
deploy there. This means complementing our FMF, the foundation of our 
security relationship with Pakistan, with a new counterinsurgency 
resource, a Pakistan Counterinsurgency Capability Fund (PCCF).
    The proposed PCCF, which will require the concurrence of the 
Secretary of State, will be used to accelerate and enhance Pakistan's 
counterinsurgency operations and capabilities. It includes a small 
component that will be used to enhance the capacity of Pakistan's 
security forces to provide humanitarian relief in post combat/conflict 
areas. We are committed to working with DOD to ensure that this 
assistance is provided in a way that addresses the urgent needs for 
enhanced counterinsurgency capability in Pakistan while recognizing the 
key foreign policy imperatives of the region. Both the Department and 
Embassy Islamabad are taking steps to manage these two accounts to 
ensure that they are complementary, not duplicative of each other.
    Both Secretary Gates and I are committed to enhancing the 
Department of State's role and rebalancing the division of foreign 
assistance authorities. The current PCCF proposal should not be 
considered a long-term solution; rather, it is a temporary fix in a 
unique theatre with extraordinary resource and timing issues.

    Question. In its proposed legislative language for the Civilian 
Stabilization Initiative, the administration asks for authority for the 
Secretary of State to ``transfer and merge funds made available under 
any other heading in Titles I, II and IV of this Act'' with CSI funds 
``to maintain and deploy a civilian response corps and to provide 
reconstruction and stabilization assistance . . . '' Under what 
circumstances would you use that authority? How much do you think would 
be the maximum amount that you would transfer under that authority?

    Answer. This language will allow the Secretary of State to transfer 
funds, such as the $40 million Stabilization Bridge Fund requested 
under the Economic Support Fund account, into the Civilian 
Stabilization Initiative (CSI) account, in order for the Civilian 
Response Corps, when deployed, to undertake urgent reconstruction and 
stabilization activities in the immediate aftermath of a crisis or 
conflict. This language will allow the Secretary the needed flexibility 
to respond immediately to crises while other funds are reprogrammed, 
made available, or appropriated.

    Question. Some advocates of a Civilian Response Corps have argued 
that the deployment of civilians for state-building tasks in S&R 
operations would be less costly than deploying military personnel to 
perform the same tasks. This budget seeks funding to provide deployment 
security to 130 civilian responders at a cost of $34.4 million for 3 
months, or almost $264,000 per responder. Although there are no 
authoritative figures for the cost of a deployed U.S. soldier, a 
commonly used figure has been $100,000 per year, or $25,000 for 3 
months. Average costs for deployed soldiers in actual peacekeeping 
operations in Somalia, Haiti, and Bosnia (as calculated by CRS) 
generally appear less than this amount. Why does the cost of security 
alone for civilian responders seem to be higher than the cost of a 
deployed military responder?

    Answer. Unlike the military, members of the Civilian Response Corps 
(CRC) are not armed and not able to ``self-protect.'' Therefore, they 
require separate force protection when deployed in nonpermissive 
environments. In fact, in order to travel and interact under hostile 
conditions and circumstances, each deployed CRC member requires at 
least three security personnel for adequate protection, while the 
military requires no other protection in order to carry out their work.
    Civilian responders are also subject to security standards as set 
forth by the Overseas Security Policy Board and specific legislation 
mandating minimal security standards, such as 100-foot setback and 
other minimum standards, which do not apply to military personnel under 
Combatant Command authority.
    Finally, the Department of State does not maintain a standing force 
of armed security personnel to provide force protection or personal 
security details in a nonpermissive environment in any significant 
numbers due to the unpredictable nature of the demand for such 
services. Therefore, if these forces are needed in large numbers or for 
unique circumstances, these services may have to be contracted for, 
which also increases the cost per person.
    It should be remembered that the security envisioned at the level 
referenced above is, as I said, for a fully nonpermissive environment. 
Many reconstruction and stabilization missions are carried out in a 
semipermissive environment requiring a less robust force protection 
element.
    It should also be noted that the assertion of a lower total (not 
per capita) civilian cost to respond to crises vice the cost for 
deployment of the military to that same crisis is correct. In computing 
the costs of the military, the total footprint of the military, which 
includes many more personnel and all the equipment and hardware (ships, 
planes, tanks, etc.) as well as the logistical costs of warfighting, 
Department of Defense overhead, etc., need to be included. If all those 
costs were computed, a military response would be significantly more 
costly that the $323.4 million the President is requesting in fiscal 
year 2010 to support a civilian response.

    Question. How much of the funding that has been appropriated for 
CSI is for startup costs? How much do you anticipate is needed to 
maintain a full-sized CRC active component? Standby component? Reserve 
component?

    Answer. Of the total funds made available for the Civilian Response 
Corps in fiscal year 2008 and 2009, one-time startup costs are 
estimated at $31 million. These costs include design and development of 
the training courses, purchase of equipment and armored vehicles for 
250 Active and 500 Standby component members, and initial development 
of the civilian deployment center.
    The cost to maintain trained and ready full-sized Active component 
is $61.1 million which includes salaries and benefits for 250 members, 
training costs, and a 20-percent replacement rate on equipment and 
armored vehicles.
    The cost to maintain a trained and ready full-sized 2,000-member 
Standby Component is $72.7 million, which includes salaries and 
benefits when deployed, the costs of training, and a 20-percent rate of 
replacement for equipment and armored vehicles.
    The cost to maintain a trained and ready full-sized 2,000-member 
Reserve Component is $72.7 million, which includes salary and benefit 
costs when deployed or in training, the cost of training, and a 20-
percent rate of replacement on equipment.

    Question. Will any of the funds requested for the CSI or for the 
SBF be used for the same purposes for the so-called ``Section 1207'' 
funding, requested under the Department of Defense (DOD) budget, that 
is used to fund S/CRS rapid response activities?

    Answer. Section 1207 funds have so far been used to support 
stability and conflict prevention needs in countries where there has 
been no civilian deployment. The Stabilization Bridge Fund will be used 
in countries where civilian-led stabilization missions are underway in 
order to respond to short-term reconstruction and stabilization needs 
while longer term funds are identified, reprogrammed, appropriated or 
otherwise made available. Civilian Stabilization Initiative (CSI) funds 
were appropriated to support the operational costs of civilian 
deployments, not the related immediate and urgent on-the-ground 
stabilization projects and activities required during or following a 
crisis.

    Question. The administration has requested continued funding under 
the DOD Section 1207 budget account. Does the administration anticipate 
requesting such funding indefinitely, or will it eventually transfer 
the request for such funds to the Foreign Operations budget?

    Answer. Our goal has always been to have a fully appropriated fund 
within State Department to support urgent and immediate short-term 
reconstruction and stabilization activities by our deployed civilian 
force. The Section 1207 authority has provided State a mechanism to 
support stability and conflict prevention needs in countries where 
there has been no civilian deployment. If funds for the Stabilization 
Bridge Fund are appropriated, we will work with the Department of 
Defense to review the continued need for the 207 transfer authority.

    Question. What level of USAID direct hire staff is the ``right'' 
number? What elements--size of program, type of program, program 
complexity, host country size, etc.--do you think must be considered 
and given priority to arrive at an appropriate full-sufficiency staff 
level in each mission?

    Answer. USAID uses the Consolidated Workforce Planning Model (CWPM) 
that is a strategic management tool that uses assumptions to project 
reasonable future staffing requirements. The strategic and 
developmental importance to the United States are the basic elements 
that determine the size and type of USAID mission for a country. 
Strategic and developmental importance is measured through the use of: 
spider graphs showing the level of development in certain sectors in 
the country such as those used by the Foreign Assistance Bureau, the 
State Department and the Millennium Challenge Corporation; funding 
levels for each sector; a combination of international indices to 
create a factor for operational difficulty for each country; and the 
experience of many current and former USAID Foreign Service officers.
    The CWPM is a comprehensive tool that projects all staff types for 
the Agency (FS, CS, FSN, PSC/Other). It projects numbers for all types 
of work that USAID performs. It can be used by management to run 
scenarios to determine the results of their strategic decisions on 
personnel numbers and categories. Soon it will be on the web for all to 
use as a management tool.

                               APPENDIX I

   The Consolidated Workforce Planning Model--The Foundation of the 
             Workforce Planning Process, February 23, 2009

    The Consolidated Workforce Planning Model (the Model) is a future-
oriented tool that projects staffing needs, by number, type (FS, CS, 
FSN and others), location, and backstop (family of occupations and 
competencies) and offers flexibility in response to changing 
circumstances. The Model takes a strategic approach to estimating the 
Agency's workforce requirements and allocations utilizing strategic, 
development, and stewardship elements to create a guiding framework. 
The Model, using the Agency's current strategic direction, underpins 
USAID's initiative to significantly increase the size of the Foreign 
Service (FS) and to augment the Civil Service (GS).
    In FY 2008, the Model underwent significant changes to enhance its 
strategic utility. The Model projects staffing requirements by 
location, occupation, and employment type (FS, GS, FSN, PSC, etc. ) now 
using an approach that includes almost two dozen parameters reflecting:

  <bullet> Economic growth;
  <bullet> Governance;
  <bullet> Health;
  <bullet> Education;
  <bullet> Fragility;
  <bullet> Strategic and development importance;
  <bullet> Security and Difficulty Factors; and
  <bullet> Program funding level.

    To further illustrate, Then,
    The score required to for a given size (large, medium, small, etc.) 
was determined through an iterative process of setting break points 
with experienced professionals then vetting with regional and pillar 
bureaus.
    These additional indices allow the Agency to determine mission size 
and location based on strategic importance, rather than solely on 
projected program funding levels. It can also be used to analyze 
potential strategic direction shifts (i.e., it can run scenarios). The 
current Model parameters show significant increases in the overall 
number of FS staff, while reducing some other types of employees (e.g., 
US PSCs). The Model determines the quantitative workforce needs, while 
the qualitative staffing needs are determined by competency planning.
    For USAID headquarters:
    Base Staff represents roles and/or functions required by all 
Offices. Base Staff is arrived at based upon:

  <bullet> Averages and baselines (standardized across Offices).
  <bullet> Desired/recommended numbers (from SMEs).
  <bullet> Workload survey data.

    Technical Staff is variable and based upon ``good'' workload 
drivers. Technical Staff is arrived at based upon:

  <bullet> External and/or internal benchmarks.
  <bullet> Desired/recommended ratios (from SMEs).
  <bullet> Analysis of the relationship between indicators and staffing 
        levels.

    Refined headquarters projections should be ready in April.
    The Consolidated Workforce Planning Model, in concert with 
attrition data, yields the gap analysis which leads to the solution 
analysis (including hiring plans). The Office of Human Resources (OHR) 
leads this workforce planning approach annually, looking forward five 
years. For the FS, a rank-in person personnel system, USAID develops a 
five-year recruitment plan by backstop (occupational group). For the 
CS, the Agency uses quantitative data to help plan ahead to close 
future gaps, particularly for Mission Critical Occupations.
    The entire Workforce Planning Process is melded into the Annual 
Budget Cycle. Based on these analyses, OHR provides data to the Budget 
Office; and that data serve as the basis for a more accurate operating 
year staffing budget estimate by determining not only numbers of staff, 
but types and locations. The Budget Office uses OHR's numbers to set 
the proposed budget. Missions, Bureaus, and Offices come in with their 
recommendations. Headquarters, the State Department, and OMB reviews 
adjust actual numbers for the CBJ. OHR uses the CWPM to redistribute 
whatever resources it can afford.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Model eliminates organizational waste and focuses attention and 
provides a standardized structural template for realignment and 
reorganizations.
    The new Model enhances USAID's capacity to impact global 
development by positioning staff as USAID representatives with 
multinational development organizations (e.g., currently with OECD, and 
FAO; planned with ASEAN and African Union), major donor partner 
countries, and in other strategic ways.
    The updated Model underwent a rigorous vetting process to ensure 
its accuracy and utility to Regional Bureaus and Headquarters. 
Projections from the original assumptions in the Model were presented 
to Regional Bureaus for review. Regional Bureaus coordinated their 
reviews with Technical and Support Bureaus and Offices and with 
numerous field missions. Feedback was used to adjust and refine the 
model. The Agency is now repeating this vetting process in even more 
detail for both the overseas missions and headquarters bureaus and 
offices. This will ensure bureaus, offices, and missions understand the 
``guts'' of the CWPM and improve strategic alignment between the Model 
and select indices, strategic importance, and ground truth. This 
vetting will be repeated every year. The Model is dynamic and thus, can 
evolve overtime to reflect changes in the U.S. Government's foreign 
policy, strategic focus, level of development, and funding of foreign 
assistance.
    Mali Example: The Model projects Mali to be a medium mission in 
2012. Initial 2012 mission size determined based on scores for these 
factors: Economic Growth: 1, Governing Justly & Democratically: 1, 
Investing in People: 1, Fragility: 2, Instability: 4, Failed State 
Status: 3, and Strategic/Development Importance: 8. Adjusted mission 
size not impacted by its Footprint/Security Factor, which is 1.
    Mission staffing levels are determined by mission size and funding 
level. The Model includes staffing projections by backstop and staff 
type. As a medium mission with assumed funding levels, Mali will 
receive the following staff:

Senior Management = FSO: 1; FSN: 0; PSC/Other: 0
Legal = FSO: 0; FSN: 0; PSC/Other: 0
Program Management = FSO: 2; FSN: 2; PSC/Other: 0
Administrative Management = FSO: 1; FSN: 5; PSC/Other: 0
Financial Management = FSO: 1; FSN: 4; PSC/Other: 0
Contract Management = FSO: 1; FSN: 2; PSC/Other: 0
Junior Officers = FSO: 1; FSN: 0; PSC/Other: 0
IIP Officers = FSO: 3; FSN: 8; PSC/Other: 2
EGAT Officers = FSO: 3; FSN 7; PSC/Other: 2
DCHA Officers = FSO: 3; FSN: 7; PSC/Other: 2

Totals: 16 FSOs; 35 professional FSNs; 6 PSC/Others; 40 Op Support FSNs 
            = Grand Total: 97.
As of 9/30/2007: Total FSO positions: 10; Total staff positions: 81.

    Bangladesh Example: The Consolidated Workforce Model projects 
Bangladesh to be a large mission in 2012. Initial 2012 mission size 
determined based on scores for these factors: Economic Growth: 4, 
Governing Justly & Democratically: 2, Investing in People: 2, 
Fragility: 4, Instability: 4, Failed State Status: 4, and Strategic/
Development Importance: 10. Adjusted mission size not impacted by 
incorporating its Footprint/Security Factor, which is 1.

Senior Management = FSO: 2;FSN: 0; PSC/Other: 0
Legal = FSO: 1.5; FSN: 0; PSC/Other: 0
Program Management = FSO: 3; FSN: 3; PSC/Other: 0
Administrative Management = FSO: 2; FSN: 6; PSC/Other: 0
Financial Management = FSO: 2; FSN: 8; PSC/Other: 0
Contract Management = FSO: 2; FSN: 2; PSC/Other: 0
Junior Officers = FSO: 2; FSN: 0; PSC/Other: 0
IIP Officers = FSO: 4; FSN: 9; PSC/Other: 3
EGAT Officers = FSO: 6; FSN 6; PSC/Other: 1
DCHA Officers = FSO: 3; FSN: 5; PSC/Other: 1

Totals: 27.5 FSOs; 39 professional FSNs; 5 PSC/Others; 55 Op Support 
            FSNs = Grand Total: 126.5.
As of 9/30/2007: Total FSO positions: 19; Total staff positions: 92.

    Question. The Development Leadership Initiative seems to be aimed 
at enhancing the number of FSOs. What are USAID's projected needs for 
civil service staff at headquarters? Will you be requesting an increase 
in those numbers?

    Answer. USAID will need an increase in Civil Service (CS) staff 
based on the Consolidated Workforce Planning Model. The need for 
additional CS staff is based on: workload survey data and analysis; 
averages and baselines (standardized across offices); recommendations 
from subject matter experts; external and/or internal benchmarks; and 
analysis of the relationship between indicators and staffing levels.
    Over time CS staff needs to increase by several hundred with a 
significant part of the increase being through rationalization and 
reduction of the nonpermanent workforce.

    Question. Given continued poor state of the rule of law, democracy, 
and human rights in some parts of the former Soviet Union, how can or 
should the United States act to support those who would stand up for 
fundamental rights? Now that we've been providing assistance to the 
states that arose from the U.S.S.R. for 18 years what sort of 
assistance works and what doesn't? Are we adjusting the approach we are 
taking to match circumstances?

    Answer. The United States is committed to promoting the rule of 
law, democracy, and human rights in the former Soviet Union, and to 
supporting those who stand up for fundamental freedoms such as speech, 
assembly, and association. This is accomplished by shining a spotlight 
on these issues through public statements and reports, by raising our 
concerns in private dialogues with government counterparts and in 
multilateral fora, and by supporting those who seek to establish or 
expand democracy in their countries. We provide assistance to 
strengthen democratic institutions and processes and we support local 
organizations and initiatives working to protect human rights, 
strengthen the rule of law, and promote democratic reforms. As 
reflected in numerous countries in the region, these democratic reforms 
take time and the trendlines can be uneven--both with governmental and 
nongovernmental actors--necessitating a long-term commitment on our 
part.
    Despite their stated commitments to carrying out democratic 
reforms, many governments in the region have recently enacted 
increasingly authoritarian measures. Although these trends hamper our 
efforts to advance systemic reforms, in some cases we have been able to 
identify and support reform-minded officials and institutions within 
these governments to improve governance, strengthen checks and 
balances, and increase citizen participation. Our assistance programs 
are most effective when they are tied to the incentives of Euro-
Atlantic integration and host governments' commitments to implementing 
their international obligations, buttressed by robust multilateral and 
bilateral diplomatic support. For example, we have assisted governments 
to draft and implement new Council of Europe-compliant criminal 
procedure codes, central to improving defendant rights and improving 
justice sector transparency. We have also helped governments address 
weaknesses in electoral processes identified by the Office of 
Democratic Institutions and Human Rights within the Organization for 
Security and Cooperation in Europe (OSCE).
    As governments in the region have continued to backslide, we have 
targeted a growing proportion of our assistance to strengthen 
nongovernmental actors such as advocacy groups, watchdog NGOs, and 
independent journalists. Where nongovernmental actors are under 
increasing government pressure, our assistance is crucial to enabling 
these actors to continue their advocacy for democratic reforms and 
promotion and protection of human rights. We have increasingly worked 
with indigenous organizations and regional networks such as the 
European Network of Election Monitoring Organizations as partners in 
our programs, strengthening local ownership in democratic development.
    We continually adjust our assistance programs to address challenges 
such as certain governments' efforts to reduce political competition 
and restrict the media and civil society. As governments have moved to 
adopt restrictive NGO legislation, we have targeted assistance to 
protect NGOs' operating space by seeking to improve the regulatory 
environment through legislative analysis and advocacy, strengthening 
NGO lawyers associations, and helping NGOs comply with registration and 
reporting requirements. As governments have clamped down on traditional 
media, we have increasingly targeted our assistance to strengthen 
alternative platforms, such as the Internet and satellite broadcasters, 
in order to expand access to independent information, while also still 
continuing to support pockets of dynamism in traditional media outlets.
    In both our assistance to governments and civil society, we 
coordinate with other donors to divide labor, share best practices, and 
ensure a consistent message. We look forward to working with you on 
these areas of mutual concern.

    Question. There is some concern in the international community that 
our newest NATO member, Albania, is on the verge of a flawed election. 
The government of Albania is in the process of providing all of its 
citizens with identification (ID) cards consistent with commitments 
under its Stabilization and Association Agreement with the EU. These ID 
cards serve a variety of purposes, including commercial transactions, 
obtaining pensions, but are also necessary to vote. It appears that the 
Albanian Government has had technical problems producing and 
distributing these cards on schedule. It has announced that it will not 
be able to produce enough cards to provide each citizen with one by 
election day June 28, 2009. What is the United States doing to ensure 
that this new ally maintains the democratic commitments we so recently 
agreed to defend?

    Answer. According to the new Albanian Electoral Code, Albanian 
citizens must possess either a valid passport or biometric ID card to 
vote in the June 28 elections. We have urged the Government of Albania 
to make it easier for citizens without passports to acquire the ID 
cards. In early May, the government, after consulting with the 
opposition, reduced the cost of ID cards to a nominal fee of 
approximately $2.00 from $10.00 in order to make the cards more widely 
available. Effective June 1, the government also ordered registration 
centers to accept only applications filed by citizens who did not 
already have a valid passport. The purpose of this was to allow the ID 
centers to focus on those eligible voters who did yet need appropriate 
ID's.
    With these changes in place, we have seen a significant increase in 
the number of citizens applying for cards. There are no technical 
obstacles for any citizen without a passport to get a card by June 20, 
the program cutoff. Meeting this goal depends on individual voters 
going out and registering for, and picking up, ID cards before the 
elections. The U.S. Ambassador, John Withers, has been active in the 
media, urging voters to obtain their ID cards. According to GOA data, 
some 675,000 persons have picked up ID cards; an additional 500,000 
cards have either been printed and are waiting to be picked up, or 
remain to be produced.
    OSCE election monitors in Albania report to the Embassy that they 
have seen no evidence that the ID issuance process favors a particular 
party or group, but have detected some confusion over the overall 
process and a delayed issuance of cards in rural areas. We continue to 
monitor the ID card process extremely carefully and are coordinating 
with other observers in the international community to ensure that the 
ID card program--as well as the overall conduct of the elections--is 
transparent, inclusive, and fair.

    Question. What percentage of positions in our overseas posts are 
designated as requiring foreign language capability, and what 
percentage of these positions are filled with Foreign Service personnel 
meeting the language requirements for the position, especially the 
particularly hard languages?

    Answer. Of our overseas positions, 44.1 percent have language 
requirements and are designated as Language Designated Positions 
(LDPs). Currently, 62.7 percent of these positions are filled by 
Foreign Service personnel who meet or exceed the language requirements. 
Approximately 55 percent of the LDPs in super hard languages are filled 
by employees who meet or exceed the language requirements. With the 300 
additional positions authorized in FY 2009 that will be dedicated to 
training, we expect to be able to increase these figures.

    Question. Traditional diplomacy required U.S. diplomats to 
represent the United States, analyze and report on what is happening 
within the host country and its importance to the United States and 
U.S. policy, participate in the development of substantive policy 
position and strategies, and protect U.S. citizens and businesses 
abroad. Do you believe new, additional skills are required of diplomats 
today, and what skills would these include?

    Answer. To maintain high-quality and relevant training throughout 
our curriculum and to provide the training essential to help achieve 
effective and proactive diplomacy, FSI continually reviews, updates and 
invigorates the wide array of priority training offered. To meet the 
needs of those working in post conflict situations or on reconstruction 
and stabilization missions, we now offer Iraq Familiarization training, 
Iraq and Afghanistan Provincial Reconstruction Team (PRT) training, and 
training created specifically to meet the needs of members of S/CRS's 
Active and Standby Response Components. Training for the Civilian 
Reserve Component is also in development. Foreign languages continue to 
be a high priority, particularly critical needs languages such as 
Arabic, Pashto, Dari, and Chinese.
    As we train the new Foreign Service and Civil Service employees 
hired under Diplomacy 3.0, we are reviewing how best to prepare them 
throughout their career to exercise the Secretary's vision of smart 
power, i.e., to effectively use the full range of tools, whether 
diplomatic, economic, political, legal and/or cultural, to achieve our 
foreign policy objectives.
    We also recognize that today's diplomats must be well-versed in the 
interagency process. Our employees have long attended the military's 
Command and General Staff Colleges, as well as the war colleges. 
Similarly, we have had numerous exchanges with interagency partners, 
particularly DOD, and senior employees serve as political advisers to 
military commands. But the need continues to grow. We are working hand 
in hand with our military partners in Iraq and Afghanistan. 
Increasingly, our employees are integrated with the military's 
operational commands and staffs. Looking ahead, we are committed to 
increasing the number of exchanges, details and training opportunities, 
a goal facilitated by the increased hiring of Diplomacy 3.0. State is 
playing a key role in the development of a National Security 
Professional Education/Training Consortium to help expand the options 
for interagency training and coordination, and in the development of 
interagency National Security Professionals.

    Question. Besides the 180 foreign language positions the 
administration is requesting, do you believe other skills need to be 
taught to Foreign Service personnel? Is the Foreign Service Institute 
capable of doing the training in these areas today? Is the ``training 
float'' sufficient to allow other Foreign Service officers to take this 
training?

    Answer. Besides language instruction, which requires the most 
investment of training time, there are a variety of other skills--
tradecraft, technology, leadership/management--that Foreign Service 
personnel must possess to achieve the Department's mission. This 
includes entry orientation for Foreign Service generalists and 
specialists hired under the Diplomacy, Development and Defense 
(Diplomacy 3.0) initiative, as well as follow-on tradecraft and 
leadership training at mid- and senior levels as employees progress 
through their careers. This is training that the Foreign Service 
Institute (FSI) already provides and will continue to provide as the 
need increases.
    The issue in the past has not necessarily been the provision of 
training, but the Department's ability to carve out time to allow for 
the training when faced with detrimental staffing gaps. The 180 
positions in the FY09 budget request are premised on creating a 
language training complement specifically to facilitate the large 
investment of time called for by language training (24-88 weeks to 
attain general professional proficiency). One of Secretary Clinton's 
highest priorities is to increase our diplomatic staffing by 25 percent 
over the next 4 years. The overall Diplomacy 3.0 initiative hiring plan 
should provide the overall force levels necessary to create a 
``training float'' to provide for transfer time to systematically build 
in necessary training. We hope that you will support the President's 
2010 budget request which contains the first set of positions necessary 
to meet this ambitious goal.

    Question. The State Department's Directorate of Defense Trade 
Controls (DDTC) has had difficulty, especially in recent years, 
handling the workload of export license requests. At one point, the 
backlog was over 10,000 cases. While much progress has been made in 
addressing that backlog, the small amount of time per case that is 
allowed to licensing officers makes it difficult for those personnel to 
perform this task responsibly. Major increases in export license and 
registration fees have been promulgated in an effort to find funds to 
improve DDTC performance. How many cases per licensing officer per day 
does DDTC handle?

    Answer. While it is certainly true that the Department has had 
difficulty in dealing with the licensing workload in the past, I am 
glad to say that these problems are largely behind us. During calendar 
year 2006, the number of cases open did reach the point of 10,000 cases 
and the average processing time exceeded 40 calendar days. However, 
management, process, and procedural changes begun in 2007 and 
accelerated after the signing of NSPD-56 have produced major 
improvements. Currently, DDTC averages only 3,500 open cases at any one 
time (approximately the number of cases received over any 2-week 
period) and the average case processing time is just 15 calendar days. 
Licensing officer workload averaged 8 cases per day in 2008.

    Question. Since the administration does not intend to use 
supplemental appropriations to fund regular anticipated expenses, why 
is the FY 2010 request for Worldwide Security Funding about one-half 
that of the FY 2009 level?

    Answer. Approximately 95 percent ($893.2 million out of $940 
million) of the FY09 supplemental request is for immediate requirements 
in Afghanistan and Pakistan, in reaction to renewed violence and 
increased security threats. Accordingly, the supplemental does not 
include ``regular anticipated expenses.''
    In FY10, a total of $1.815 billion is requested for ESCM (Embassy 
Security, Construction, and Maintenance), an increase of $108.5 million 
over the FY09 regular appropriation. Regarding the Worldwide Security 
Upgrades program, the FY10 request of $938.2 million is an increase of 
$33 million over the FY09 regular appropriation.
    The FY10 request, combined with funding contributed by other 
agencies through the Capital Security Cost Sharing Program, will 
provide the Department with $1.4 billion to construct the next tranche 
of new facilities in high priority areas. Projects are planned for 
Afghanistan, Pakistan, Senegal, and Yemen, in accordance with the 
Department's threat-based priority list.

    Question. Some analysts suggest that a 100-foot blast-resistant 
structure can be designed and built without meeting the 100-foot 
setback requirement, and so greater flexibility should be allowed in 
embassy design. What are your views regarding providing greater 
flexibility to embassy design?

    Answer. It is possible to design a blast-resistant structure with a 
setback of less than 100 feet; however this requires in-depth 
engineering analysis on a case-by-case basis and involves significantly 
greater cost. For overseas buildings, the 100-foot setback requirement 
can be overridden only by the personal waiver of the Secretary of 
State. This has been done on rare occasion, such as in Berlin, Germany 
and Luanda, Angola. In those instances, the waivers were granted after 
it was determined that there were extraordinary circumstances, in 
particular site limitations, that warranted the reduced setback. The 
building structure was strengthened to protect against the equivalent 
bomb blast at the reduced distance.
    Due to the physics of blast pressures, a reduction in setback by 50 
percent would result in peak blast pressures seven times those at 100 
feet. The building and its component parts, including windows and 
doors, would then be required to be strengthened proportionately, and 
at significantly greater cost.
    Where feasible, the Department is committed to using smaller urban 
sites, such as in Dubai, without sacrificing the current setback 
requirement. This is achieved by constructing taller buildings. By 
locating new buildings within or closer to city centers, we can improve 
access to the host country government and the populace.
    In addition, the Department is working to introduce new 
technologies--for example window technology that is intended to 
increase the size of windows as well as introduce new options in window 
design--that improve the overall design of our buildings and their 
impact on the neighboring communities. These design improvements can be 
made without reducing setback.

    Question. As the embassy compounds were hardened against terrorist 
attacks, concerns grew that terrorists would go after ``soft targets,'' 
such as housing compounds, embassy recreational centers, places where 
embassy families went to shop, go to church and their schools. As in 
previous years, does the administration's request provide for 
continuing to develop protection of ``soft targets?'' If so, how much 
is requested?

    Answer. The FY10 budget request includes $4.5 million to continue 
the Department's efforts to provide security enhancements and upgrades 
to Department-assisted schools and other schools (attended by U.S. 
Government dependents) and Department of State recreation associations.

    Question. One of the issues discussed in the hearing is the design 
quality of U.S. embassies. It was emphasized that while we are all 
aware of the changed world we live in and the need to have security, we 
have gone too far in that direction and are building fortresses around 
the world. The result is that we have separated ourselves from people 
in these countries. You mentioned that you agree with the idea of 
attaining a better balance and will follow up.
    Please describe what steps you plan to recommend in order to better 
integrate design, sustainability, accessibility, security and cost 
effectiveness into newly constructed embassies.

    Answer. The Bureau of Overseas Buildings Operations (OBO) 
continually strives to identify and implement the best practices in 
U.S. building design and construction. This begins by hiring capable 
and creative architects, engineers, and builders who can produce 
facilities that are well designed, safe, secure, and functional.
    At a minimum, all of our new embassy and consulate compounds are 
designed to comply with U.S. model building codes and standards for 
resistance to natural hazards and security threats, fire and life 
safety, handicapped accessibility, energy efficiency, and 
sustainability.
    It is indeed a challenge for the Department to integrate security 
measures into the designs of our embassies such that the security 
aspects do not dominate the aesthetic or representational character of 
the facility. Using our designers and specialty consultants, we are 
exploring ways to improve the design of our embassies. For example, we 
have developed a new pedestrian screening facility that is an open and 
inviting glass pavilion to replace the older concrete booth design. We 
encourage our designers to use transparent materials and softer 
textures on our perimeter walls and fences. Our landscape architects 
are charged with developing attractive and protected open spaces which 
can accommodate large and small outdoor events. Interior designers 
ensure that office functions are adequately supported, and that 
artwork, furniture and furnishings are tastefully coordinated with the 
work environment. Finally, our Art in Embassies program ensures that 
world class artwork is provided to represent the quality, scope and 
diversity of American and local art and culture.
    The Department has a longstanding commitment to environmental 
sustainability through its design and construction of green embassies 
around the world. The new Embassy in Sofia, Bulgaria, completed in 
2004, was the first U.S. Embassy to receive Leadership in Energy and 
Environmental Design (LEED) certification. Embassy Panama City, 
completed in 2007, was the second U.S. diplomatic compound to be LEED 
certified. Going forward we intend to have our New Embassy Compounds 
(NEC) designed to the equivalent of LEED Silver. For existing 
facilities, we are looking at ways to add energy saving technologies 
and systems, such as magnetic levitation chillers installed in Tokyo 
and photovoltaic roof and wall installations used in Geneva.
    Finally, to continuously improve our facilities, OBO manages a 
Lessons Learned program that collects input from industry, posts, 
occupants, and other stakeholders. Those lessons learned are integrated 
into an annual update of OBO's Building Code, Standards, and Criteria, 
which is incorporated in all new design contracts. As a special effort, 
OBO meets with Diplomatic Security (DS) on a regular basis to discuss 
security risk management. At these meetings, OBO and DS share 
information on new security technologies and design strategies that 
would soften the look of our hardened facilities.

    Question. Do you think reinstituting a design excellence panel to 
review potential embassy designs prior to approval would be helpful?

    Answer. The Department is committed to enhancing the design quality 
of our new embassy projects. While design panels are useful in certain 
instances, they are not in all. The Bureau of Overseas Buildings 
Operations (OBO) is currently studying improvement to design throughout 
the process using a range of methods. These include improvements such 
as expanded design services and insistence that design excellence is 
maintained throughout the process. We continue to contract with highly 
experienced and creative U.S. design firms. For our part, we must 
clearly inform our contractors that design excellence is a critical 
component of our buildings.
    OBO explored the issue of design excellence with its Industry 
Advisory Panel in October 2008. This resulted in a symposium hosted by 
the American Institute of Architects (AIA) on the topic: ``21st Century 
Embassies: Recommendations for Design Excellence.'' While still in 
draft, this report contains several useful recommendations to achieve 
better buildings.
    Design Excellence goes beyond the selection of talented architects 
and the review of their designs by a peer group. It also includes 
acquiring excellent sites, developing comprehensive and thoughtful 
master plans, obtaining host country zoning and building permits, and 
providing high-quality construction services. The Department is in the 
process of looking at how all of this can be accomplished without 
jeopardizing the expediency embodied in the Department's current 
Capital Security Construction Program.

    Question. Are there ways to modify the Standard Embassy Design 
model in order to bring greater design flexibility and performance 
standards?

    Answer. The Standard Embassy Design (SED) was initially developed 
as a building template or prototype. It is site adapted to meet the 
needs of the post and to respond to site constraints. However, over 
time, the implementation of the SED became less responsive to the 
environments in which it was being constructed.
    The SED is preengineered to meet all applicable building codes and 
standards, security protections, accessibility, sustainability, fire 
and life safety mandates--in the most economical manner feasible. In 
addition, it has been comprehensively evaluated to ensure that it 
achieves life-cycle cost efficiencies. Unfortunately, some applications 
of the SED have fallen short in terms of design and/or construction 
quality.
    OBO will continue to explore ways to ensure that the SED produces 
good buildings without sacrificing the benefits, in cost and schedule, 
of standardization. OBO will promote the development of site-specific 
variations to the SED that address local conditions, including the 
setting, climate, local materials and culture. In addition, OBO has 
developed several new versions of the SED for smaller embassy 
communities.
    During its evolution, the SED has been redesigned to increase 
flexibility in the development of interior components except core 
elements such as elevators, fire stairs, and rest rooms. The central 
atrium has been improved significantly in terms of flexible use, 
natural day-lighting, and acoustics. Today, it is typically as a two-
story gallery for cafeteria dining and where large post gatherings and 
special events are frequently held.
    Finally, the SED will not always provide the most appropriate 
design solution. The recently completed Embassies in Berlin and Beijing 
are examples of embassies where the SED was not used.

    Question. We are seeing major displacement in South Asia, namely in 
Pakistan and Sri Lanka, yet your FY10 budget cut MRA funds down from 
FY09 levels, allocating only $106 million for MRA funds for South Asia. 
Please explain how you will deal with the real refugee and IDP crisis 
unfolding.

    Answer. The administration strongly supports the provision of 
humanitarian assistance to refugees and internally displaced persons, 
and appreciates the strong support Congress has historically provided 
for such assistance. We are extremely concerned about the large number 
of recent displacements in Pakistan and Sri Lanka and are currently 
providing humanitarian assistance to areas of need. The 
administration's FY 2010 MRA request represents a decrease from funds 
currently available and requested in FY 2009 for this region, when 
supplemental funding is included. The latest Pakistan and Sri Lanka 
crises were not anticipated when the Department's FY 2010 request was 
finalized. However, the President has included a robust Emergency 
Refugee and Migration Assistance Fund (ERMA) request in FY 2010 ($75 
million) to help address unexpected needs and to avoid dependence on 
supplemental funds in FY 2010. Should additional resources be required 
for Pakistan, Sri Lanka or elsewhere due to an unforeseen crisis, the 
administration would consider drawdowns of the ERMA Fund to augment 
resources included in the FY 2010 MRA base request, once overall 
resource requirements are known.

    ADDENDUM to above question: On June 2, 2009, the President 
submitted an amendment to the FY 2009 supplemental request to address, 
in part, the additional humanitarian requirements for Pakistan. The 
President's amended supplemental request includes $40 million in MRA 
for Pakistan.

    Question. Earlier this month, the State Department delivered their 
submission to the UNFCCC on the structure of the Copenhagen agreement. 
As Congress develops a comprehensive climate change and energy package, 
what do you consider to be the most critical elements of the 
legislation to support an agreement this December?

    Answer. In terms of timing, it would be very helpful to have 
legislation done before December to have the most positive impact on 
the climate negotiations in Copenhagen.
    In terms of substance, it will be important to reflect ambitious 
U.S. action to reduce emissions, particularly in the near and mid-term, 
to allow for offsets from the international market, to include a set-
aside for action to reduce deforestation in developing countries, and 
to enable linking with the emissions trading programs of other 
countries.

    Question. As we engage in international climate discussions, 
coordination and collaboration between the United States and China is 
central to addressing the global climate crisis. Will climate change be 
on the agenda of the Strategic and Economic Dialogue? Can you describe 
how the State Department and the Treasury Department will coordinate 
efforts to address climate change through the SAED? What other 
mechanisms are available to engage the Chinese on climate change and 
clean energy?

    Answer. As demonstrated by the Ten Year Framework for Energy and 
Environment Cooperation, we believe the Strategic and Economic Dialogue 
(S&ED) provides an important opportunity to promote and facilitate 
cooperation between China and the United States on clean energy and 
climate change, and we plan to increase cooperation in this area. 
Treasury and State are coordinating closely to work out the details of 
the clean energy and climate change portion of the agenda with the 
Chinese.
    There are many other valuable mechanisms and forums for working 
with China on clean energy and climate change issues, including the 
Joint Commission Meeting on S&T Cooperation and the Major Economies 
Forum on Energy and Climate.

    Question. On Tuesday, Lord Nicholas Stern testified before this 
committee on the important role for financial support in reaching a 
global climate agreement in Copenhagen. Given that the Bali Action Plan 
calls for parties to address finance as a pillar of the global 
agreement, what levels of financing will the United States propose as 
part of a global climate agreement?

    Answer. Finance-related provisions of a Copenhagen outcome are 
under negotiation, and will continue to be considered in conjunction 
with the commitments and actions to reduce greenhouse gas emissions 
that they would support.
    Studies commissioned by the U.N. Framework Convention on Climate 
Change indicate that additional financing on the order of $100 billion 
per year by 2020 will be needed for developing countries to mitigate 
emissions of greenhouse gases in contribution to global efforts to 
address climate change, and approximately the same for adaptation to 
the impacts of climate change.
    While the private sector is expected to be the source of the great 
majority of these potential investments, public policies and public 
investments are expected to play a critical role in catalyzing the flow 
of private capital to clean and efficient technologies.
    The administration has requested from Congress $1.2 billion in FY10 
Foreign Assistance Act funding for international activities to address 
climate change, including $600 million for the World Bank Climate 
Investment Funds to reduce carbon pollution from developing countries 
and boost resiliency to climate change.

    Question. On April 30, Senator Boxer and I sent a letter to the 
President urging the United States to take a leadership role in 
amending the Montreal Protocol to include hydrofluorocarbons (HFCs), an 
extremely powerful class of greenhouse gases. Please provide an update 
on the administration's approach to international regulation of HFCs.

    Answer. We received your letter of April 30 to the President 
regarding amending the Montreal Protocol to include HFCs and thereby 
achieve climate system protection.
    We continue to believe there are a number of potential advantages 
to using the Montreal Protocol for this purpose, some of which are 
noted in your letter, and are considering this as an option for 
addressing this important issue.
    As you are aware, the Governments of Micronesia and Mauritius 
submitted a proposed amendment to the Montreal Protocol that would 
include HFCs under its scope and initiate action toward a phasedown in 
consumption and production.
    The administration is working to gather further information and 
better understand the implications of this proposal as we move closer 
to meetings that will take place the week of July 13 at the Protocol's 
Open-Ended Working Group and at a workshop convened on this topic.
    We look forward to further discussions on this issue as our 
thinking evolves, and would welcome the opportunity for a dialogue on 
this issue. We would be happy to come brief you to update you on our 
approach to the July meeting if that would be useful.

    Question. The administration's justification for the request for 
the Contributions to International Organizations (CIO) account includes 
a brief description of the ways in which the administration will insure 
full and timely payment of assessed contributions. You refer to adding 
``$175 million for synchronizations to be applied to begin reversing 
the practice of deferring payments of assessed contributions.'' The 
Congressional Budget Justification does not indicate, however, how much 
of this funding would go to each affected organization. Please provide 
to this committee a breakdown of the intended use of these funds.

  <bullet> Will particular attention be given to organizations like the 
        Organization for the Prohibition of Chemical Weapons that 
        maintain a zero-real-growth budget and that are forced to 
        return funds to States Party when the deferral of contributions 
        prevents them from spending all their budgeted funds in a given 
        year?
  <bullet> Similarly, will particular attention be given to 
        organizations like the Comprehensive Test-Ban Treaty 
        Organization Preparatory Commission when U.S. arrears might 
        otherwise give other countries an excuse for cutting back a 
        major project that the United States supports?

    Answer. The FY 2010 President's request includes $175 million to 
begin eliminating the practice of deferring payments of our assessed 
contributions. This funding would represent the first step in a 
multiyear plan, as the estimated cost for eliminating the practice for 
all affected organizations is close to $1.3 billion. The Department is 
evaluating several factors in prioritizing the initial use of funds. We 
would reach out for congressional views to be factored into the 
prioritization.
    Although the timing of payments can cause some challenges to 
organizations, it is our understanding that the Organization for the 
Prohibition of Chemical Weapons' (OPCW) practice of under spending 
their budget is due to a number of factors. We appreciate OPCW's 
efforts to maintain a zero growth budget, and this will be one of 
several factors to consider when making the decision to prioritize any 
synchronization funding that is appropriated.
    Payments to the Comprehensive Test Ban Treaty Organization (CTBTO) 
Preparatory Commission are made from voluntary contributions from the 
Non-Proliferation, Antiterrorism, Demining, and Related Programs (NADR) 
account. Many priority programs supporting our nonproliferation goals 
are funded from the NADR account, such as the IAEA voluntary 
contribution and export control cooperation. We have not had sufficient 
funding available in recent years to make full, timely payments to the 
CTBTO Preparatory Commission. The FY 2010 President's request includes 
$26 million for this program, which will not enable us to end the 
practice of paying late. With the administration's emphasis on pursuing 
Senate advice and consent for ratification of the CTBT, we are 
committed to becoming current in our payments as soon as possible.

    Question. The administration's justification for the request for 
the CIO account includes ``new statutory authority to address future 
exchange rate losses in the CIO account by enabling the recovery of 
funds for reimbursing U.S. citizens who have paid income taxes while 
working at international organizations.'' Please explain what this 
means. What happens now? U.S. employees at the United Nations pay U.S. 
taxes. Do other nationals employed at the United Nations pay taxes? 
What will happen under this new plan? How does it relate to ``future 
exchange rate losses?''

    Answer. The United States is one of very few nations that taxes 
income earned by its nationals who work at international organizations. 
To create parity with other nationals who do not pay income taxes on 
their earnings, most organizations funded through the CIO account 
reimburse U.S. employees for the income taxes they pay. Otherwise, U.S. 
citizens would likely not find employment at these organizations 
attractive, because the organizations set salary levels as if they will 
not be taxed.
    There are memoranda of agreement known as Tax Reimbursement 
Agreements, through which the organizations submit requests to the 
Department of State for reimbursement for the funds that each 
organization provides to its U.S. employees for income taxes they paid 
on income earned from the organization. These reimbursements are funded 
from the CIO account.
    Estimating the amount of funds needed for this purpose is complex, 
as it depends on the number of U.S. employees working at an 
organization and the amount of U.S. income taxes that they pay. 
Furthermore, the entire reimbursement process can take several years to 
complete, because of the time involved in organizations receiving and 
submitting claims from U.S. employees, as well as the time necessary 
for the Department to process the claims.
    To address the issues associated with the prolonged reimbursement 
process, the administration's FY 2010 budget request for the CIO 
account included $20,453,000 in funding for tax reimbursement 
agreements--to remain available through FY 2014. The additional 
availability is intended to accommodate the delayed billing for 
expenses pursuant to the tax reimbursement agreements and to allow the 
Department to reallocate these resources more effectively once the 
bills attributable to a particular fiscal year are received and paid.
    The FY 2010 budget request also included a separate general 
provision that would establish a new ``Buying Power Maintenance, 
International Organizations'' account and related authorities to help 
the Department offset the impact of adverse exchange rate fluctuations 
on the CIO account. This proposed provision includes authority that 
would enable the Department to transfer expired, unobligated balances 
(including funds for tax reimbursements) into the Buying Power 
Maintenance account, subject to congressional notification.

    Question. How would you change U.S. assistance for democracy 
promotion? How would you recommend coordination and oversight of all 
the various democracy promotion programs?

    Answer. The promotion of democracy, human rights, and the rule of 
law is a key foreign policy pillar of this administration. It reflects 
the core values of the American people and advances our national 
security because democratic states are our most effective allies and 
partners, particularly as we face complex and significant global 
challenges. Our democracy assistance programs build and strengthen 
states that govern through rule of law and with respect for human 
rights; that are transparent and accountable; where government powers 
are limited and checked; where the transfer of power occurs through a 
regular, peaceful and fully participatory process; and where citizens 
are able to participate in an informed and meaningful way in the 
political life of their country. Strengthening governments to be 
responsive and accountable to their citizens in these ways establishes 
the foundation necessary for the success of all of our other 
development efforts.
    We will develop bilateral policies and programs on a case-by-case 
basis, evaluating what type of approach will be most effective in 
achieving our democracy goals in a given situation. To achieve these 
goals we will work with the full range of actors who play a role in 
democratic development. We will work in partnership with governments 
and nongovernmental organizations as well as with multilateral and 
regional organizations that are seeking to advance democratic values 
and institutions.
    Our FY 2010 budget request includes $2.8 billion in Foreign 
Assistance resources for Governing Justly and Democratically activities 
to be administered by the U.S. Agency for International Development and 
the Department of State. This request for funding is the highest level 
to be requested by any administration for activities supporting this 
foreign assistance objective. In addition to funding foreign assistance 
activities that support democratic institutions and practices, we will 
continue to advance these concepts through diplomatic efforts that 
engage foreign governments and publics as well as through key 
multilateral institutions.
    As we ask Congress for unprecedented levels of assistance funding 
for these and other programs, I am asking staff in the Department and 
at USAID to take a fresh look at the programs we are supporting and to 
redouble our efforts to ensure coordination, coherence, and efficiency. 
I am asking our regional and functional bureaus to approach our 
assistance efforts in a more integrated fashion and to ensure that all 
stakeholders are brought into the discussion.
    Coordination and oversight of all assistance programs happens at a 
number of levels, starting with the formulation of the budget where we 
analyze needs and opportunities from a country, regional and global 
perspective, based on input from stakeholders across the Department and 
USAID. Once funds are available, a great deal of coordination happens 
in the field, where most of the programs are developed and implemented 
as part of an integrated country assistance program targeted at 
country-specific needs and opportunities. In addition, Washington-
managed programs are coordinated with relevant embassies and USAID 
missions.
    Achieving unity of effort among all entities and agencies managing 
U.S. foreign assistance is challenging but necessary. As Congress and 
this administration consider ways to improve the implementation of U.S. 
foreign assistance, we will consider ways to strengthen our democracy 
assistance efforts as an integral part of the whole.

    Question. President Obama is giving his big Middle East speech from 
Cairo, a country which symbolizes failed democracy promotion from the 
last administration. What will be the hallmark of this administration's 
democracy agenda?

    Answer. The promotion of democracy is a key foreign policy pillar 
of the Obama administration, reflecting the core values of the American 
people as well as our closest allies and partners.
    The hallmark of the Obama administration's democracy agenda, as the 
President set forth in his Cairo speech, will be to support and 
encourage governments that reflect the will of the people--that allow 
people to express their opinions, to determine who will lead them, to 
have confidence in the rule of law and equal administration of justice, 
to live under a government that is transparent and does not steal from 
the people, and that allows people to live as they choose. As the 
President said, ``these are not just American ideas; they are human 
rights.'' The President believes that engagement and dialogue are often 
the most effective ways of promoting these values. He is also mindful 
that with rights come responsibilities, for governments and individuals 
alike.
    To this end, we will seek enhanced partnership with governments and 
civil society members, including nongovernmental organizations, that 
seek to strengthen democratic institutions and values. We will look for 
and applaud instances of positive democratic development, and encourage 
it where it does not exist. We will support people in their countries 
who seek democracy and respect for human rights and will speak out when 
their aspirations are denied.
    The Obama administration will look at countries and develop 
bilateral policies on a case-by-case basis, based on evaluation of what 
type of approach in a given situation is most likely to effectively 
promote our democracy and human rights goals. We will engage in 
relevant multilateral fora where we believe we can advance these 
objectives. For instance, the Obama administration has joined the Human 
Rights Council (HRC)--even though the HRC has not lived up to its 
promise--because we believe the U.N. must be an effective, balanced and 
credible venue for addressing human rights, and the United States can 
do a better job of protecting and defending that mission if we're 
inside the HRC, where our voice as a member will be stronger than that 
of an observer or nonparticipant. We continue to support the U.N. 
Democracy Fund, and the various other multilateral and regional 
organizations that work to advance democratic values.
    In sum, we are firmly committed to the promotion of democracy and 
human rights around the world and believe that engagement with the full 
range of actors who play a role in democratic development is often the 
most effective approach.

    Question. Middle East Partnership Initiative (MEPI)--the FY10 
request for this account is $86 million, which is $36 million higher 
than the FY09 level. Many have questioned the goals of MEPI and whether 
it is duplicative or redundant to other U.S. democracy programs. Please 
explain why this program is being increased and why it should be funded 
in a separate line item from other democracy assistance efforts?

    Answer. The administration's FY10 request for the Middle East 
Partnership Initiative (MEPI) is $86 million, $1 million less than the 
previous year's request of $87 million. MEPI will use the FY10 funding 
requested to respond to the President's call for increased partnerships 
with the people of the Middle East and North Africa. These partnerships 
will focus on a number of separate but related initiatives, among them: 
helping citizens to develop new tools to participate more fully in 
society, including through capacity-building for, and support to, 
community-based organizations; empowering women and youth to take 
positions of increasing responsibility in society and the economy, 
including through academic, vocational, entrepreneurship, and 
leadership training; and supporting efforts to make legal systems more 
responsive to the traditionally less privileged and, more broadly, 
helping citizens to realize the dream of government by rule of law, 
with equal and impartial administration of justice.
    While other donors may work in some of the same areas in specific 
countries, MEPI's is a regional focus that goes beyond simple democracy 
promotion to include other innovative aspects of advocacy for positive 
change and is integrated into the policymaking and policy 
implementation of the Bureau of Near Eastern Affairs (NEA). MEPI has 
increased efforts to ensure effective coordination with U.S. Embassies 
in the NEA region and with other donors. MEPI participates in the 
development of Mission Strategic Plans, and each NEA Embassy has a 
committee dedicated to ensuring that MEPI activities support Mission 
goals and strategies to achieve them. MEPI's unique ability to respond 
rapidly and flexibly to emerging foreign policy requirements is made 
possible by full integration in the country team. The day-to-day 
interaction among MEPI program officers, Embassy officials with acute 
and nuanced awareness of their host countries, and Washington policy 
formulators generates a mutual awareness of policy support needs and 
program capabilities, allowing MEPI to tailor its programming to each 
host country's unique situation without a requirement for large in-
country program implementation capabilities. As needs shift, resources 
can be reallocated swiftly and fluidly.
    MEPI also has a regional perspective driven by the Secretary's 
overarching strategic objectives for the Middle East and North Africa, 
with active regional projects affecting every country in the region 
except Iran. Such projects permit the creation, over time, of 
partnerships and broad networks among implementers and participants 
that extend beyond national boundaries. Also integrated into MEPI is a 
robust local grants program that builds the capacity of indigenous NGOs 
and provides them funding for executing, within the broad lines of NEA 
objectives, their own project ideas.
    Having an entity that can execute programming on a regional scale 
provides the Department with added flexibility, as well. Since regional 
funding is not part of each country's bilateral line item, these funds 
are not included in programming negotiations with the host government. 
If circumstances on the ground change and funding initially intended 
for one country is no longer needed, MEPI can reallocate resources to 
priorities in other countries or to broader regional objectives. This 
shift is much harder to accomplish with bilateral programs.

    Question. Why is the OSCE budget line zeroed out for FY10 under 
International Organizations and Programs?

    Answer. We did not request funds from the International 
Organizations and Programs (IO&P) account for the OSCE in FY 2010. No 
IO&P funding was requested in FY 2009 for the OSCE, and the OSCE only 
received IO&P funding in FY 2008 on a one-time basis. The President's 
FY 2010 request for Assistance to Europe, Eurasia, and Central Asia 
(AEECA) and the Diplomatic and Consular Programs accounts would allow 
us to meet our financial obligations to the OSCE in 2010.

    Question. Please explain the FY 2010 request of $40 million for the 
stabilization bridge fund. Is this coming out of ESF funds? Which 
Bureau will control this fund? What criteria will be employed to 
determine usage?

    Answer. The Stabilization Bridge Fund (SBF) is requested under the 
Economic Support Fund (ESF) account and will allow the U.S. Government 
to respond to urgent critical needs of stabilization crises. When used 
in coordination with a whole-of-government civilian response 
engagement, this fund would speed up stabilization and reconstruction 
work in areas such as security and rule of law, economic recovery, and 
rebuilding of infrastructure, bridging the short-term gap until other 
funds can be identified, reprogrammed and/or appropriated. The SBF will 
allow us to respond to emergent opportunities to build lasting 
stability and peace and potentially shorten or eliminate the need for 
military forces, international peacekeepers or police engagement.
    As the lead on behalf of the Secretary of State for development and 
implementation of the Civilian Response Corps, the Office of the 
Coordinator for Reconstruction and Stabilization will manage and 
coordinate with the CRC participating agencies to develop a 
decisionmaking process for how to best utilize and program the funds 
during a crisis.

    Question. Shared Security Partnership--please explain the FY 2010 
$90 million request for the shared security partnership. What are the 
goals of the program? Which entity will administer? What account are 
the funds coming from? Which countries will be targeted?

    Answer. The $90 million foreign assistance initiative is part of a 
broader $5 billion multiyear, multifaceted, multiagency Shared Security 
Partnership (SSP) Initiative to provide a comprehensive approach to our 
national security and international security in the 21st century by 
addressing the wide array of existing threats posed by terrorist 
organizations. Our goal is to create more effective partners by 
enhancing capabilities, providing technical assistance, equipment, 
building political will, and developing information sharing 
relationships and platforms that will be mutually beneficial for 
confronting common global extremist threats.
    The partnership builds upon and strengthens previous law 
enforcement and counterterrorism efforts by creating an infrastructure 
of information-sharing and coordination globally and regionally. SSP 
funding includes support to new cooperative relationships as part of 
the President's initiatives, such as the Caribbean Basin Security 
Initiative. Additionally, SSP funding will support existing programs 
that share the SSP goals with additional funds, such as the Trans-
Sahara Counter Terrorism Partnership.
    The USG will build up our partners' capacities to address global 
challenges in the areas of counterterrorism, border security, maritime 
security, nonproliferation of Weapons of Mass Destruction, and 
anticorruption, through the provision of additional technical 
assistance, training and equipment. We will also work with partners to 
establish common views on threats that need to be addressed; with these 
funds. The emphasis will be on creating, supporting and utilizing 
regional approaches to create active networks as a way to increase 
capacity for coordination between and among countries and facilitate 
information-sharing with the United States. These programs are 
currently funded through the following accounts: International 
Narcotics Control and Law Enforcement (INCLE), Nonproliferation, 
Antiterrorism, Demining and Related Programs (NADR), Peacekeeping 
Operations (PKO), and Foreign Military Financing (FMF).
    We are deliberating on the optimal means of coordinating at the 
departmental and interagency level to identify priorities, assign areas 
of responsibility, set timetables and action plans that are tied to 
results, and ensure management and oversight for FY 2010 and beyond. 
Initial focus should be on: (a) Countries where needs are significant 
and growing; (b) regions where we can magnify the impact regionally by 
focusing on key common issues and problems (such as in West Africa and 
Latin America); and (c) countries willing to enter into a long-term 
cooperative relationship.
                                 ______
                                 

Responses of Secretary of State Hillary Clinton to Questions Submitted 
                        by Senator Richard Lugar

    Question. The Congress has authorized and appropriated $3 million 
for U.S. contributions to the Extractive Industries Transparency 
Initiative Trust Fund, which is housed at the World Bank. Moneys in the 
Trust Fund support the voluntary Extractive Industries Transparency 
Initiative, a promising program to improve governance in many nations. 
Despite clear congressional mandate, officials at USAID have not yet 
reached a final agreement to transfer funds. Please provide a status 
update of U.S. contributions to the EITI Trust Fund. Will the U.S. 
contribution finally be made by the end of May 2009?

    Answer. The USG is poised to contribute $6 million ($3 million 
directive in FY 2008 and $3 million directive in FY 2009) to the 
Extractive Industries Transparency Initiative (EITI) Trust Fund. A 
draft Single-Donor Administrative Agreement consistent with U.S. legal 
requirements was prepared by the USAID Office of General Counsel and 
provided to the World Bank Legal Office on March 3, 2009, following 
lengthy negotiations. By the time of the mid-May Trust Fund meetings, 
the World Bank legal team had made considerable progress in its 
internal deliberations, and the United States was invited to 
participate in the meetings of the Trust Fund Management Committee and 
associated events.
    World Bank officials have indicated that their deliberations are in 
the final stage. A Trust Fund Proposal (TFP), which is a Bank 
requirement for all new trust funds, is currently in World Bank 
internal circulation. When the TFP is approved and the World Bank 
internal clearances of the draft Single-Donor Administrative Agreement 
are obtained, the World Bank Legal Office will send the Single-Donor 
Administrative Agreement to the USAID Office of General Counsel for 
final approval. Once the Single-Donor Administrative Agreement is 
cleared by all parties, USAID will transfer the full $6 million USG 
contribution to the World Bank for the EITI Trust Fund.

    Question. Many recent reports have documented the fragmentation of 
our foreign aid programs and the need to renew and revitalize capacity 
at our civilian agencies. You have made clear your support for the use 
of smart power and your instructions for a top to bottom review of 
assistance programs before taking further steps on aid reform.

  <bullet> What is the status of this review? How will this review be 
        used to guide your recommendations for strengthening U.S. aid 
        programs and revitalizing civilian capacity?
  <bullet> The lack of a USAID Administrator is troubling at a time 
        when this review is proceeding. When do you anticipate an 
        administrator being named? What role will a new administrator 
        play with regard to Deputy Secretary Jack Lew or the F Bureau?

    Answer. I am committed to making sure that Foreign Assistance is 
properly managed and implemented. I take seriously the need to 
modernize how we deliver foreign assistance so it is as strategic, 
effective, and coordinated, as possible. We have not yet completed our 
review of Foreign Assistance reform. We are thinking through these 
issues in a thoughtful and deliberative manner and will coordinate with 
a broad range of stakeholders.
    The focus in these first few weeks has been on securing the 
necessary resources to implement a ``smart power'' agenda. I remain 
committed to improving and streamlining our delivery of foreign 
assistance and look forward to consulting closely with the Congress in 
the weeks ahead.
    The process of selecting Cabinet and sub-Cabinet level officials in 
the government is, as you know, difficult and time-consuming.
    We are currently in the process of reviewing names for the USAID 
Administrator and agree that filling this key position is critically 
important.
    I do not want to leave the impression, however, that, in the 
absence of a Senate-confirmed USAID Administrator, we are not paying a 
great deal of attention to the Agency. The Acting Administrator, Acting 
Director of U.S. Foreign Assistance, Deputy Secretary, and I have all 
been very involved in foreign assistance budgeting and in operational 
planning and management issues.

    Question. I am encouraged by the request for resources allocated 
for global food security in the FY2010 budget. I commend your making it 
a priority to position the United States as a leader in alleviating 
hunger and poverty. The request and statements from the administration 
support the basic tenets advocated in the Global Food Security Act that 
I introduced earlier this year with Senator Casey.

  <bullet> I understand the Department is in the process of developing 
        a global food security strategy. What is the status of that 
        strategy, and to what extent does it adopt a whole of 
        government approach?
  <bullet> To what extent have you assessed the Lugar-Casey bill? Do 
        you believe passage of this legislation would be helpful to the 
        State Department and USAID?

    Answer. The President announced at the G20 summit on April 2 that 
he will work with Congress to increase U.S. financial support for food 
security in poor countries, to more than $1 billion in FY 2010. The FY 
2010 President's budget request provides approximately $1.36 billion in 
agricultural development assistance. The President has also asked that 
Secretary Clinton develop a comprehensive food security initiative to 
be launched later this year. This initiative will build on the FY2010 
budget request and include a whole-of-government approach that fully 
utilizes the strengths of U.S. agencies engaged in food security 
activities.
    The administration has assessed the Lugar-Casey bill and believes 
generally that passage of this legislation as introduced would be 
helpful to the State Department, USAID and other U.S. agencies. In line 
with the bill's approach, the Secretary is leading the development of a 
comprehensive strategy to address global hunger that includes 
maintaining robust support for humanitarian emergencies as well as 
increasing agricultural development assistance as a key driver of 
poverty and hunger relief. With respect to the creation of an overall 
coordinator for food security, permissive authorities for the 
administration concerning the selection and responsibilities of senior 
officials to carry out the necessary functions would be most welcome.
    We look forward to working with Congress as we further develop our 
policies and plans to tackle this important moral and strategic 
challenge.
                            energy security
    Question. Western Hemisphere Renewable Energy: The United States 
signed with the Government of Brazil a Memorandum of Understanding to 
collaborate on research in biofuels, standards and codes harmonization, 
and deployment of biofuels technologies in third countries. Several 
other countries in the Western Hemisphere have indicated a desire to 
participate in such cooperation, including in technologies beyond 
biofuels.

  <bullet> What funds are being requested in support of cooperation 
        with nations of the Western Hemisphere on biofuels and other 
        energy measures? What are the priorities for use of these 
        funds?

    Answer. The United States is cooperating with the Western 
Hemisphere on biofuels primarlily through the Memorandum of 
Understanding on biofuels cooperation with Brazil, which includes 
hemispheric partners the Inter-American Development Bank, the 
Organization of American States, and the U.N. Foundation. Each partner 
is making substantive contributions to support the development of local 
biofuels industries and government policies. Our priority is to further 
our efforts in El Salvador, the Dominican Republic, Guatemala, 
Honduras, and Jamaica.
    The United States has also invited countries in the hemisphere to 
participate in an Energy and Climate Partnership of the Americas 
(ECPA). In FY 2009 and 2010, we have requested funds to implement 
summit initiatives, including the ECPA. ECPA priorities are to promote 
cooperation on energy efficiency, renewable energy, cleaner fossil 
fuels, energy poverty, and infrastructure.

    Question. What is the administration's position on reduction or 
elimination of the existing tariffs on biofuels imported to the United 
States?

    Answer. This is a question most appropriately answered by the 
United States Trade Representative.

    Question. The Office of the Under Secretary for Economic, Energy 
and Business Affairs (E) includes funding for a Special Advisor to the 
Secretary on Biofuels. The Special Advisor under Secretary Rice made 
progress on a number of new initiatives, particularly in Brazil and the 
European Union. However, the Special Advisor did not have direct 
authority over a programmatic budget, thus creating the potential for 
misalignment of political agreements and funding resources.

  <bullet> Does the Secretary intend to appoint a new Special Advisor 
        on biofuels? What will be the major goals of this position? How 
        will the Special Advisor coordinate with relevant bureaus for 
        programmatic funding?

    Answer. The Secretary will be making an announcement soon on how 
energy issues will be handled at the Department.

    Question. Niger Delta Assistance: In the Niger Delta, criminal 
activity, corruption, lack of political will, and stunted local 
development fuel violence leading to theft and lost production of up to 
a million barrels of oil per day. That is a significant loss to 
Nigeria's economy, and it will likely severely impact global oil prices 
when global oil demand picks up with economic growth. European Command, 
and now Africa Command have sought to work with West African 
governments to build off-shore security in the Gulf of Guinea. 
Meanwhile our civilian agencies have virtually no presence in the oil-
rich Niger Delta.

  <bullet> What changes in strategy and levels of assistance are 
        planned for U.S. civilian engagement in the Niger Delta?
  <bullet> What is the planning and implementation strategy to 
        integrate State Department, USAID, and Department of Defense 
        activities related to the Niger Delta and Gulf of Guinea?

    Answer. The State Department remains concerned about the situation 
in the Niger Delta and continues to call on all Nigerians to persevere 
in efforts to end the violence; establish conditions and mechanisms for 
profound, positive changes in governance; curb the activities of 
criminal elements operating with impunity in the Delta; and provide 
economic opportunity and needed services for residents of the Niger 
Delta.
    As often as security conditions permit, the U.S. Ambassador and 
Embassy staff visit the Niger Delta region, working with civil society, 
governors and legislatures of several states to improve coordination, 
accountability, and funding for development and poverty alleviation. In 
2009, the United States will provide assistance, consistent with 
interagency recommendations, to promote sustainable development, 
coastal security, combat crime and corruption, as well as provide good 
governance. Some examples of FY 2009 assistance to the Delta states 
include: U.S. military maritime-related training (e.g. international 
maritime officer training, search and rescue training, patrol craft 
maintenance training); USAID civil society capacity-building to enable 
extractive industries transparency advocacy; USAID partnership to 
improve returns on cassava cultivation; State Department assistance for 
high-tech counternarcotics scanning machine at Port Harcourt's 
International Airport; and Center for Disease Control (CDC) 
distribution of antimalarial treatment. USAID/Nigeria is currently 
revising its strategy to work with focus states, including some Niger 
Delta states, in particular sectors.
    U.S. agencies, together with Nigerian counterparts and 
international partners, meet quarterly as part of the Gulf of Guinea 
Energy Security Strategy Forum to identify strategies for overcoming 
obstacles to efficient and secure energy production in the Niger Delta. 
In March, Secretary Hillary Clinton and Nigerian Foreign Minister Ojo 
Maduekwe announced a United States-Nigeria Bilateral Working Group. The 
State Department plans to use these forums to enhance coordination of 
U.S. interagency activities, redouble our efforts to provide assistance 
to Nigeria, as well as press Nigeria's federal and state governments to 
follow through with implementation to solve the crisis in the Delta.

    Question. Equatorial Guinea: After years in which U.S. diplomatic 
activities for Equatorial Guinea were managed out of Cameroon, U.S. 
Embassy staffing in Malabo has been minimal. On the most recent SFRC 
staff visit, there were just three Foreign Service officers. Yet 
Equatorial Guinea is the third largest African supplier of oil to the 
United States, and there are many areas in governance, development, and 
rights protection in need of attention. Without sufficient staffing, 
our diplomats will find it difficult to restore relations after many 
years of neglect. Please elaborate staffing plans for U.S. Embassy 
Malabo.

    Answer. Our interests in Equatorial Guinea (EG) are to promote 
better human rights and governance, promote security in the Gulf of 
Guinea, help protect the over $13 billion in U.S. oil investment and 
500-700 American citizens in EG, and work with the EG Government (GREG) 
to improve social service delivery.
    The U.S. Embassy in Malabo reopened in 2004 and established a 
resident Ambassador position in 2006. Embassy Malabo has a core group 
of locally employed staff and qualified direct hires to support U.S. 
interests in EG. Embassy Malabo is approved for a maximum of eight 
American direct hire positions, which are planned to be staffed during 
or upon completion of the construction of the Standard Secure mini-
Compounds (SSMC), scheduled to start by 2010. The Embassy currently has 
six positions: Chief of Mission (COM), Chief of Mission Office 
Management Specialist (OMS), Deputy Chief of Mission, Consular/
Political/Economic Officer, Management Officer, and General Services 
Officer (GSO). Only three of these positions are staffed. Ambassador 
Don Johnson departed post in July 2008 and his successor has not yet 
been announced by the White House. We anticipate the new COM will 
choose his OMS once she/he comes on board. The GSO position was 
recently filled, and this new staff member will arrive in August. The 
Department plans to assign a facility manager to Malabo before or 
during construction of the SSMC. Management and other support is also 
provided from other embassies in the region and from Washington.

    Question. Global energy infrastructure is known to be a target for 
terrorist and other militant activity. The Office of the Coordinator 
for Counter Terrorism has been involved in working with foreign 
governments to improve security through the Global Critical Energy 
Infrastructure Protection program. Yet by some accounts, this program 
is small relative to the potential threat as well as to the economic 
consequences if major oil and natural gas supply points are 
compromised. If global oil markets again tighten in coming years, as 
would be expected with economic recovery, the spare capacity margin in 
global markets will once again erode.

  <bullet> (a) What budget and staffing for State Department activities 
        for critical energy infrastructure are being requested?
  <bullet> (b) How many countries, what number of facilities, and what 
        percentage of global oil and natural gas supply will be 
        supported with the budget request?

    Answer.
    (a) As of July 6, three individuals in S/CT will share 
responsibility for coordinating implementation of the GCEIP Strategy. 
In addition, other Bureaus within the State Department (Diplomatic 
Security, Energy and Economic Affairs, Near Eastern Affairs, and 
European and Eurasian Affairs) have been closely involved in specific 
aspects of the State effort. Consequently, no funds are requested 
specifically for the Global Critical Energy Infrastructure (GCEIP) 
program in the FY2010 budget. Should the global economic recovery cause 
the world energy market to tighten to the point where limited excess 
production capacity severely increases the potential impact of a 
successful terrorist attack, we will review our resources and determine 
an appropriate response.
    (b) We are currently working directly with one country (containing 
four critical energy facilities), and we are seeking to expand our 
engagement to include three additional countries (containing a total of 
four critical energy facilities). These countries account for 
approximately 20 percent of global oil production and 5 percent of 
global natural gas production. We will continue to identify critical 
energy facilities around the world that could benefit from the GCEIP 
program and seek to work with the countries in which those facilities 
are located.

    Question. In last year's reauthorization of the PEPFAR bill, 
Congress specifically recognized the importance of U.S. higher 
education's role and ability to help build health systems in developing 
countries necessary to combat HIV/AIDS, tuberculosis, and malaria. The 
bill mandates the training of 140,000 health care workers and building 
the capacity to do this training.

  <bullet> What is the plan to develop an effective and timely strategy 
        to build and implement these partnerships to increase the 
        effectiveness and provide sustained capacity of developing 
        countries to deal with these diseases?

    Answer. As you noted, in reauthorizing PEPFAR, Congress recognized 
that health systems strengthening (HSS) is critical to achieving both 
PEPFAR's goals and broader, long-term USG development goals. The 
legislation cites lack of health capacity as an important constraint on 
the transition toward greater sustainability of HIV/AIDS prevention, 
treatment, and care efforts and broader public health initiatives--a 
reality faced every day by those who implement programs in the field.
    There is widespread consensus that the USG has, through PEPFAR, 
strengthened and extended health systems in such areas as human 
resources for health (HRH), infrastructure, health information systems, 
and commodity procurement and logistics systems, among others. PEPFAR 
has also built a network system of care that has strengthened service 
delivery capacity at hospitals, and increasingly at the primary care 
level. PEPFAR is currently developing a framework to enable a more 
strategic approach to HSS.
    Consistent with the administration's approach to global health 
programming, I will direct Dr. Goosby, if confirmed, to fully 
coordinate the PEPFAR framework with overall USG global health HSS 
efforts.
    With regard to health care workers: training and retention of 
health care workers are major challenges in many of the countries in 
which PEPFAR works. Yet solving these challenges as part of PEPFAR's 
HSS efforts is essential to meeting all the PEPFAR goals, and to 
improving health generally. These are extraordinarily complex issues 
that will require a range of efforts to solve. Approaches need to be 
country-driven because the health workforce issues are country-
specific, but in a broad sense, we will need to take a short-term 
approach that targets mid-level providers such as nurses, and a long-
term approach that trains and provides retention incentives for 
physicians.
    I know PEPFAR has already begun working toward this ambitious goal, 
and if confirmed, I will direct Dr. Goosby to assess PEPFAR's current 
efforts as part of the overall program review for the Five-Year 
Strategy, as required by reauthorization, and determine whether any 
adjustments are needed.

    Question. The administration has expressed their desire to fund 
PEPFAR at $51 billion over 6 years--slightly below the $48 billion over 
5 years as authorized in the Tom Lantos and Henry J. Hyde United States 
Global Leadership Against HIV/AIDS, Tuberculosis, and Malaria 
Reauthorization Act of 2008. Do you believe that this funding is 
sufficient to cover the higher prevention, treatment, and care goals 
set forth in the legislation?

    Answer. As you know, authorization levels do not always match 
appropriations levels. As the first order of business, I will direct 
Dr. Goosby, if confirmed, to undertake a comprehensive strategic review 
of PEPFAR funding and programs. This effort will inform development of 
the congressionally mandated strategy for the next phase of PEPFAR, 
help shape program priorities, and contribute to an update of PEPFAR 
program costing models that help to project the resources necessary to 
sustain and build PEPFAR programming into the future.
    As always, PEPFAR will work with appropriators and administration 
officials to determine the necessary levels of spending for any given 
fiscal year, and we look forward to additional discussions about FY 
2010 and beyond.

    Question. This year's budget includes a substantial increase in 
malaria program funding. The British Government is emphasizing linking 
malaria programs and child and maternal health programs. Should the 
United States adopt a similar policy?

    Answer. The U.S. approach at country level--and in developing 
technical approaches and programs--does link malaria and child and 
maternal health programs. USAID's malaria program coordinates closely 
with, and is fully integrated into, maternal and child health programs 
at both the health clinic and community levels. For example, many of 
our malaria prevention and all of our malaria treatment activities are 
integrated at the service delivery level with maternal and child 
health, family planning and, where relevant, HIV/AIDS, targeting 
similar high-risk or vulnerable populations, including pregnant women 
and children under 5 years of age.

    Question. The supplemental bill under consideration in the Senate 
recommends $45 million funding for Zimbabwe. In light of some of the 
recent reports coming out of Zimbabwe regarding arrests, should the 
United States be actively involved in providing funding for technical 
assistance to the Government of Zimbabwe?

    Answer. The United States can most effectively support progress in 
Zimbabwe by publicly conditioning reengagement and new assistance on 
progress toward major political and economic reform as incorporated in 
the Zimbabwe Democracy and Economic Recovery Act (ZDERA), in 
internationally agreed principles for reengagement with Zimbabwe, and 
moreover, as agreed to by the parties of the transitional government in 
the September 2008 Global Political Agreement (GPA). While we have seen 
positive change on the economic policy front, the transitional 
government has moved much slower in addressing human rights and rule of 
law issues.
    The United States can also facilitate positive change in Zimbabwe 
by helping reform elements of the transitional government succeed in 
implementing the GPA. These programs include areas such as good 
governance, human rights, independent media, rule of law, and 
strengthening the capacity of democratic political parties.
    The Department's FY 2010 proposal for assistance to Zimbabwe 
includes programs to reestablish and strengthen democratic 
institutions, processes and systems; programs to support social 
assistance to protect vulnerable populations during the transition; and 
programs for economic revitalization, specifically for the agricultural 
sector. President Obama also announced additional assistance to 
Zimbabwe in his June 12 meeting with Prime Minister Tsvangirai. We 
continue to work through United Nations agencies, nongovernmental 
organizations, and other partners to assist reformers in the government 
and the people of Zimbabwe, while avoiding any direct assistance going 
through or to the Government of Zimbabwe.

    Question. You and Secretary Gates testified to the Appropriations 
Committee in April that the Pakistan Counter-Insurgency Capabilities 
Fund (PCCF) program, for which $400 million was requested in the 
supplemental, would initially be funded and run from the Department of 
Defense, but that it would shift authority for such train and equip 
funding to the State Department over the next two budgets.

  <bullet> What capabilities need strengthening at the State Department 
        in order to take over the Pakistan Counter-Insurgency 
        Capabilities Fund?
  <bullet> How will the State Department develop the structures and 
        capacity to manage this program?
  <bullet> How will the State Department participate in the 
        implementation of this program and in the administrative and 
        review process associated with it in order to build the 
        necessary capacity to administer such resources on a flexible 
        and responsive basis?

    Answer. The Pakistan Counterinsurgency Capabilities Fund (PCCF) was 
requested as a Department of Defense authority to address the 
exceptional situation in Pakistan where there is an urgent need to 
allow the Combatant Commander to provide Pakistan with accelerated and 
enhanced counterinsurgency operational capabilities. The new Fund 
provides for significant State Department input into implementation by 
requiring Secretary of State concurrence of DOD's provision of 
assistance, and of DOD's transfer of funds to other agencies to provide 
assistance. As the Chief of Mission, the U.S. Ambassador to Pakistan 
provides strategic direction to, and oversight of, the Office of the 
Defense Representative in Pakistan for all of its efforts, including 
the PCCF. Embassy Islamabad is also structured to manage both the PCCG 
and Foreign Military Financing (FMF)--which will continue to be 
administered by the Department of State--to maximize the impact of U.S. 
military assistance in support of our policy objective of stabilizing 
Pakistan.
    The State Department is currently undertaking a broad, strategic 
review of foreign assistance resources (including security assistance 
programs) in order to strengthen its ability to manage and coordinate 
programs, and improve the coherence and integration of our foreign aid 
programs to achieve unity of effort within the U.S. Government. Part of 
this review will include an examination of the appropriate balance of 
authorities vested between the Defense and State Departments, as well 
as the personnel and resources needed to execute these programs.

    Question. While I have called for reforming our policy toward Cuba, 
especially leading up to the Organization of American States General 
Assembly (OASGA) in San Pedro Sula, Honduras (June 2-3, 2009), it is 
important to note that U.S. policy should be made in Washington and not 
dictated by foreign actors. In this regard, what is the U.S. position 
on the resolutions presented by member countries seeking readmission of 
Cuba into the Inter-American system? What is the U.S. position on the 
outcome of the OASGA, especially regarding Cuba?

    Answer. A number of Member States have presented or have plans to 
present resolutions at the OASGA calling for the immediate lifting of 
the 1962 resolution that excluded Cuba from participation in the inter-
American system. While the state of play is fluid, some Member States 
that support these resolutions argue Cuba should be allowed to 
reintegrate immediately; others believe lifting the 1962 resolution 
would not allow Cuba to participate fully immediately but should begin 
some type of process that could eventually lead to Cuba's 
reintegration.
    The United States looks forward to the day when Cuba can 
participate again in the OAS and the inter-American system in a manner 
that is fully consistent with the principles and values of the Inter-
American Democratic Charter and other pertinent OAS instruments and 
resolutions. The OAS has made a strong commitment to democracy and 
human rights. The OAS has underscored its members' commitment to 
promote and defend democracy as an essential element of their 
participation in the organization through numerous instruments, 
including the Inter-American Democratic Charter.
    This was a hard-won accomplishment, and the United States is 
committed to upholding the region's core commitment to democracy and 
respect for human rights. Cuba's eventual reintegration into the OAS 
should not occur at the expense of this core commitment. In the United 
States view, how and when Cuba is reintegrated will depend on what Cuba 
is prepared to do to demonstrate its commitment to the Organization's 
core values and principles, including meeting the democracy and human 
rights commitments undertaken by all of the other countries of the 
region.
    We cannot therefore support a resolution that immediately lifts 
Cuba's exclusion from participation in the OAS, without clearly 
establishing that its return must be in accordance with these 
hemispheric standards. We have conveyed these views to our partners and 
to the OAS, and continue to consult with them. We believe a decision at 
the OASGA to lift Cuba's exclusion unconditionally would be 
tremendously detrimental to the OAS, the inter-American system and the 
people of Cuba.

    Question. Will the Obama administration continue current levels of 
aid to Colombia and move forward on the United States-Colombian Free 
Trade Agreement (FTA) if Colombia chooses to extend the term of 
President Alvaro Uribe? Please provide your views on extending 
Presidential terms and the implications for constitutions in the 
region.

    Answer. It is in our interest to see Colombia continue on a path 
toward greater stability, better governance, consistent promotion of 
human rights, and a stronger economy, regardless of who is President of 
Colombia. Colombia is an important ally in the region and a strong 
partner in the fight against illegal drugs and terrorism. Plan Colombia 
was launched by Presidents Clinton and Pastrana at a time when 
terrorist organizations and drug traffickers threatened Colombian 
democracy and security.
    After 10 years of partnership, we are pleased that improvements in 
the security situation allow Colombia's democratic institutions to 
function more effectively and across a much greater part of the 
national territory. To support this progress, President Obama expressed 
his intention to seek passage of the United States-Colombia Free Trade 
Agreement (FTA).
    The U.S. position has been that term limits is a matter for 
individual nations to decide through their own democratic processes. 
These efforts must be viewed in the context of the overall health and 
vitality of a country's democratic institutions. The OAS Inter-American 
Democratic Charter lists several essential elements of democracy, 
including the rule of law, respect for human rights and fundamental 
freedoms, the right to access and exercise power, freedom of 
expression, and the separation of powers.

    Question. I am aware that you recently met with OAS Secretary 
General Jose Miguel Insulza. Could you please share your view on the 
Secretary General's priorities for the Organization?

    Answer. In my brief meeting with the Secretary General, we 
discussed the question of Cuba's relationship with the inter-American 
system and did not have an opportunity to discuss the Secretary 
General's priorities for the OAS. However, it is my view that the OAS 
should focus on what it does best and avoid overextending itself. It 
should promote democratic governance and the strengthening of 
democratic institutions, as it does with its electoral observation 
missions and other programs. It should also promote respect for human 
rights and fundamental freedoms and support the work of the Inter-
American Human Rights Commission. It has a key role to play in regional 
efforts to combat terrorism and the illegal drug trade. It should also 
continue its important work in the areas of social and economic 
development, doing its part to ensure that the benefits of democracy 
and market economies reach all sectors of society.
                               venezuela
    Question. While I believe Hugo Chavez has sought and used the 
United States as an enemy of convenience for perceived regional and 
domestic political advantage, you stated at a hearing before the House 
Committee on Foreign Affairs on April 22 that the United States has 
isolated President Chavez over the last 8 years without positive 
results. Can you please elaborate on your plans to change our posture 
toward Venezuela?

    Answer. The administration is pursuing a policy of engagement with 
the Venezuelan Government, founded on our national interest. It is in 
our interest to cooperate with the Venezuelan Government on a variety 
of matters, including counternarcotics, counterterrorism, and commerce. 
That includes a principled concern about fundamental freedoms and 
democracy in the hemisphere, including Venezuela. Through direct 
communications with the Venezuelan Government, we seek to advance our 
interests and make clear our positions. Reestablishing relations at the 
ambassadorial level would be an important step to address challenging 
issues and moving forward in our relations with Venezuela. We believe 
that reestablishing ambassadors in both countries is the first step in 
developing an ongoing dialogue that advances our mutual interests.

    Question. What is the status of the United States Government's 
(USG) review of trade preference programs? Please provide your views on 
granting unilateral trade preferences for Uruguay?

    Answer. The administration has not initiated a formal, 
comprehensive review of the existing trade preference programs. We 
regularly monitor the implementation and impact of preference programs, 
domestically and for beneficiary countries; they are one aspect of our 
overall trade and development agenda. We are prepared to support 
congressional review of preference programs with information and 
analysis as required.
    Uruguay is a good friend and ally; we are deepening our trade 
relationship through the bilateral Trade and Investment Framework 
Agreement (TIFA) process led by USTR. More than 3,400 products are 
currently eligible for duty-free entry from Uruguay to the United 
States under the GSP program.

    Question. The State Department has made major investments in new 
and more secure embassies around the world. The fiscal year 2010 budget 
requests $930 million for construction and compound security--a 
reduction of $900 million from the previous year. To what is this 
decrease attributed?

    Answer. In FY10, a total of $1.815 billion is requested for ESCM 
(Embassy Security, Construction and Maintenance), an increase of $108.5 
million over the FY09 appropriation (excluding supplementals). However, 
when supplemental appropriations requested in FY09 are factored in, the 
FY10 request represents a decrease of $831 million from the total FY09 
estimated level.\1\ This decrease is partially offset by increases to 
fully fund the Department's share of the Capital Security Cost Sharing 
Program.
---------------------------------------------------------------------------
    \1\ The total estimate for FY 2009, including regular 
appropriations and supplemental requests, is $2.646 billion ($41.3 
million in FY09 bridge funding; $1.707 billion enacted in regular 
appropriations; and $898 million in the FY09 supplemental request). The 
difference between all FY09 funding sources ($2.646 billion) and the 
FY10 request ($1.815 billion) is $831 million.

    Question. Given the pending construction needs in Afghanistan and 
---------------------------------------------------------------------------
elsewhere, will this reduction affect the safety of our diplomats?

    Answer. As indicated in the previous answer, the difference between 
the FY10 budget request and the FY09 regular budget appropriation is 
not a reduction.
    Regarding facilities in Afghanistan, Congress has appropriated a 
total of $274.3 million to address various concerns (including safety 
and security) as follows: $76.7 million in the FY08 supplemental, $41.3 
million in FY09 bridge funding, and $156.3 million in the FY09 budget. 
In addition, the Department has requested $87 million for the FY09 
supplemental and $496.1 million for the FY10 budget, to address 
security concerns and other operational needs.
    Funding has also been requested in the FY09 supplemental and FY10 
regular appropriations to address priority facility needs in Lahore, 
Peshawar, and Islamabad, Pakistan; Sanaa, Yemen; and Dakar, Senegal.
    The Department is confident the FY10 request is appropriate to fund 
all FY10 construction projects.

    Question. How many embassies were constructed in 2009 and what is 
the projection for 2010?

    Answer. Seven projects have been completed in FY09 to date, with 
three more planned for completion during this fiscal year. Thirteen 
projects are planned for completion in FY10. The attached spreadsheet 
identifies these FY09-FY10 projects.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Question. The FY 2010 Budget Request includes $756,000 to establish 
American Presence Posts (APPs) in Xiamen and Nanjing, China, and 
states, ``Transformational Diplomacy is designed to put an American 
Foreign Service officer into a city of vital interest to the U.S.''

  <bullet> What is the basis or formula by which it is determined which 
        cities in China are ``of vital interest'' to the United States?
  <bullet> As these APPs are established, what will be China's 
        expectations for additional offices in the United States?

    Answer. United States-China bilateral relations are very important 
to both of our countries, and the United States intends to work 
together with China to build a positive, cooperative, and comprehensive 
relationship to address common challenges and seize common 
opportunities. We look to further deepen mutually beneficial 
cooperation in a wide range of areas, including economy and trade, 
counterterrorism, law enforcement, science and technology, education, 
culture and health. One way to broaden our relations is through an 
increase in our diplomatic presence in China.
    We are looking to actively increase our presence in China and 
believe that an expansion of U.S. diplomatic posts in large and 
important Chinese cities--those possessing regional, cultural, and 
commercial significance as well as those serving as major tourist 
destinations--are essential to better advocate for American interests 
and provide emergency American citizen services in these areas. Future 
post openings are subject to host government agreement, per the Vienna 
Convention on Consular Relations and our bilateral agreement with China 
on Consular Relations, and are subject to reciprocity. Because the 
Vienna Convention does not mention APPs as a type of diplomatic 
establishment, we categorize such posts as ``consulates'' in our 
discussions with the Chinese. They are meant to provide only emergency 
consular services. The Chinese may ask to open new consulates in the 
United States in reciprocity for APPs. We hope to be able to enter into 
discussions with Chinese authorities on future reciprocal post openings 
in the near future.

    Question. The FY 2010 budget request states that ``EAP will 
continue to manage relations with Beijing to pursue increased positive 
cooperation on major strategic and economic issues. The Bureau will 
encourage China to constructively address climate change and the global 
financial crisis, as well as humanitarian and nonproliferation issues, 
bilaterally and in multilateral fora.''

  <bullet> Please provide a detailed description of the manner with 
        which the Department of State will coordinate with the 
        Departments of Energy, Defense, and Treasury, and others on the 
        issues outlined above. By name, and by title (and under the 
        position of Secretary), please identify the four principal U.S. 
        officials who will oversee discussions on climate change, 
        energy, the global financial crisis and nonproliferation issues 
        with China.

    Answer. The President and I have said the United States is looking 
to build a positive, cooperative, and comprehensive relationship with 
China. The Department of State has the statutory lead on foreign policy 
but works closely with our interagency partners, including the 
Departments of Energy, Defense, and Treasury, to fulfill the 
President's vision on advancing our bilateral relations with China. We 
have announced plans to launch a comprehensive Strategic and Economic 
Dialogue with China this July in Washington. The Dialogue will be 
cochaired by Secretary Geithner and myself on the U.S. side and will 
include officials from a wide range of Cabinet agencies. Discussions on 
climate change, energy, and other cross-cutting issues would be 
addressed in a plenary session and other issues will be covered in 
either the Strategic or the Economic tracks of the Dialogue, ensuring 
that all strategic aspects of the relationship can be addressed.
    While the East Asian and Pacific (EAP) Bureau is the lead in 
advancing our bilateral relationship with China, other offices in the 
State Department will work together with EAP on specific aspects of the 
relationship. The Special Envoy on Climate Change oversees discussions 
with China on that issue, and the Deputy Assistant Secretary of State 
for Energy, Sanctions and Commodities manages energy issues at the 
Department, in close coordination with the Department of Energy. As I 
said during my testimony, I intend to appoint an International Energy 
Coordinator. The Treasury Department is the lead agency on the U.S. 
Government's response to the global financial crisis, but the State 
Department, specifically under the lead of the Under Secretary for 
Economic, Energy and Agricultural Affairs and the Assistant Secretary 
in the Bureau of Economic, Energy and Business Affairs, will work very 
closely with colleagues at Treasury on this issue. The Under Secretary 
of State for Arms Control and International Security will be the 
Department lead on our nonproliferation cooperation with China.

    Question. Please describe the anticipated FY 2010 total operational 
costs and specific funding account(s) within the Department for the 
office of the Special Representative for North Korea Policy and the 
Office for the Special Envoy for Human Rights in North Korea.

    Answer. The Department will provide support in FY 2010 for both the 
office of the Special Representative for North Korea Policy and the 
Special Envoy for Human Rights in North Korea from the Diplomatic and 
Consular Program (D&CP) appropriation. This support will include salary 
costs and benefits ($567,000) for four positions; recurring 
administrative costs ($31,000); travel costs ($204,000); and 
representation funds ($5,000). The total cost is estimated to be 
$807,000.

    Question. How many North Korean refugees have arrived to date in 
the United States? What is the projected number of new arrivals through 
FY 2010? Describe evaluation procedures that are utilized to measure 
the extent of successful assimilation after their arrival in the United 
States.

    Answer. As of May 15, 2009, 82 North Koreans and their family 
members have arrived in the United States since 2004. Of these, 14 
North Koreans have arrived thus far this fiscal year. We expect 
additional arrivals prior to the end of the fiscal year. It is 
difficult to project the number of new North Korean arrivals through FY 
2010. However, we do not anticipate a significant increase in arrivals 
in the coming fiscal year.
    The Department of State's 90-day Reception and Placement Program 
provides refugees with basic necessities and core services during their 
initial period of resettlement and does not measure long-term social 
adjustment. Informal reports from the agencies resettling North Korean 
refugees indicate that they are assimilating at a rate similar to other 
refugees.

    Question. To date, what is the level of cumulative financial 
contribution, by each of the following countries, Russia, China, Japan, 
South Korea, and the United States toward the denuclearization of North 
Korea and toward the prevention of North Korea's export of WMD and 
missile-related technology since and including FY 2006?

    Answer. The United States, China, Japan, the Republic of Korea 
(ROK), and Russia committed to provide up to 1 million metric tons of 
heavy fuel oil (HFO) or equivalent materials to North Korea during the 
initial and second phases of the six-party talks in parallel with North 
Korean progress on disablement of all existing nuclear facilities.
    Between November 2007 and November 2008, the United States 
delivered 200,000 tons of heavy fuel oil to North Korea worth 
approximately $110 million. Between July 2007 to March 2009, Russia 
provided 200,000 tons of heavy fuel oil to North Korea. During the same 
time period, China provided 50,000 tons of heavy fuel oil and materials 
equivalent to 150,000 tons of heavy fuel oil. The ROK also provided 
50,000 tons of heavy fuel oil and materials equivalent to approximately 
95,000 tons. Japan did not provide energy assistance to North Korea due 
to a lack of progress on the abductions issue.
    In addition, the Department of State, Bureau of International 
Security and Nonproliferation, Office of the Nonproliferation and 
Disarmament Fund (NDF) has obligated approximately $21,897,000 on 
disablement activities at North Korea's Yongbyon nuclear facilities 
from FY2007 to FY2009.
    The United States has continued efforts to prevent North Korea's 
export of weapons of mass destruction (WMD) and missile-related 
technology, including cooperation with our partners and allies. It is 
difficult to determine the exact cost of efforts to prevent North 
Korea's proliferation of WMD and missile-related programs. Many of 
these programs conduct these activities in the broader nonproliferation 
context and do not have specific budgetary line items for halting North 
Korean proliferation. Some of the major U.S. Government 
nonproliferation programs include the Proliferation Security 
Initiative, the Export Control and Border Security Program, the 
Megaports Program, the Second Line of Defense Program, and the Secure 
Freight Initiative.

    Question. Will you encourage that a summit between the President of 
the United States and leaders of the 10 ASEAN countries be held in 
calendar year 2009?

    Answer. Deepening our relations with ASEAN is an important 
objective of our foreign policy in East Asia and we are actively 
exploring opportunities to do so. I was pleased to be able to visit the 
ASEAN Secretariat in Jakarta during my first trip to the region as 
Secretary. A summit with ASEAN members would be a positive development, 
and we certainly will explore this possibility further.
trafficking and extortion of burmese migrants in malaysia and southern 
                                thailand
    Question. A recently released staff report from the Senate Foreign 
Relations Committee provided details of the extortion and trafficking 
of Burmese migrants and refugees in Malaysia and southern Thailand. How 
does the Department's FY 2010 budget request address this ongoing 
situation?

    Answer. The Department of State is aware of credible reports dating 
from 2008 that Malaysian officials have engaged in human trafficking 
and extortion of money from Burmese migrants and refugees in Malaysia. 
In addition to the Senate Foreign Relations Committee minority staff 
report, the Department of State has noted this issue in the Trafficking 
in Persons Interim Assessment, which was released in January 2009.
    The United States has discussed these reports with the Malaysian 
Government over the past year. The USG welcomes the April 2009 
announcement by the Malaysian Government that it has launched a law 
enforcement investigation into the reports of human trafficking, and we 
look forward to hearing the results of the investigation.
    We will continue to engage with governments in the region, 
including Malaysia, Thailand, Burma, and Bangladesh, on the issue of 
human trafficking.
    The President's FY 2010 budget request includes $33.5 million in 
the Migration and Refugee Assistance (MRA) account for humanitarian 
assistance in the East Asia region, a portion of which may be used to 
help Burmese refugees and vulnerable migrants. Projected PRM 
programming in the region includes some training and capacity-building 
activities to help governments and civil society to identify and assist 
potential victims of trafficking among Burmese populations.
    The FY 2010 budget request for G/TIP of approximately $17 million 
is not broken down by region or country. G/TIP funds are distributed on 
the basis of competitive grants, so it is impossible at this point to 
predict how they will be spent. While
G/TIP is currently in the process of determining FY 2009 grant 
allocations, G/TIP distributed $3.6 million in FY 2008 funds to 
grantees working on trafficking in persons issues in the East Asia and 
Pacific region, and is currently supporting several projects in the 
region that prevent Burmese from being trafficked and/or assist Burmese 
who have become victims of human trafficking.
                                 ______
                                 

Responses of Secretary of State Hillary Clinton to Questions Submitted 
                       by Senator Robert Menendez

    Question. Many developing countries, including the poorest, are 
already being hit first and hardest by the effects of climate change 
such as floods, droughts, and disease. Helping the world's most 
vulnerable nations adapt to climate change is a moral obligation, but 
it is also essential in securing a climate treaty. To date, however, 
the United States has yet to provide any funds for the United Nation's 
Least Developed Countries Fund. I was glad to see that the 
administration's FY 2010 budget includes $50 million for the Global 
Environment Facility. Is it the State Department's intent to send a 
portion of that $50 million to the Least Developed Countries Fund or 
the Special Climate Change Fund? Such funding could go a long way 
toward building good will and starting to establish our leadership role 
on climate internationally.
    In addition, what is our overall strategy for working with 
vulnerable nations to prepare for and develop innovative strategies for 
adapting to the consequences of climate change that are occurring 
today?

    Answer. The administration's FY 2010 budget includes $50 million 
for U.N. funds based at the Global Environment Facility, including the 
Least Developed Countries Fund and the Special Climate Change Fund. We 
do not currently have a breakdown beyond the $50 million, although a 
key priority is assisting the needs of the most vulnerable. The FY 2010 
request is a first-time contribution to these U.N. funds.
    It's worth noting that this $50 million is part of a $200 million 
increase that State and USAID are seeking in FY10 for climate 
adaptation--helping vulnerable countries prepare for and respond to the 
impacts of climate change. One of the greatest challenges and 
unfortunate consequences of climate change is that the developing 
countries who contribute the least to the problem are often the most 
affected by it.
    The FY10 State and USAID budget request for Adaptation is $232 
million (estimated base funding plus $200M increase). This significant, 
new $200 million funding request will launch a major program for 
developing countries most vulnerable to effects of climate change 
(flooding, fresh water scarcity, food shortages, and population 
displacement from coastal zones).
    Additional to this $200 million, Treasury is requesting $80 million 
for FY 2010 to support this adaptation initiative by contributing to 
the World Bank's Pilot Program on Climate Resilience, a component of 
the World Bank's Climate Investment Funds. In supporting integration of 
adaptation into development programs and projects, this program will 
provide valuable lessons on how to enhance adaptation in developing 
countries.

    Question. When we discussed foreign assistance reform during your 
Senate confirmation hearing, you said that it was something you would 
pursue quickly and that you wanted to rationalize the system within the 
State Department and USAID and across the U.S. Government. Can you 
please provide an update on these efforts in light of the President's 
budget request?

    Answer. I take seriously the need to modernize how we deliver 
foreign assistance so it is as coordinated, effective, and efficient as 
possible. We have not yet fully completed our review of foreign 
assistance reform. We are thinking through these issues in a thoughtful 
and deliberative manner, and will do so in coordination with a broad 
range of stakeholders. I look forward to consulting with you as we move 
this process forward.
    While this process is ongoing, we are moving forward with 
requesting the funding necessary to build the civilian capacity at the 
Department of State and USAID. The President's budget for FY 2010 makes 
a significant investment in the future of U.S. diplomacy and 
development. It will add over 1,200 positions for the Department of 
State. Roughly 70 percent of the Foreign Service positions will be 
overseas, with the bulk of the remainder of the new positions focused 
on training in critical 21st century skills and supporting overseas 
programs. The budget also provides resources for 350 new USAID Foreign 
Service positions--necessary to strengthen the management and oversight 
of our foreign assistance programs. The budget also builds the civilian 
capacity to manage and lead efforts in post-conflict states through the 
Civilian Stabilization Initiative, which, in conjunction with the 
Stabilization
Bridge Fund, allows the United States to respond to crises more 
holistically. And, importantly, this request also puts the 
administration on track to double foreign assistance by 2015, thereby 
providing the resources we need to help the world's poorest states 
reduce poverty, combat global health threats, develop markets, and 
strengthen civil society.
    The International Affairs budget represents a fraction of what our 
Government spends each year on national security. Yet today, diplomacy 
and development are ever more essential to safeguarding the security 
and prosperity of our people and our Nation. While military force is an 
important part of our national security, so too are our diplomatic and 
development efforts, which are often the central means by which America 
can promote stability, confront security challenges, advance economic 
transformation, respond to humanitarian crises, and encourage better 
governance, policies, and institutions. Expenditures on diplomacy and 
development represent an investment that in the long run is less costly 
in terms of lives and dollars than defense spending that would 
otherwise be required.

    Question. The President has requested ongoing funding for the 
Millennium Challenge Corporation (MCC). Can you provide an update on 
the future of the MCC in the Obama administration in light of the 
funding request?

    Answer. Under my leadership, the State Department will continue to 
support MCC and its underlying principle of greater accountability in 
our foreign assistance programs. MCC's mission of sustainable poverty 
reduction through long-term development is an important asset in 
America's smart power toolbox, and its focus on country ownership and 
accountability has helped build local capacity, encourage broad civil 
society consultation, and advance policy reform. MCC focuses on working 
in countries where the policy climate is most fertile for using 
assistance to generate sustainable results. This focus is yielding 
meaningful poverty reduction and strengthening good governance, 
economic freedom, and investments in people. As I review our 
development assistance framework and goals, I will consider how best to 
build on the promise of MCC within the administration's overall 
development assistance strategy.

    Question. What are your thoughts regarding the F Process? Do you 
anticipate that the F Bureau will be continued in its current 
configuration? If not, what changes do you anticipate making?

    Answer. I am committed to making sure that foreign assistance is 
properly managed and implemented. I take seriously the need to 
modernize how we deliver foreign assistance so it is as strategic, 
effective, and coordinated as possible. We have not yet fully completed 
our review of foreign assistance reform. We are thinking through these 
issues in a thoughtful and deliberative manner and will coordinate with 
a broad range of stakeholders.
    The focus in these first few months has been on securing the 
necessary resources to implement a ``smart power'' agenda. I remain 
committed to improving and streamlining our delivery of foreign 
assistance and look forward to consulting closely with the Congress in 
the weeks ahead.

    Question. Do you intend to maintain the dual role of the USAID 
Administrator in serving as the Director of Foreign Assistance? Also, 
can you provide a timeframe when you think a USAID Administrator will 
be nominated?

    Answer. I am committed to development and to rebuilding the 
civilian capacity of the U.S. Government, including a strong USAID. 
Development is an equal partner, along with defense and diplomacy, in 
the furtherance of America's national security.
    We are actively engaged in finding the right mix of talent to lead 
USAID, and I believe we should have some news on that front in 
relatively short order. We must get this right, and I am committed to 
doing so.
    With respect to ``dual hatting'' and other aspects of our foreign 
assistance architecture, no final decisions have yet been made. I have 
charged Deputy Secretary Lew with conducting a comprehensive review of 
a broad range of foreign assistance programs and implementation 
mechanisms (State, including PEPFAR; USAID; and MCC) to ensure maximum 
efficiency, coherence, and effectiveness. I look forward to briefing 
you on the outcome of that review once completed.

    Question. Human Resources at USAID: Civilian expertise on the 
ground is critical to our foreign assistance efforts. I realize that 
you are increasing staffing substantially, and I am pleased to see 
this. However, I am concerned that USAID does not have the 
administrative capacity and flexibility to get the people they need, 
where they need them, when they need them. Hiring hundreds of junior 
officers who will need 3-5 years of training until they can be ``up to 
speed,'' will limit the ability of USAID to regain its former 
prominence in a timely manner. Why isn't USAID hiring more mid-level or 
senior-level officers? Can you please discuss what efforts you intend 
to take to increase the capacity within the Human Resource office at 
USAID and increase the strategic human resource expertise to recruit, 
train, and retain top-notch USAID officers? How do you intend to 
rationalize the PSCs, FSLs, and Institutional Contractors as a part of 
your overall human resource capacity-building agenda for USAID?

    Answer. USAID clearly recognizes the need to hire individuals who 
will more rapidly be able to step into mid-level positions. To that 
end, USAID will hire 30 mid-level officers under the Development 
Leadership Initiative (DLI) as provided for in the Omnibus 
Appropriations Act, P.L. 111-8. Additionally, USAID will also hire 
additional mid-level officers against FY 2009 and beyond attrition. 
USAID's Office of Human Resources (OHR) will continue to seek avenues 
to increase its mid-level ranks while ensuring that its existing work 
is not adversely impacted by this increase.
    Except in extremely limited circumstances, USAID does not hire FS 
career employees at senior levels. USAID's mid-level career Foreign 
Service hiring includes individuals at FS-2 (GS-14 equivalent). The job 
responsibilities for permanent positions above this level require a 
significant amount of USAID experience. In fact, before an officer can 
be promoted to FS-1 (GS-15 equivalent), he/she must have 4 years of 
USAID direct hire experience.
    USAID is strengthening OHR in numerous ways including the addition 
of individuals in training, staffing, recruiting, and outreach. Also, 
USAID is adding an additional Social Worker.
    As the USAID Foreign Service increases in size and experience over 
the next several years due primarily to DLI, USAID will be creating 
many more permanent positions overseas. This will result in the 
phaseout of many nonpermanent positions held by Personal Services 
Contractors, Foreign Service Limited, and Institutional Contractors. 
This will not result, however, in the elimination of these nonpermanent 
positions. USAID will always have the need to employ individuals with 
highly specialized expertise or limited-term functions worldwide under 
nonpermanent mechanisms.

    Question. Paraguay-Brazil Itaipu Dam Issue: Please provide an 
update on your efforts to encourage Brazil and Paraguay to come to a 
fair and just resolution to the Itaipu Dam issue.

    Answer. The issue of the Itaipu Dam is being discussed at a 
personal level between Presidents Lugo and Lula. Neither party has 
asked for our assistance. We expect they will be able to reach an 
agreement acceptable to both countries.

    Question. The President's budget requests a 38-percent decrease in 
assistance to Armenia. Please provide a justification for this decrease 
in funding for Armenia. Congress has allocated equal levels of aid to 
Armenia and Azerbaijan for years. Why has the President now requested 
such a disparity in assistance for the two countries?

    Answer. The United States has had a strong partnership with the 
Republic of Armenia since it became independent in 1991, and that close 
relationship is continuing in this administration. Over the past 18 
years, we have provided over $1.8 billion in assistance to Armenia, 
addressing humanitarian needs, promoting economic growth and fostering 
market reforms, building democratic institutions, and improving the 
functioning of the social sector. We have also built a collaborative 
relationship with Armenia's law enforcement and military structures 
over the years by providing training, equipment, and other assistance 
aimed at helping Armenia integrate into international organizations and 
participate in international peacekeeping missions. More recently, the 
Millennium Challenge Corporation has been providing infrastructure and 
other support aimed at reducing rural poverty in Armenia, under a 5-
year, $235 million Compact.
    The administration's $30 million FY 2010 request for Armenia under 
the Assistance for Europe, Eurasia, and Central Asia (AEECA) account is 
$6 million (25 percent) above the previous administration's $24 million 
FY 2009 budget request. As a result of subsequent congressional action, 
the appropriated amount for FY 2009--$48 million--doubled the 
administration's request.
    In comparison, the United States has provided about $753.3 million 
in assistance to Azerbaijan during the FY 1992-FY 2007 timeframe. The 
administration's $22.1 million FY 2010 AEECA request for Azerbaijan is 
$2.6 million (13.5 percent) above the previous administration's $19.5 
million FY 2009 budget request. The final FY 2009 appropriation for 
Azerbaijan was $18.5 million, $1 million less than the administration's 
request.
    Military assistance to Armenia and Azerbaijan, in light of the 
ongoing Nagorno-Karabakh conflict, is carefully considered and 
calibrated to ensure that it does not hamper ongoing efforts to 
negotiate a peaceful settlement between Armenia and Azerbaijan. Over 
the years, we have built a collaborative relationship with Armenia's 
military structures by providing training, equipment, and other aid 
aimed at developing Armenia's capacity to cooperate with NATO and 
participate in international peacekeeping missions.
    The $3 million request for funding under the Foreign Military 
Financing (FMF) program for Armenia for FY 2010 is the same as the 
level directed by Congress for FY 2009. For Azerbaijan, the FMF level 
increased from $3 million in FY 2009 to $4 million in the FY 2010 
request. This specific increase is linked to U.S. priorities in 
fighting terrorism, peacekeeping, and maritime security, including 
countering proliferation and drug trafficking on the Caspian Sea. The 
administration believes that building up the capacity of Azerbaijan and 
other Caspian littoral states is important to prevent the transit of 
destabilizing items and to secure energy transit routes that are 
critical to U.S. national security interests.

    Question. I understand that Secretary Rice made it clear in 2004 
when the United States recognized the Former Yugoslav Republic of 
Macedonia as ``Macedonia'' that this was a temporary name, pending the 
two countries' finding a mutually acceptable final name through the 
United Nations. Can you describe the steps you are taking to arrive at 
a fair and mutually acceptable resolution to the name issue?

    Answer. It has been longstanding United States policy to urge 
Macedonia and Greece to pursue a mutually acceptable solution to their 
differences over Macedonia's name through the ongoing U.N. mediation 
process led by Ambassador Matthew Nimetz. We have actively encouraged 
dialogue between Athens and Skopje and urged both sides to engage fully 
in the U.N. process. Deputy Secretary of State Steinberg delivered that 
message personally during his visit to Athens and Skopje on May 16 and 
17 respectively. Our Ambassador to Macedonia also reiterates this 
position regularly and clearly to the Macedonian leadership. Ambassador 
Speckhard conveys the same to Greek officials. We believe a negotiated 
solution to this issue is in everyone's best interest and would enhance 
regional stability, including by allowing Macedonia to join NATO and 
move closer toward EU accession. I am fully committed to resolving this 
issue in a way that is acceptable to both parties and I can assure you 
that the United States will do all that we can to support Nimetz's 
efforts.

                                  <all>

</pre></body></html>
